<html>
<title> - PUBLIC SAFETY COMMUNICATIONS FROM 9/11 TO KATRINA: CRITICAL PUBLIC POLICY LESSONS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



  PUBLIC SAFETY COMMUNICATIONS FROM 9/11 TO KATRINA: CRITICAL PUBLIC 
                             POLICY LESSONS

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 2005

                               __________

                           Serial No. 109-52

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
24-252PDF                WASHINGTON : 2005
______________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001

                    ------------------------------  

                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

RALPH M. HALL, Texas                 JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida             Ranking Member
  Vice Chairman                      HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia             BART GORDON, Tennessee
BARBARA CUBIN, Wyoming               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
HEATHER WILSON, New Mexico           BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona             ELIOT L. ENGEL, New York
CHARLES W. ``CHIP'' PICKERING,       ALBERT R. WYNN, Maryland
Mississippi, Vice Chairman           GENE GREEN, Texas
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania        JIM DAVIS, Florida
MARY BONO, California                JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  HILDA L. SOLIS, California
LEE TERRY, Nebraska                  CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey            JAY INSLEE, Washington
MIKE ROGERS, Michigan                TAMMY BALDWIN, Wisconsin
C.L. ``BUTCH'' OTTER, Idaho          MIKE ROSS, Arkansas
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee

                      Bud Albright, Staff Director

        David Cavicke, Deputy Staff Director and General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Telecommunications and the Internet

                     FRED UPTON, Michigan, Chairman

MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                 Ranking Member
PAUL E. GILLMOR, Ohio                ELIOT L. ENGEL, New York
ED WHITFIELD, Kentucky               ALBERT R. WYNN, Maryland
BARBARA CUBIN, Wyoming               MIKE DOYLE, Pennsylvania
JOHN SHIMKUS, Illinois               CHARLES A. GONZALEZ, Texas
HEATHER WILSON, New Mexico           JAY INSLEE, Washington
CHARLES W. ``CHIP'' PICKERING,       RICK BOUCHER, Virginia
Mississippi                          EDOLPHUS TOWNS, New York
VITO FOSSELLA, New York              FRANK PALLONE, Jr., New Jersey
GEORGE RADANOVICH, California        SHERROD BROWN, Ohio
CHARLES F. BASS, New Hampshire       BART GORDON, Tennessee
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE FERGUSON, New Jersey            BART STUPAK, Michigan
JOHN SULLIVAN, Oklahoma              JOHN D. DINGELL, Michigan,
MARSHA BLACKBURN, Tennessee            (Ex Officio)
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Botterell, Art, Emergency Information Systems Consultant.....   103
    Boyd, David G., Director, Safecom Program Office, Science and 
      Technology Directorate, Department of Homeland Security....    62
    Hitch, Vance E., Chief Information Officer, Department of 
      Justice....................................................    69
    Kramer, Harold, Chief Operating Officer, The National 
      Association for Amateur Radio..............................   112
    Martin, Hon. Kevin J., Chairman, Federal Communications 
      Commission.................................................    13
    Miller, Lt. Col. Thomas J., Deputy Director, Michigan State 
      Police.....................................................    98
    Roemer, Timothy J., Director of the Center for National 
      Policy.....................................................    94
    Trujillo, Tony, Chairman, Satellite Industry Association.....   107
Material submitted for the record by:
    Botterell, Art, Emergency Information Systems Consultant, 
      response for the record....................................   172
    Gyllstrom, Gregory W., Vice President/General Manager, 
      Aftermarket, Visteon Corporation, prepared statement of....   122
    Kelley, Edwin A.,Principal Engineer, Interoperable Wireless, 
      prepared statement of......................................   127
    Kramer, Harold, Chief Operating Officer, The National 
      Association for Amateur Radio, response for the record.....   171
    Martin, Hon. Kevin J., Chairman, Federal Communications 
      Commission, response for the record........................   173
    Miller, Lt. Col. Thomas J., Deputy Director, Michigan State 
      Police, response for the record............................   183
    Roemer, Timothy J., Director of the Center for National 
      Policy, response for the record............................   185
    Trujillo, Tony, Chairman, Satellite Industry Association, 
      response for the record....................................   186
    Vaughn, John, Vice President and General Manager, Wireless 
      Systems, M/A-COM, Inc., prepared statement of..............   153

                                 (iii)

  

 
  PUBLIC SAFETY COMMUNICATIONS FROM 9/11 TO KATRINA: CRITICAL PUBLIC 
                             POLICY LESSONS

                              ----------                              


                      THURSDAY, SEPTEMBER 29, 2005

              House of Representatives,    
              Committee on Energy and Commerce,    
                     Subcommittee on Telecommunications    
                                          and the Internet,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
room 2322 of the Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Stearns, Whitfield, 
Shimkus, Pickering, Fossella, Radanovich, Bass, Terry, 
Blackburn, Barton (ex-officio), Wynn, Towns, Gordon, and 
Stupak.
    Staff present: Howard Waltzman, chief counsel, 
telecommunications and the Internet; Neil Fried, majority 
counsel; Kelly Cole, majority counsel; Will Norwind, policy 
coordinator; Jaylyn Jensen, senior legislative analyst; Anh 
Nguyen, legislative clerk; Johanna Shelton, minority counsel; 
and Peter Filon, minority counsel.
    Mr. Upton. Good afternoon. To me this seems like it is 
morning because we started a markup yesterday on refineries at 
8 a.m. and we finished a little bit after midnight this morning 
so it was a 16-hour markup, passed by voice and many of us are 
still wondering which day it is. And we also have my friend and 
colleague, Mr. Markey, that serves on the Natural Resources 
Committee as well and they have got a major bill on the floor 
so we will be expecting members to come in and out. I apologize 
for the room. It is actually not a bad room. But we were 
scheduled for what we call the big house downstairs, 2123, but 
there is another subcommittee hearing on at the same time and 
they needed the video conferencing for that witness to appear 
from, I think, Louisiana or Alabama. So in an effort to 
maintain good relations with my chairman, I indicated that we 
would swap for this hearing.
    Today's hearing is entitled ``Public Safety Communications 
from 9/11 to Katrina: Critical Public Policy Lessons'' which is 
designed to explore the issues of interoperability as they 
relate to our heroic first responders in public safety 
organizations. Interoperability is, at its core, the ability 
for various public safety groups to communicate with each 
other. To best equip our Nation's first responders to do their 
job, they must be able to communicate with one another, not 
just between fire, police, EMS in one jurisdiction, but also on 
the local, State, and Federal jurisdictions. For any disastrous 
event, it is our Nation's first responders who answer the call 
of relief. When citizens are forced to evacuate to protect 
themselves, it is our Nation's first responders who run the 
opposite direction into harm's way. For this very reason, 
interoperable communications are vitally important. For 
instance, on the morning of September 11, New York police 
officers were able to hear the radio warnings from helicopters 
that the North Tower of the World Trade Center was glowing red 
and most of the police officers exited the building safely, 
while dozens of firefighters who could not hear those same 
warnings, tragically perished when the tower collapsed. The 
radio communication system of the police was not compatible 
with the system that the fire department was using, 
consequently, no warnings could be heard and many, many lives 
were lost.
    We were faced with some horrible lessons on 9/11 and we are 
here today to examine another disaster, Hurricane Katrina. 
Crisis communications during both of these tragic events 
failed. There is no doubt that achieving interoperability 
throughout our Nation has proven to be a monumental multi-
faceted challenge and there are a number of reasons for this.
    Two points which I think was most important include the 
availability of spectrum and funding issues. Back in 1997, 
Congress directed 24 megahertz of spectrum in the upper 700 
megahertz band to be allocated to public safety. However, that 
spectrum is currently occupied by the broadcasters and will be 
until the transition to digital TV is complete. Chairman Barton 
and I, Ranking Member Dingell and Markey have spent countless 
hours working to free that valuable spectrum for public safety 
by crafting legislation setting a hard date for spectrum return 
as a vital and necessary step that must occur to make 
interoperability a reality, and we are committed to making it 
happen sooner rather than later.
    The need for additional spectrum to replace old and 
antiquated equipment is another challenge for cash strapped 
State and local governments. According to information collected 
from grantees, total State expenditures for interoperable 
communication projects from the Department of Homeland Security 
Grant Program totaled nearly $1 billion in fiscal year 2004 
alone.
    Despite such large sums, Katrina showed us that we are 
still well behind the curve. What will it take to make 
interoperability a reality? How much more time, how much more 
money do we need to spend to make interoperability seamless? We 
cannot sit back for another natural disaster or another 
terrorist attack to strike. It has been 4 years since the 
attack of 9/11. And as Katrina made us all acutely aware, sadly 
we are far from where we need to be. But let me be clear, I 
recognize that this is a far bigger problem than simply a lack 
of funds or a lack of new equipment. Thousands of shiny new 
radios will not fix the problem if we don't have a strategic 
plan that allows all of these new radios to interact with each 
other. We need coordination among Government at all levels to 
ensure the equipment purchases of one municipality work with 
the jurisdiction next door. We need a national vision for 
funding equipment and technology. I plan to ask all the 
witnesses here today, who is going to fill that leadership 
vacuum? These are all the questions we need to answer, we must 
answer to ensure that our first responders can do their job. 
That is literally a matter of life and death.
    Finally, I would like to welcome FCC Commissioner Chairman 
Kevin Martin to our committee. It is the first time he has 
appeared before us in his new capacity as Chairman. I thank 
each of our witnesses today. I also want to say is I have spent 
time with Chairman Martin. I particularly appreciate the work 
that he and all the commissioners did in reacting so swiftly to 
the deep-set problems that we saw with the hurricane. His 
folks, he and all the folks within the Commission worked many, 
many overtime hours through the weekends doing the things that 
they had to do to save lives and to get that equipment up and 
running, and for that, the Nation is eternally grateful. And I 
yield at this time to my colleague for an opening statement 
from the great State of Michigan, Mr. Stupak.
    [The prepared statement of Hon. Fred Upton follows:]
   Prepared Statement of Hon. Fred Upton, Chairman, Subcommittee on 
                  Telecommunications and the Internet
    Good afternoon. Today's hearing is entitled ``Public Safety 
Communications from 9/11 to Katrina: Critical Public Policy Lessons'' 
which is designed to explore the issues of interoperability as they 
relate to our heroic first responders and public safety organizations.
    Interoperability is, at its core, the ability for various public 
safety groups to communicate with each other. To best equip our 
nation's first responders to do their job, they must be able to 
communicate with one another, not just between fire, police, and EMS 
within one jurisdiction, but also among local, state, and federal 
jurisdictions.
    During any disastrous event, it is our nation's first responders 
who answer the call of duty. As citizens are forced to evacuate to 
protect themselves, it is our nation's first responders who run the 
opposite direction--into harm's way. For this very reason, 
interoperable communications are vitally important. For instance, on 
the morning of September 11th, 2001, New York police officers were able 
to hear the radio warnings from a helicopter that the North Tower of 
the World Trade Center was glowing red, and most of the police officers 
exited the building safety--while dozens of firefighters, who could not 
hear these warnings, tragically perished when the tower collapsed. The 
radio communications of the police was not compatible with the system 
that the fire department was using, consequently, no warnings could be 
heard, and many lives were lost.
    We were faced with some horrible lessons on 9/11, and we are here 
today to examine another disaster, Hurricane Katrina. Crisis 
communications during both of these tragic events failed. There is no 
doubt that achieving interoperability throughout our nation has proven 
to be a monumental, and multi-faceted, challenge and there are a number 
of reasons for this. The two problems I view as most important include 
the availability of spectrum and funding issues.
    Back in 1997, Congress directed 24 Megahertz of spectrum in the 
Upper 700 Megahertz band to be allocated to public safety. However, 
that spectrum is currently occupied by broadcasters, and will be, until 
the transition to digital television is complete. Chairman Barton and I 
have spent countless hours working to free that valuable spectrum for 
pubic safety by crafting legislation setting a hard date for spectrum 
return. This is a vital and necessary step that must occur to make 
interoperability a reality and we are committed to making it happen--
sooner rather than later.
    Beyond additional spectrum, to replace old and antiquated equipment 
is another challenge for cash-strapped State and local governments. 
According to information collected from grantees, total State 
expenditures for interoperable communications projects from Department 
of Homeland Security grant programs totaled nearly a billion dollars in 
fiscal year 2004 alone. Despite such large sums, Hurricane Katrina 
showed us that we are still well behind the curve. What will it take to 
make interoperability a reality? How much more time and how much more 
money do we need to spend to make interoperability seamless? We cannot 
sit back for another natural disaster or terrorist attack to strike. 
It's been 4 years since the attacks of 9-11, and as Katrina made us all 
acutely aware, sadly, we are far from where we need to be.
    But let me be clear--I recognize that this is a far bigger problem 
than simply a lack of funds or a lack of new equipment. Thousands of 
shiny new radios will not fix the problem if we don't have a strategic 
plan that allows all of these new radios to interact with each other. 
We need coordination among government at all levels to ensure the 
equipment purchases of one municipality work with the jurisdiction next 
door. We need a national vision for funding, equipment and technology. 
I plan to ask all of the witnesses here today, who will fill that 
leadership vacuum? These are all questions we need to answer, we must 
answer, to ensure our first responders can do their job. This is 
literally, a matter of life and death.
    Finally, I'd like to welcome FCC Chairman Kevin Martin to our 
Committee--this is the first time he's appeared before us in his new 
capacity as Chairman. And thank you to each of the witnesses for being 
here today. I look forward to hearing from all of you and learning the 
answers to my questions.

    Mr. Stupak. Thank you, Mr. Chairman.
    Thank you for calling this critical hearing on the lack of 
interoperability communications for first responders. I would 
also like to extend a special welcome to Lieutenant Colonel Tom 
Miller from Michigan State Police.
    Mr. Chairman, I would like to start with a quote. ``It is 
important that we understand in the first minutes and hours 
after attack, that the most hopeful time to save lives and that 
is why we are focusing on the heroic efforts of those first 
responders. That is why we want to spend money to make sure 
equipment is there, strategies are there, communications are 
there to make sure that you have whatever it takes to 
respond.'' That was President George Bush in February 2002. I 
agree with his words 100 percent, but unfortunately there has 
been scant follow-through on these words. The communication 
equipment is not there. The strategies are incomplete and the 
money has not been spent. State and local Governments have 
received little guidance and fewer Federal dollars.
    The inability of our first responders to communicate with 
each other is a problem known to most of us in this room for 
years, but was brought to the national spotlight beginning way 
back in 1995 with the Murrah Building, again on September 11, 
and most recently with the hurricanes. I wonder when this 
Congress will finally make a real commitment to first responder 
communications.
    The 9/11 Commission agreed with those of us who called for 
a much larger Federal commitment. Their final report stated, 
and once again I would like to quote, ``The occurrence of this 
problem at three very different sites is drawing evidence that 
compatible and adequate communications among the public safety 
organizations at the local, State, and Federal levels remain an 
important problem. Federal funding of such interagency 
communication units should be given high priority.'' Sadly, 4 
years after September 11, the recommendations of the 9/11 
Commission have fallen on deaf ears and the President has not 
kept his commitment. The 2 years after September 11, a mere 
$260 million was granted for interoperable communication grants 
at Department of Homeland Security. The President has never 
requested money again for the grants in Congress and it has 
never funded interoperability grants again.
    While $260 million may be a drop in the bucket of the 
estimated $18 billion that full operability will cost, it was a 
start. In fact, the Administration has spent--excuse me. In 
fact, the Administration has a $10 billion plan to make its 
80,000 Federal law enforcement agents interoperable, while 
there are over 75,000 first responders in my State of Michigan 
alone.
    Frankly, given the lack of funding and the lack of 
planning, I was not surprised by the communication breakdown 
during and after Hurricane Katrina. I know that many in this 
room were not either, but I am outraged at how little has been 
accomplished. Just as with September 11, during Katrina, 
helicopters could not communicate with rescuers on the ground. 
Just as with September 11, radio channels were overwhelmed with 
traffic. Just as with September 11, police could not talk to 
firefighters. Just as with September 11, those watching TV had 
better information than the first responders on the ground.
    The Administration had the opportunity to learn a lot after 
September 11 but I am afraid they failed to listen. Then FEMA 
Administrator Brown said the agency failed to anticipate and I 
quote ``The total lack of communication, the inability to hear 
and have good intelligence on the ground about what was 
occurring there.'' Perhaps Mr. Brown should have read the 
report published by the U.S. Conference of Mayors. According to 
their report released in June of 2004, more than 80 percent of 
America's cities are not interoperable with Federal agencies.
    We are going to hear today about the need for spectrum and 
the need for plans, but all those things come down the road. 
The Administration says it will take over 20 years to become 
interoperable. We don't have 20 years. This committee needs to 
act this year on legislation, legislation I have introduced 
with Congressman Fossella and Congressman Engel.
    I see my time is up, Mr. Chairman, so let me put the rest 
of my statement in the record. As you know, I have been on this 
issue for a long time and it is quite frustrating to have 
hearing after hearing and nothing happens. I am hopeful 
something will happen and happen this year.
    Mr. Upton. Thank you. Mr. Shimkus?
    Mr. Shimkus. Thank you, Mr. Chairman.
    I appreciate you calling the hearing. Obviously, we have a 
lot to talk about. I will just briefly address a piece of 
legislation that I am going to introduce along this--the 
companion legislation has already been introduced on the Senate 
side by Senators DeMint and Stevens, Nelson, and Inouye called 
the Warn Act which the basic premise is this. We do have our 
only real emergency broadcast system right now is the Free Over 
Air provided by our broadcasters. Telecommunications has 
changed dramatically as we all know, especially those of us who 
follow in this arena, and we have got to develop a way that we 
use all our telecommunications assets to broadcast immediate 
alerts. And we look forward to working with you, Mr. Chairman 
on that legislation and look forward to hearing.
    I yield back my time.
    Mr. Upton. Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman for calling this 
important hearing.
    We saw an unprecedented collapse of communications on all 
levels in the wake of Hurricane Katrina. I am particularly 
concerned about the collapse of the 911 system. According to 
the FCC, 38 911 centers went down leaving citizens with no way 
to call for help and severely hampering rescue and relief 
efforts. Because the Legacy 911 System is not interoperable, 
once a local 911 center fails, there is no back up. The 911 
system is a critical component of the Nation's emergency 
communication system. A 911 call is the first cry for help and 
the first alarm. It is--it tells first responders where to go 
and what to expect when they get there.
    We lost that link between citizens and first responders 
during by virtue of Katrina. And the 911 call center--well, 
excuse me. By virtue of our experiences there, we found that we 
lost those 911 centers and which they also frequently function 
as the dispatch center for fire, police, EMS, and all three in 
many areas. It would be a mistake to talk about 
interoperability issues for the first responders without also 
considering 911 call centers. They are an integral part of 
local emergency communication systems.
    Along with Representatives Eshoo and Shimkus, I have 
introduced a bill several months ago that works toward an IP 
based emergency response system that would allow another 911 
center to take calls if one call center fails. The IP based 
system would also empower 911 centers to share information and 
coordinate responses in the event of regional disasters. This 
bill also ensures that millions of people who use voice over 
the internet protocol phone service have full 911 e-911 
services. I understand this hearing will focus on 
interoperability issues for the first responders; however, I 
hope the committee would at a later date address the Nation's 
911 system so that we can also bring this to light.
    Thank you, Mr. Chairman.
    Mr. Upton. Mr. Terry.
    Mr. Terry. Thank you, Mr. Chairman, for calling this 
hearing and our witnesses. Mr. Martin, thank you for being 
here.
    I would agree with the facts on the accusations laid for by 
our friend from Michigan, Bart. They are serious voids and they 
have been identified as long as a decade ago before September 
11 about the inoperability between our first responders. And I 
will tell you, I just spent 8 years on our city council and 
went through an upgrade of our emergency systems. We tried to 
get other agencies, other counties to join us in a total 
metropolitan communication so every sheriff, police, fire all 
of them could talk together and I will tell you what, it 
delayed it for almost 2 years just trying to get people, the 
other agencies to even sit down and talk with us.
    The State of Nebraska has made interoperability one of the 
priorities of our homeland security that is the State plan. 
What happened? Instantly, the counties started fighting with 
each other. And so yes, we have a lot of hurdles to get over. 
Once we free up the spectrum, once again Chairman, we need to 
get the D-TV blow up. We need to get the action, the hard date, 
and move forward because a lot of this can be resolved, at 
least the technical aspects, with having more spectrum.
    We are going to have to focus on the political part of 
this, too. With so many local agencies, we want to make sure 
that they remain autonomous but they are not going to become 
inoperable or interoperable if they won't go there. And so we 
have got to figure out how we do this, how we do it delicately. 
There are other issues not only of spectrum and equipment and 
technology and political cooperation but, you know, how do you 
keep the lights on when the lights are off everywhere else, so 
distributed energy certainly has to be a focus of this as well. 
There are just so many issues. That is why it is important we 
have hearings like this to kind of vent through some of those 
issues, the complexity of those issues.
    And so I want to thank you, Chairman, and thank the panel. 
Yield back.
    Mr. Upton. Ms. Blackburn.
    Ms. Blackburn. I will waive my opening statement and 
reserve my time for questions. Thank you, sir.
    Mr. Upton. Okay. Well that concludes our opening 
statements. I will make a motion that all members will have an 
opportunity to submit their opening statements as part of the 
record.
    [Additional statements submitted for the record follow:]
Prepared Statement of Hon. Cliff Stearns, a Representative in Congress 
                       from the State of Florida
    Thank you Mr. Chairman, for holding this hearing on our public 
safety communications infrastructure.
    Today, it is easier for Americans to communicate than ever before, 
and information is incredibly easy to access. This has improved the 
quality of life for millions of Americans, but our reliance on 
communications might have a drawback: when disaster strikes and 
disables our communications infrastructure, people can't reach their 
loved ones or find out the latest news, resulting in inconveniences and 
dangers that can be especially painful.
    Millions of Americans suffered from a massive breakdown in 
communications after Katrina hit the Gulf Coast. The disaster exposed 
the communications infrastructure in the area as extremely fragile. Yet 
many telecom providers dealt with the unprecedented situation in 
exemplary fashion.
    The wireless industry quickly adapted by using mobile cell sites, 
VoIP services provided critical emergency communications, and the 
satellite industry's role in the aftermath of Katrina was also 
impressive.
    I was also pleased to see that many of these private businesses 
offered free services for those who were in the affected areas.
    While the industry continues to do its part to help Americans deal 
with disasters and maintain communications, it is imperative that 
Congress do what we can to improve our nation's ability to communicate 
during disasters, be they natural or a result of terrorism.
    We can complete the DTV transition and allocate the critical 
spectrum for emergency services and first responders.
    We can update our nation's telecom laws, which will provide the 
regulatory and legal certainty the industry needs to invest and 
innovate, and which will in turn undoubtedly result in even more 
effective and reliable communications technology.
    We can promote interoperability, be it through some sort of 
legislation or in increased funding.
    Perhaps even some sort of tax credits to help telecom firms recover 
from these recent disasters.
    During this hearing, I hope to hear even more ways that we can help 
to improve disaster communications.
    I look forward to the testimony of all the witnesses here today, 
especially Kevin Martin, who is before this subcommittee for the first 
time in his capacity as Chairman of the FCC, and who has provided 
excellent leadership during these critical times.
                                 ______
                                 
    Prepared Statement of Hon. Paul E. Gillmor, a Representative in 
                    Congress from the State of Ohio
    Mr. Chairman: Thank you for holding this hearing today to further 
investigate the growing need to make our first responder communication 
systems more interoperable.
    After the horrific events of 9/11, we began to really see the need 
and importance of interoperable communications for our country's first 
responders. Yet today, we are here to discuss the problems that 
Hurricanes Katrina and Rita caused the brave men and women who, 
irregardless of self, charged into the disaster areas to provide aid to 
their family members, friends, and quite often, complete strangers.
    One major obstacle that we continue to talk about is the release of 
the 700Mhz spectrum currently being utilized by television broadcasters 
to send their analog signal into American households. Mr. Chairman, I 
was pleased to see you and Chairman Barton taking decisive action to 
remedy this problem. The circulated staff draft of the Digital 
Television Transition Act was a positive and fair step towards making 
this spectrum available--sooner rather than later. Yet, this is not the 
only answer to the issue of interoperability. Proper coordination among 
federal, state, and local entities is an equally important component in 
making sure that, when the spectrum becomes available, that no time is 
wasted in rolling out the new communications infrastructure to our 
firefighters, policemen, emergency medical technicians, and volunteer 
aid organizations.
    Mr. Chairman, thank you again for holding this hearing and, 
finally, I would like to welcome all of our panelists here today and I 
look forward to your testimony on this timely issue.
                                 ______
                                 
Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming
    Thank you, Mr. Chairman.
    I look forward to our hearing today on the status of America's 
emergency communications systems. Having just observed the 4th 
anniversary of the terrorist attacks of 9/11, and the disruption and 
damage of Hurricanes Katrina and Rita, this is a timely and appropriate 
topic.
    As I'm sure our witness will demonstrate today, there is more to 
improved public safety communications than some grant money here, and a 
spectrum allocation there. A nationwide and coordinated effort is 
paramount.
    Like many states, Wyoming is working on a statewide interoperable 
communications system. Our system is fairly unique, though, since it is 
a VHF-based system and does not reside in upper areas of spectrum that 
more urban and populous states use.
    VHF signals are better suited for the vast open spaces we enjoy out 
west, and I am interested in learning from the experts assembled here 
about how this system can work in concert with other communications 
systems in the upper radio bands. Additionally, I would like to learn 
what the federal plans are for building out a communications network in 
the VHF band.
    Interoperability and interference-free communication for our first 
responders is a worthy goal and I look forward to hearing testimony on 
where we are, how we got here and what is the best path going forward 
to achieve this goal.
    Thank you again, Mr. Chairman for opening this dialog and look 
forward to hearing from our witnesses. I yield back the balance of my 
time.
                                 ______
                                 
Prepared Statement of Hon. Mike Ferguson, a Representative in Congress 
                      from the State of New Jersey
    Thank you Chairman Upton for holding this hearing. The recent 
tragedy of Hurricane Katrina has not only highlighted the inadequacy of 
our crisis communications infrastructure, it brought the fore the need 
for Congress to act immediately.
    Thanks to your commitment to moving DTV legislation this fall, we 
will have the opportunity to ensure that the 24 MHz spectrum dedicated 
to public safety use will finally be available to our first responders, 
who need it now more than ever.
    A few weeks ago, I traveled down to Baton Rouge to help with the 
relief efforts. One of the things I packed with me were a few satellite 
phones to deliver to our colleague Bobby Jindal so his staff can make 
the critical communications necessary to help his constituents. In the 
immediate days after Katrina, these were among the only means of 
communication. Clearly, we need to do better.
    I would like to briefly highlight the great work companies in my 
District have done to help the Gulf Coast region to help overcome these 
communications shortcomings. The Lucent Technologies and Bell Labs 
teams have drawn on their expertise in network disaster recovery, 
helping to re-establish vital communications services. In addition, 
they have provided on-site and remote technical support, and emergency, 
back-up and replacement equipment to more than a dozen of the Gulf 
Region's service providers.
    AT&T has also pitched in, dispatching five Emergency Communications 
Satellite Units which are currently being used by the Louisiana State 
Police, the Louisiana National Guard, and others, and donating AT&T 
35,000 AT&T PrePaid Phone Cards, each good for distribution to 
hurricane survivors by the Red Cross and Salvation Army. I am proud of 
both hometown companies have done and this subcommittee thanks you.
    Now it is time for Congress to pitch in, to learn from past 
communications shortcomings and help ensure that we close the gap in 
communications among our first responders and achieve true 
interoperability. I look forward to hearing the views of FCC Chairman 
Kevin Martin, our former colleague Tim Roemer, and the rest of the 
witness present today on how we meet that goal. I thank you for being 
here.
                                 ______
                                 
 Prepared Statement of Hon. Joe Barton, Chairman, Committee on Energy 
                              and Commerce
    Mr. Chairman, thank you for calling this hearing today on public 
safety communications. The United States has seen some catastrophic 
events in the last five years that tested our crisis communications. 
Each time a crisis arrives, the first casualty seems to be the system 
that permits firefighters and police to communicate. Today we examine 
the progress being made to ensure that when the next crisis occurs, the 
emergency communications systems actually work.
    Most recently, the collapse of communications occurred in New 
Orleans while thousands of people found themselves stranded at the New 
Orleans Convention Center. How much progress has been made since the 
September 11th terrorist attacks exposed major gaps in communications 
among federal, state and local officials more than four years ago? Not 
much, it seems.
    On September 11, 1996, five years to the day before the 9/11 
terrorist attacks, the Public Safety Wireless Advisory Committee 
released a report which stated that ``unless immediate measures are 
taken to alleviate spectrum shortfall and promote interoperability, 
public safety will not be able to adequately discharge their obligation 
to protect life and property in a safe, efficient, and cost effective 
manner.'' And yet here we are and public safety is still grappling with 
inadequate spectrum and radios that do not communicate with one 
another. What I want to learn today is this: what on earth does 
Congress need to do to make sure public safety officials and first 
responders can talk to each other?
    I already know that a big part of the answer is spectrum. I have 
spent months working on a bill to enact a hard date for the digital 
television transition so that the broadcasters will return spectrum in 
the upper 700 MHz band that Congress promised to public safety in 1997. 
With this spectrum, first responders across the nation could share 
common channels on which multiple local, state, and federal agencies 
could coordinate emergency response. We should not wait for another 
terrorist attack or natural disaster to remind us of the importance of 
giving public safety the tools they need to do their job.
    Mr. Chairman, thank you again for holding this hearing. I look 
forward to working with you to ensure that this Committee does 
everything it can to ensure that first responders achieve 
communications interoperability.
                                 ______
                                 
 Prepared Statement of Hon. Eliot Engel, a Representative in Congress 
                       from the State of New York
    Mr. Chairman--As many of us were together until late last night, I 
will be brief in my remarks. I want to thank the new Chairman of the 
FCC for coming up as well as the other witnesses. Your views are most 
welcome.
    There is no dispute from any quarter that public safety needs more 
spectrum--and they shall soon have it.
    However, as we saw in New Orleans, even with that spectrum 
available--local and state public safety officials need the resources 
to utilize that spectrum.
    I am proud to have co-authored legislation with Rep. Stupak and 
Rep. Fossella that will provide these resources.
    I believe our bill is superior to others that have been introduced 
for two main reasons.
    First, it is paid for by using revenue from the spectrum auctions. 
And I would add that it would be put into a trust fund unavailable to 
the annual appropriations process. Thus, we would not have to rely on 
an annual fight among competing priorities.
    The second reason is the breadth of uses for the money. Our bill 
does not just provide new equipment--it allows engineering analysis and 
design to be done first. The fact is that the concrete canyons of 
Manhattan are vastly different from the plains of the Iowa. How radio 
signals operate in those areas is also vastly different. Then, of 
course our bill allows for equipment. But, finally it also allows the 
money to be used for training. This new equipment will have many 
features that enable not just police, fire and EMT personnel to speak 
to each other. This new equipment will allow local, state and federal 
officials to talk as well.
    This is a welcome hearing. But, I would welcome more a quick mark 
up of our bipartisan legislation!
    I yield back.
                                 ______
                                 
  Prepared Statement of Hon. Mike Doyle, a Representative in Congress 
                     from the State of Pennsylvania
    Thank you Mr. Chairman.
    It took the terrorist attacks of September 11, 2001 for most people 
to fully grasp how important it is for government, at all levels, to 
upgrade the communications systems used by first responders. The 9/11 
Commission spelled it out for us, we need to make the 700 MHz band 
available as soon as possible, and we need to improve connectivity by 
encouraging the adoption of newly developed standards. We all know 
this, we just need to do it and do it right. Hurricane Katrina and its 
aftermath showed us that we have a long ways to go.
    To me the interoperability question is the most important issue 
related to the allocation of digital spectrum. Our constituents want 
new digital television service, new wifi and wimax services, and all 
the other goodies that will undoubtedly unfurl once we've made 
additional spectrum available to private sector interests. However, no 
doubt more important then those new devices and services, our 
constituents want to know that when they call 911 in the middle of an 
emergency, they want to know that the people that come to save them 
will be able to communicate with one another so they can figure out how 
best to save them.
    This is a national problem that requires a focused national 
solution. This committee has spent much of the last year hammering out 
the details of a DTV bill that will make the spectrum necessary for 
this transition. Many of the experts that will appear before us today--
at every level of government and also within the private sector--have 
done the detailed planning it will require to implement a project of 
this magnitude. So now in many ways it is just a matter of 
implementation.
    I believe it is incumbent upon Congress not only to ensure the 
availability of spectrum and the feasibility of plans, but also to 
ensure that our local first responders have the financial and technical 
wherewithal to implement interoperability. As the old saying goes, a 
chain is only as strong as its weakest link. I think that is 
appropriate in this instance because if an issue of national 
significance breaks out on a local level, all these plans and policies 
are for naught if we aren't all on the same page.
    As I mentioned, the 9/11 attacks taught us many lessons about 
interoperability. It did not take long for us to figure out how to 
learn from that horrible day. Now, we have an opportunity to learn from 
what happened during and after Hurricanes Katrina and Rita. Those 
storms revealed different, but equally vital vulnerabilities about our 
systems of emergency communication.
    Public safety radio towers were demolished; those that ran on 
batteries ran out of power, vital electronic components were flooded. 
What lessons can we learn? Do we need to fundamentally alter the design 
of our communications systems, at least in areas prone to hurricanes?
    I look forward to hearing the views of our witnesses on these 
important issues. We must focus our energies on these problems and move 
expeditiously towards solving them. There is no more important issue 
before this Congress.
    Thank you Mr. Chairman.
                                 ______
                                 
Prepared Statement of Hon. Anna G. Eshoo, a Representative in Congress 
                      from the State of California
    The public safety response to the terror attacks on 9/11 and the 
Hurricane Katrina disaster were, without a doubt, severely hampered by 
critical failures in government and public communications systems.
    In New York and Washington, the responses to the terrorist attacks 
were handicapped by the inability of different segments of the law 
enforcement and public safety community to communicate over common 
networks and interoperable equipment. Government and the public were 
also severely limited by the near total failure of public telephone 
networks in the New York and D.C. areas immediately following the 
attacks.
    This was particularly troubling in Washington because the area's 
physical communications infrastructure was not actually harmed when the 
Pentagon was attacked.
    The public safety response to Katrina was particularly hampered by 
physical damage to the communications networks in the Gulf region. 
Above-ground telephone lines were knocked out, as were numerous 
wireless telephone towers.
    Much of this damage was unavoidable, so the failures were 
predictable. The question now is how do we address these failures to 
ensure a better result when the next attack occurs or when the next 
disaster hits.
    I'm particularly interested in making sure we learn everything we 
can from these disasters because the San Andreas Fault runs the length 
of my District. The U.S. Geological Survey has estimated the 
probability of a 6.7 or greater magnitude earthquake in the San 
Francisco Bay Area between 2003 and 2032.
    There are many steps Congress can and should take to shore up our 
communications infrastructure in response to what we experienced on 9/
11 and the Gulf Coast disaster.
    Many of the problems we observed in these disasters would be 
greatly alleviated if the huge swath of communications spectrum 
occupied by television broadcasters for analog transmissions were made 
available for public safety and advanced telecommunications services 
for the public.
    I know that Chairman Barton and his staff are working hard to 
accelerate this process, and as I indicated in my recent letter to the 
Chairman, I'm eager to work with him to move this process forward.
    The availability of the analog TV spectrum would help solve several 
critical communications problems. First responders have been promised 
24 MHz of the released spectrum to build their communications capacity 
and to address critical problems of interoperability and system 
compatibility. All new communications equipment operating in the 
released spectrum bands is required to interoperate with all new and 
existing equipment in the 700-800 MHz band.
    This spectrum will also become available for a variety of new, 
innovative wireless communications technologies, including WiMax 
broadband services that will provide high-speed broadband access to 
consumers without the vast deployment of costly, highly vulnerable 
fiber-optic cable networks.
    One of the few success stories in the Gulf Coast disaster was the 
performance of 2-1-1 telephone services, particularly in Louisiana and 
Texas where they have statewide systems.
    Governor Blanco and Governor Perry both designated 2-1-1 as the 
``go to'' number to receive assistance, to volunteer, or to ask 
questions about the hurricane and its aftermath. When the 9-1-1 system 
in Louisiana experience widespread failures, 2-1-1 call centers were 
designated to handle emergency calls as well.
    In Louisiana the call volume reached 8,000 calls per day statewide, 
and in Texas it reached 18,000 per day. The United Way sent trained 2-
1-1 volunteers from around the country to staff the call centers in 
each state, and call centers around the country have been designated as 
the contact points for any evacuees in need of assistance of any kind.
    I'm the lead Democratic sponsor (with Rep. Bilirakis) of H.R. 896, 
the Calling for 2-1-1 Act. This legislation authorizes $150 million for 
each of the first two years and $100 million for the subsequent three 
years to help implement and sustain 2-1-1 nationwide.
    I strongly believe this legislation should be included in any 
hurricane relief legislative package, and Rep. Bilirakis and I have 
contacted Chairman Barton, Rep. Dingell, Speaker Hastert, and Leader 
Pelosi to urge them to do so.
    In any disaster, location information for emergency callers is 
critical, and further enhancement of wireless E-911 capabilities is 
necessary. This is an issue Rep. Shimkus and I have worked on for 
several years, culminating in the passage of the ENHANCE 911 Act late 
last year.
    A broader issue that arose on 9/11 and the Katrina disaster is the 
ability of the 911 system to remain in operation in major disasters. 
The September 11 attacks disabled a major telecommunications facility 
in lower Manhattan, and many public safety answering points (PSAPs) 
throughout the Gulf Coast were disabled by Katrina.
    One of the integral features of IP-based technologies such as VoIP 
is the ability of the network to withstand attacks or failures on 
individual nodes in the network. In fact, the fundamental design 
feature driving DARPA's creation of DARPAnet and the Internet was to 
ensure the safe transport of data between mainframe computers at 
different strategic locations by creating alternate communication 
routes in case of a bomb attack and by decentralizing functions so that 
no single computer could be targeted.
    In the aftermath of the Katrina disaster, New Orleans Mayor Roy 
Nagin and his staff were unable to make telephone calls out of the city 
for two days and then, only through a staff member's VoIP telephone. 
President Bush ultimately reached Nagin for the first time through the 
VoIP service.
    Obviously, the migration of voice and data communications from the 
traditional telephone network will harden our communications networks 
in disasters such as these, and Congress should do everything in its 
power to facilitate this progress.
    The communications failures of these disasters are but a few of the 
factors contributing to the chaos of 9/11 and the massive human tragedy 
we saw in the Katrina aftermath.
    It's imperative for Congress to investigate thoroughly and learn 
from these breakdowns so we never experience a human disaster of this 
magnitude again.
    The American people deserve no less.
    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan
    Mr. Chairman, thank you for holding this important hearing. The 
inability of first responders to communicate with each other during 
emergencies threatens the public's safety. It puts the lives of first 
responders and those in need of assistance at undue risk. 
Unfortunately, problems with interoperability are neither new nor rare. 
They occur daily, especially during multi-jurisdictional emergencies 
such as fighting large fires or searching for missing children. It is 
unfortunate that it takes large-scale tragedies such as the attacks of 
9/11 or Hurricane Katrina to focus needed attention on this issue.
    The damage caused by Katrina, the levee breaches, and the flood 
that ensued was unprecedented in scope and scale. As one public safety 
official put it, the devastation was so widespread that the biggest 
issue was not interoperability, but operability. As we heard in 
testimony from the Federal Communications Commission (FCC) earlier this 
month, the lack of commercial power was the primary issue affecting 
communications in the days immediately following the hurricane. Power 
was out for so long that batteries in public safety radios ran down and 
could not be recharged. Emergency generators that powered the 
infrastructure ran out of fuel and fresh supplies could not reach those 
responding to the disaster areas.
    Having said that, large scale events such as Katrina are 
foreseeable. Losing commercial power during emergencies is foreseeable. 
It is therefore incumbent upon decision-makers to devote the resources 
necessary for public safety officials to communicate with each other 
whenever and wherever necessary.
    Two years ago, a national task force made up of public safety, 
State and local government officials issued a report to provide 
guidance in achieving interoperability. The task force identified 
several key reasons public safety agencies cannot communicate, 
including incompatible and aging equipment, inadequate funding, lack of 
coordination and cooperation, and too little spectrum. Likewise, during 
a hearing in this Subcommittee last year on the problems with 
interoperability, a witness from the FCC testified that achieving 
interoperability requires an emphasis on more than spectrum, 
technology, and equipment issues--it also requires a focus on the 
organizational and personnel coordination necessary to make 
interoperability available in times of greatest need.
    It is important that we address this complex problem with a 
comprehensive solution. Funding, spectrum, redundancy, coordination, 
and planning are all important pieces to the interoperability puzzle. 
They are all needed for true interoperability to become a reality. For 
example, in New Orleans, the public safety communications system was 
damaged by the flooding, but there was not adequate redundancy or 
planning to ensure continued communication. Additionally, in New 
Orleans, public safety has had access to additional spectrum in the 700 
megahertz band for years. Adequate funding, however, was not available 
to purchase the necessary equipment to take advantage of that spectrum.
    All levels of government must commit the necessary resources to 
solve this problem. The Federal Government must work in partnership 
with State and local officials to make true interoperability a reality. 
Nationwide, regional, and local planning and coordination must take 
place so that the lines of communication stay open during emergencies. 
Adequate funding must be provided to help pay for the enormous cost of 
updating public safety's old communications infrastructure with new, 
interoperable equipment. Likewise, Congress has already allocated to 
public safety 24 megahertz of spectrum in the 700-megahertz band. 
Congress must act this year to get this spectrum into the hands of 
public safety across the country by a date certain. It must do so, 
however, in a comprehensive manner that does not unintentionally harm 
consumers in the process and potentially delay the return of the 
spectrum.
    I thank the witnesses for being here today, especially Lieutenant 
Colonel Tom Miller from the Michigan State Police. I look forward to 
hearing your comments about what steps are currently underway as well 
as what assistance is needed from Congress to make sure that first 
responders can adequately communicate with one another in times of 
public emergencies.

    Mr. Upton. Gentlemen, we are delighted that you are here 
and we are joined on our first panel by the Honorable Kevin 
Martin, Chairman of the Federal Communication Commission; Dr. 
David Boyd, Director of SAFECOM, Program Director of Science 
and Technology Director to the Department of Homeland Security; 
Mr. Vance Hitch, Chief Information Officer of the Department of 
Justice.
    Gentlemen, your statements have been made part of the 
record in their entirety and we would like you to limit your 
remarks, opening remarks to no more than 5 minutes if you can.
    And Chairman Martin, we will start with you, welcome. Is 
that button on?

     STATEMENTS OF HON. KEVIN J. MARTIN, CHAIRMAN, FEDERAL 
  COMMUNICATIONS COMMISSION; DAVID G. BOYD, DIRECTOR, SAFECOM 
PROGRAM OFFICE, SCIENCE AND TECHNOLOGY DIRECTORATE, DEPARTMENT 
  OF HOMELAND SECURITY; AND VANCE E. HITCH, CHIEF INFORMATION 
                 OFFICER, DEPARTMENT OF JUSTICE

    Mr. Martin. It is. Good morning, Chairman Upton and all the 
members of the committee. I appreciate the opportunity to be 
with you all today.
    And as we all know, Hurricane Katrina and Hurricane Rita 
devastated the Gulf Coast region. People lost their homes, 
their businesses, and even their lives and our hearts go out to 
all of the survivors who are now struggling with putting their 
lives back together.
    My statement today will focus on the effects of the recent 
hurricanes on the Nation's communications infrastructure. 
First, I will briefly discuss the immediate impact on 
communication services in the area and provide a status report. 
I will then describe the steps the FCC is taking both to 
facilitate the restoration of service and to provide support 
for evacuees. And finally, I will offer some initial lessons 
learned from this terrible tragedy.
    The destruction that the hurricanes caused to the 
facilities of communications companies and the services upon 
which citizens rely was extraordinary. More than 3 million 
customer telephone lines were knocked down in Louisiana, 
Mississippi, and Alabama as a result of Hurricane Katrina. And 
as you can see on this first chart, the most significant damage 
was in the region colored red. The next most significant area 
colored yellow reached out more than 100 miles from where the 
storm initially landed. And the area in green sustained 
moderate damage and it reached out more than 300 miles from 
where Katrina initially hit. And the area of size demonstrates 
just how far reaching the impact was in terms of the damage to 
the communications infrastructure.
    Now approximately 40 call centers, 911 call centers also 
went down as a result of the two hurricanes, 38 due to Katrina 
and two due to Rita. And approximately another 10 were damaged 
but were able to reroute their traffic. And as you can see in 
this next chart, the area in blue reflects the locations where 
the hurricanes knocked call centers out of service, and the 
area in red indicates where the call centers remain out of 
service today, all of those in the New Orleans area.
    Local wireless networks also sustained considerable damage 
with more than 1,000 cell sites out of service. And as you can 
see in this next chart, over 20 million telephone calls did not 
go through the day after Hurricane Katrina struck. The number 
of failed calls peaked that day and then slowly decreased daily 
as service began to be restored. We also estimate that 
approximately 100 broadcast stations were knocked off the air. 
This chart follows the outage and restoration of radio 
stations. You can see that 80 percent of the radio stations in 
the Gulf Coast Region were knocked off the air that day that 
Hurricane Katrina hit. Since then, the stations have been 
coming back on the area each day and Hurricane Rita caused an 
additional 46 radio stations to be knocked off the air. And 
finally, hundreds of thousands of cable customers also lost 
their service.
    Now, as a result of these service outages, it was extremely 
difficult for hundreds of thousands of people to receive news 
and emergency information and to communicate with their loved 
ones. Emergency workers and public safety officials had 
difficulty coordinating and it was at times like these that we 
are reminded of the importance in the ability to communicate.
    Fortunately, the work to restore communication service 
began almost immediately. While considerable problems remain, 
the companies in the region have made meaningful progress. They 
have overcome significant obstacles including flooding, lack of 
power, dwindling fuel resources for generators and security to 
rebuild, reconnect, and broadcast. Now to the best of my 
knowledge, the current status is as follows. This chart 
demonstrates the spike in the number of customers who were out 
of service, which again fell significantly about a week after 
Hurricane Katrina. Approximately 2.5 million customer lines had 
been restored, leaving about 264,000 customers still out of 
service today. Fifty 911 call centers have been restored, two 
in Louisiana remain out of service and this chart demonstrates 
how the sustained damage kept many of the call centers out of 
operation for almost 9 days as a result of Hurricane Katrina 
when most became operational again.
    Only one wireless switching center in the affected area is 
not operational now and over 1,200 cell sites have been 
restored, as you can see in this chart where out of service 
cell sites are marked in red, approximately 820 sites continue 
to be out of service, the majority within New Orleans and other 
areas of Louisiana. The size of the different pie graphs 
indicate the size of the markets, and the purple colors 
indicate where the cell sites were knocked out of service but 
have since come back into operation. You can see that cell 
sites were actually knocked down as far north as Hattiesburg.
    As the next chart demonstrates, 70 percent of TV stations 
in the area were knocked off the air on the day after Hurricane 
Katrina. Since then, TV stations have been coming back on the 
air almost daily and 10 remain off the air today as a result of 
both hurricanes. Fortunately, satellite service providers did 
not experience damage to their infrastructure. They have helped 
to bridge some of the gaps left by many of these outages. They 
provided satellite phones and video links to law enforcement 
officials, medical personnel, emergency relief personnel, and 
news outlets.
    Now the Commission has devoted significant time and 
resources to enable first responders to communicate and to 
facilitate companies' ability to quickly restore service. We 
have granted over 90 STA's, special temporary authority 
requests and more than 100 temporary frequency authorizations. 
We allowed law enforcement, for example, to use ultra wideband 
imaging systems to locate hurricane victims. We waive numerous 
rules to enable telephone companies to reroute traffic. From 
the beginning, the commissioners reached out to the impacted 
industries often numerous times a day to identify their needs 
and pass them along to FEMA and the National Communications 
System.
    And finally, we have facilitated disaster relief efforts 
and fundraising efforts by temporarily reassigning the 1-800 
number 1-800-RED-CROSS to the American Red Cross. At our recent 
open meeting, I also announced my intention for the Commission 
to take three major actions in an effort to continue to provide 
immediate relief to consumers and business and to enhance the 
Commission's planning response efforts.
    First, I proposed $211 million in universal service funding 
to the disaster area. For all the people eligible for FEMA 
disaster assistance, we will provide support for wireless 
handsets in a package of 300 free minutes. We will also allow 
public and non-profit healthcare providers, including the 
American Red Cross, shelters to apply for support of their 
telecommunications needs. We will use the E-rate Program to 
help reconnect schools and libraries throughout the region. And 
we will allow carriers to use the High Cost Program to 
prioritize rebuilding of facilities damaged by the hurricanes.
    Second, we are also establishing an independent panel of 
experts composed of public safety and communication industry 
representatives that we charge with reviewing the impact of 
Hurricane Katrina on the communications infrastructure and the 
affected areas.
    And finally, I announced our intention to create a new 
Public Safety/Homeland Security Bureau to develop policies and 
rules to promote effective and reliable communications for 
public safety, national security, and disaster management.
    While there is still much work for the Commission to do to 
facilitate restoration, I think it is important we take the 
time to learn from the tragedy. We need to assess what worked 
and what did not, what the Commission can do now to make our 
communications net work more robust, and I have three initial 
suggestions.
    First, we need to ensure that the public has the tools 
necessary to know when an emergency is coming and to contact 
first responders. This involves several steps. We need a 
comprehensive alert system that allows officials at the 
national, State, and local level to reach affected citizens in 
the most effective and efficient manner possible. It needs to 
incorporate the internet and other advances in technology so 
that officials can reach large numbers of people simultaneously 
through different communications media.
    We also need to ensure that providers comply with our 911 
rules. The 911 system is critical to our Nation's ability to 
respond to a host of crises. This obligation to provide access 
to emergency operators should not be optional for any service 
provider.
    We also need to ensure that Public Safety Answering Points 
are redundant. That Hurricane Katrina severed communication 
links to multiple PSAPs and to key facilities that handle local 
emergency and first responder calls. We need to establish 
redundant routing that will create a more resilient network to 
aid those public safety calls.
    Second, I suggest we need to enable first responders to 
communicate seamlessly. We need to have an interoperable mobile 
wireless communication system that can be rapidly deployed 
anywhere in the country. Such a system must have two essential 
features. First, the system must be interoperable and must 
allow different organizations from different jurisdictions to 
communicate with each other immediately through both voice and 
data. This requires that there be a sufficient spectrum devoted 
to these purposes. It also requires that first responders have 
equipment capable of operating on multiple frequencies in 
multiple formats so that different systems can connect with 
each other. Properly implemented, a system with adequate 
spectrum and such smart radios would help to ensure that both 
data and voice are transmitted between agencies, instantly 
replacing the multiple lengthy calls that occur today.
    The system must also be capable of rapid deployment and 
restoration using multiple flexible technologies and extremely 
mobile infrastructure. Smart radios can enable first responders 
to find any available towers or infrastructure on multiple 
frequencies, Wi-Fi and spectrum technologies can enable them to 
use limited spectrum quickly and efficiently. And mobile 
antennas which are capable of using both satellite and 
terrestrial technology should be used to establish 
communications as quickly as possible. The infrastructure could 
use inflatable antennas, cell towers on wheels, high altitude 
balloons, or other mobile facilities.
    And my final suggestion is to enhance network resiliency. 
We need to ensure that all communications providers develop and 
adhere to best practices to ensure reliability in the event of 
a disaster and quick restoration of service in facilities in 
the event service is disrupted. We should take full advantage 
of IP-based technologies to enhance the resiliency of 
traditional communications networks. IP technology provides 
dynamic capability to the change and reroute telecommunications 
traffic within the network so that in the event of a systems 
failure within the traditional network, these technologies 
enable the service providers to restore service more quickly 
and to provide the flexibility to initiate service at new 
locations chosen by the customers.
    I look forward to working cooperatively with the members of 
this committee, other Members of Congress, and my colleagues at 
the Commission to achieve these goals. We appreciate any 
guidance you may have on these issues and I thank you for the 
opportunity to be here today and look forward to answering your 
questions.
    [The prepared statement of Hon. Kevin J. Martin follows:]
    [GRAPHIC] [TIFF OMITTED] T4252.001
    
    [GRAPHIC] [TIFF OMITTED] T4252.002
    
    [GRAPHIC] [TIFF OMITTED] T4252.003
    
    [GRAPHIC] [TIFF OMITTED] T4252.004
    
    [GRAPHIC] [TIFF OMITTED] T4252.005
    
    [GRAPHIC] [TIFF OMITTED] T4252.006
    
    [GRAPHIC] [TIFF OMITTED] T4252.007
    
    [GRAPHIC] [TIFF OMITTED] T4252.008
    
    [GRAPHIC] [TIFF OMITTED] T4252.009
    
    [GRAPHIC] [TIFF OMITTED] T4252.010
    
    [GRAPHIC] [TIFF OMITTED] T4252.011
    
    [GRAPHIC] [TIFF OMITTED] T4252.012
    
    [GRAPHIC] [TIFF OMITTED] T4252.013
    
    [GRAPHIC] [TIFF OMITTED] T4252.014
    
    [GRAPHIC] [TIFF OMITTED] T4252.015
    
    [GRAPHIC] [TIFF OMITTED] T4252.016
    
    [GRAPHIC] [TIFF OMITTED] T4252.017
    
    [GRAPHIC] [TIFF OMITTED] T4252.018
    
    [GRAPHIC] [TIFF OMITTED] T4252.019
    
    [GRAPHIC] [TIFF OMITTED] T4252.020
    
    [GRAPHIC] [TIFF OMITTED] T4252.021
    
    [GRAPHIC] [TIFF OMITTED] T4252.022
    
    [GRAPHIC] [TIFF OMITTED] T4252.023
    
    [GRAPHIC] [TIFF OMITTED] T4252.024
    
    [GRAPHIC] [TIFF OMITTED] T4252.025
    
    [GRAPHIC] [TIFF OMITTED] T4252.026
    
    [GRAPHIC] [TIFF OMITTED] T4252.027
    
    [GRAPHIC] [TIFF OMITTED] T4252.028
    
    [GRAPHIC] [TIFF OMITTED] T4252.029
    
    [GRAPHIC] [TIFF OMITTED] T4252.030
    
    [GRAPHIC] [TIFF OMITTED] T4252.031
    
    [GRAPHIC] [TIFF OMITTED] T4252.032
    
    [GRAPHIC] [TIFF OMITTED] T4252.033
    
    [GRAPHIC] [TIFF OMITTED] T4252.034
    
    [GRAPHIC] [TIFF OMITTED] T4252.035
    
    [GRAPHIC] [TIFF OMITTED] T4252.036
    
    [GRAPHIC] [TIFF OMITTED] T4252.037
    
    [GRAPHIC] [TIFF OMITTED] T4252.038
    
    [GRAPHIC] [TIFF OMITTED] T4252.039
    
    [GRAPHIC] [TIFF OMITTED] T4252.040
    
    [GRAPHIC] [TIFF OMITTED] T4252.041
    
    [GRAPHIC] [TIFF OMITTED] T4252.042
    
    [GRAPHIC] [TIFF OMITTED] T4252.043
    
    [GRAPHIC] [TIFF OMITTED] T4252.044
    
    [GRAPHIC] [TIFF OMITTED] T4252.045
    
    Mr. Upton. Thank you again.
    Dr. Boyd, welcome.

                   STATEMENT OF DAVID G. BOYD

    Mr. Boyd. Good afternoon and thank you, Mr. Chairman and 
members of the Committee, for the invitation to speak to you 
today.
    Interoperability requires, before all else, operability as 
Hurricane Katrina demonstrated in the absence of a reliable 
network across which respondents within an agency can 
effectively communicate with themselves. Interoperability is 
both irrelevant and impossible. Some seem to believe the 
introduction of new technologies alone can solve our 
interoperability problems but adding equipment addresses only 
part of what a fully robust, reliable, and interoperable public 
safety communication system requires. For example, when we lose 
towers, first responders have only their mobile or portable 
units available so range is dramatically reduced and control of 
the incident is severely compromised. Portable units permit 
some short-range communications until the proprietary battery 
packages begin to fail and cannot be recharged because the 
chargers are typically attached to the power grid. 911 centers 
are tied to the wired telephone network and so is the cellular 
system which depends on cell phones that also use propriety 
batteries. No single fix alone can address all of these 
elements.
    Many solutions have been offered and many claims have been 
made for each solution and all have a role, but none is a 
silver bullet. Satellite phones are extremely useful for 
command elements but often hopelessly impractical for 
individual first responders. The required training and signals 
can be blocked by vegetation, buildings, terrain, and even 
weather. They also use batteries that need recharging. And a 
first responder in the middle of a rescue or up to his armpits 
in flood water will find the antenna hard or impossible to aim. 
Van or trailer mounted communication systems dropped into the 
incident nearly always offer significantly less coverage than 
the original system and may require significant training to 
use. And all of these without solid prior planning and 
appropriate training will add to the difficulties of achieving 
interoperability once interoperability is achieved.
    We believe that what we have developed to support 
interoperability can also help first responders successfully 
navigate any communications emergency. We of the public safety 
community have identified six key building blocks required to 
achieve interoperability. Governance, that is the political 
issue you addressed, sir; standard operating procedures; 
technology, training and exercises; routine use of 
interoperable systems; and cost cutting. Of all of these is the 
sixth and most important element, a high degree of leadership, 
planning and collaboration with a commitment to and an 
investment in sustainability across all regions. To help public 
safety agencies, and especially the policy levels of 
Government, understand the interrelationship of all of these 
factors, we developed a tool we call the interoperability 
continuum and if you have not seen it, I will be happy to 
provide you a copy. This planning tool explains how all these 
elements interrelate and it makes clear that all of these 
elements need to be addressed not during an emergency.
    Interoperability is not a new issue. It was a problem in 
Washington, DC, when the Air Florida flight crashed into the 
Potomac in 1982, in New York City when the Twin Towers were 
first attacked in 1993, in 1995 when the Murrah Building was 
destroyed in Oklahoma City, and in 1999 at Columbine. Too many 
public safety personnel cannot communicate by radio because 
their equipment is still incompatible or the frequencies they 
are assigned to are different and they have not got bridging 
technologies available. They operate on 10 different frequency 
bands and they run communication systems that are often 
proprietary and too often 30 or more years old. Over 90 percent 
of the Nation's public safety wireless infrastructure is 
financed, owned, operated, and maintained by the more than 
60,000 individual local jurisdictions, police, fire, and 
emergency services that serve the public. National efforts to 
fix the problem have historically been erratic, uncertain, and 
until recently uncoordinated. Worse, the efforts have too often 
been designed without the direct involvement of the people with 
the greatest stake in effective communications, the first 
responders. The attacks on September 11, 2001 made clear all of 
this had to change.
    Since September 11, significant progress has been made in 
interoperability thanks to the priorities both the 
Administration and Congress have placed on it. In 2001, SAFECOM 
was established as a Presidential Management Initiative, the 
first time interoperability had ever been addressed at that 
level. In 2004, the Department established the Office of 
Interoperability and Compatibility to further strengthen and 
integrate interoperability and compatibility efforts. And in 
the Intelligence Reform Act, Congress gave it a legislative 
charter.
    While fixing the Nation's interoperability problem will 
require a sustained effort, we recognize that we cannot wait to 
move things forward. That is why SAFECOM has initiated the 
number of near term initiatives, including working with the 
National Institute of Standards and Technology to accelerate 
the development of standards, the Interoperability Continuum I 
mentioned earlier, and the development of statewide planning 
tools, RapidCom, which was a program to establish command level 
emergency interoperability across 10 high threat areas, the 
national statement of requirements, the public safety 
architecture framework, creation of a P-25 performance testing 
program, development of coordinated grant guidance which for 
the first time is included in all Federal grant programs, 
creation of a national baseline and identification of public 
safety spectrum needs.
    This Nation is heavily invested in an existing 
infrastructure that is too often inadequate to the basic 
communications requirements of individual agencies and not 
interoperable. We must continue to pursue a comprehensive 
strategy that takes into account technical and cultural issues 
associated with improving interoperability which recognizes the 
challenges associated with incorporating legacy equipment and 
practices in a constantly changing technology and cultural 
environment in which encourages strong local leadership in 
ensuring that the needs of the front line of emergency 
response, the first responders are met. Though many challenges 
remain, we believe we have accomplished a great deal in the 
barely 2 years DHS has managed this program. We are confident 
that with your continued support and the assistance of our many 
Federal, and in particular State and local partners, we will 
continue to move toward a world where lives and property are 
never lost because public safety agencies are unable to 
communicate or lack compatible equipment and training 
resources.
    And I would be happy to answer any questions you have, sir.
    [The prepared statement of David G. Boyd follows:]
       Prepared Statement of David G. Boyd, Director, Office for 
      Interoperability and Compatibility, Systems Engineering and 
   Development, Directorate of Science and Technology, Department of 
                           Homeland Security
                              introduction
    Good morning and thank you, Mr. Chairman and Members of the 
Committee, for the invitation to speak to you today.
    Today's testimony will focus on SAFECOM, a communications program 
of the Office of Interoperability and Compatibility (OIC), which 
resides in the Office of Systems Engineering and Development, Science 
and Technology Directorate, Department of Homeland Security (DHS). 
SAFECOM provides development, testing, evaluation, guidance, research 
and assistance for local, tribal, state, and Federal public safety 
agencies working to improve public safety response through more 
effective and efficient interoperable wireless communications. (By 
public safety we mean fire, police, emergency medical services, 
emergency managers, and others who have emergency response missions). 
Although SAFECOM is working with practitioners to develop long-term 
strategic initiatives without which the nation will never solve the 
interoperability problem, we all know terrorists, natural disasters and 
other emergencies will not wait for a comprehensive national solution 
so the program has been designed with near-, mid- and long-term goals.
    Communications interoperability refers to the ability of public 
safety agencies to talk across disciplines and jurisdictions via radio 
communications systems, exchanging voice and/or data with one another 
on demand, in real time, as authorized. Unfortunately, the nation is 
heavily invested in an existing infrastructure made up largely of 
systems that are too often incompatible. To change this, efforts within 
the Federal government to address the interoperability problem are 
being coordinated by SAFECOM and incorporate the needs of local, state, 
and Federal practitioners. But there are no immediate, silver bullet 
fixes to the financial, technical and cultural challenges that face us. 
As the Government Accountability Office (GAO) acknowledged in a July 
2004 report, communications interoperability is a long-term problem 
with no one-size-fits-all solution.
                public safety communications environment
    Interoperability is not a new issue; it has plagued the public 
safety community for decades. It was a problem in Washington, D.C., 
when the Air Florida flight crashed into the Potomac in 1982. It was a 
problem in New York City when the Twin Towers were first attacked in 
1993. It was a problem in 1995 when the Murrah Building was destroyed 
in Oklahoma City, and in 1999 at Columbine. The reality is that today, 
too many public safety personnel cannot communicate by radio with 
personnel from other agencies or disciplines because their equipment is 
still incompatible, or the frequencies they are assigned are different. 
They operate on 10 different frequency bands and run communications 
systems that are often proprietary, and that are too often 30 or more 
years old, in an era when the technology lifecycle is only 18 to 24 
months. Over 90% of the nation's public safety wireless infrastructure 
is financed, owned, operated, and maintained by the more than 60,000 
local jurisdictions that provide emergency services to the public and 
only a very tiny fraction of this funding is Federal. National efforts 
to fix the problem have historically been erratic, uncertain, and--
until recently--uncoordinated. The attacks on September 11, 2001, made 
clear this had to change.
    Since September 11, 2001, significant progress has been made to 
improve communications interoperability for the public safety 
community. Yet it is apparent that more must be achieved. Much of this 
progress can be attributed to the priority that both the Administration 
and Congress have placed on solving the problem of communications 
interoperability. In 2001, SAFECOM was established as a Presidential 
Management Initiative and charged with strengthening interoperability 
at all levels of government by coordinating Federal programs, 
initiating a comprehensive standards program, and developing a national 
architecture. In 2004, the Department established OIC to further 
strengthen and integrate interoperability and compatibility efforts to 
improve local, tribal, state, and Federal public safety preparedness 
and response. OIC was directed to:

 Identify and certify all DHS programs that touch on interoperability;
 Support the creation of interoperability standards;
 Establish a comprehensive research, development, testing, and 
        evaluation (RDT&E) program for improving public safety 
        interoperability;
 Integrate coordinated grant guidance across all DHS grant making 
        agencies that touch on public safety interoperability;
 Oversee the development and implementation of technical assistance 
        for public safety interoperability;
 Conduct pilot demonstrations;
 Create an interagency interoperability coordination council; and
 Establish an effective outreach program.
                            long-term vision
    Practitioners helped SAFECOM articulate a long term vision for 
interoperability which projects that, not later than 2023, first 
responders will operate on a national system-of-systems using 
standards-based equipment that provides the capability to respond to an 
incident anywhere in the country, using their own equipment, on any 
network, and on dedicated public safety spectrum. They will be able to 
communicate with each other as authorized via voice, data, and video on 
demand and in real time. Making this vision flesh will require work in 
five critical success areas, including:

1. A common set of guidelines and criteria for public safety 
        communications systems in conjunction with a national 
        architecture framework;
2. Coordinated testing and evaluation processes to ensure 
        communications equipment meets critical requirements;
3. Standardization of equipment fortified by interim grant guidance 
        measures;
4. Coordinated spectrum policy that meets the needs of the public 
        safety community; and
5. Certification of state communications plans.
    None of these initiatives will be accomplished overnight, but many 
of them are already beginning to strengthen interoperability in the 
public safety community.
                         near-term initiatives
    While fixing the nation's interoperability problem will require a 
sustained effort, we recognize that we must quickly ensure sufficient 
interoperability at all levels of government to meet emergencies of any 
kind. To do this, DHS and SAFECOM has initiated a number of near-term 
initiatives, including development of the Interoperability Continuum, 
development of statewide planning tools, execution of the RapidCom 
Initiative, publication of a national statement of requirements, 
creation of a conformance testing program, development of coordinated 
grant guidance for inclusion in every Federal grant program, creation 
of a national baseline, identification of public safety spectrum needs, 
development of emergency response plans for immediate communications 
capabilities, and coordination with Office of State and Local 
Government Coordination and Preparedness' (SLGCP) Interoperable 
Communications Technical Assistance Program (ICTAP).
Statement of Requirements and a National Architecture Framework
    Interoperability plans to support responses to an incident need to 
be developed based on a common set of guidelines and criteria for 
public safety communications systems and these should be aligned with a 
national architecture framework. Only when these guidelines are 
universally recognized and followed will first responders and the 
larger public safety community be able to communicate effectively. To 
that end, SAFECOM published Version 1.0 of the first ever comprehensive 
Public Safety Statement of Requirements for Communications and 
Interoperability (SoR). Developed with public safety practitioner 
input, the SoR defines the functional requirements for public safety 
communications. Subsequent versions will further refine these technical 
requirements so that industry will have a blueprint to which to build 
technologies that address public safety's needs. This SoR also serves 
as the basis for developing a national architecture framework for 
communications interoperability. SAFECOM is working to develop a Public 
Safety Architecture Framework (PSAF) that, with the SoR, will serve as 
a tool to help the nation's first responder agencies understand the 
technical requirements and national migration path toward fully 
interoperable communications systems without imposing requirements that 
stifle innovation.
Coordinated Testing and Evaluation of Equipment
    The next step in achieving national communications interoperability 
is the development of coordinated testing and evaluation processes to 
ensure communications equipment meets the critical needs of first 
responders. Public safety is faced with many complex procurement 
decisions and frequently has to hope that the equipment they buy will 
do what it claims. To ensure that public safety is able to truly trust 
the claims made by vendors, communications equipment needs to be tested 
and evaluated based on first responder needs and capabilities. To do 
this, SAFECOM created a testing and evaluation working group to help 
ensure that methodologies for testing and evaluation of 
interoperability products are technically sound and comparable across 
testing laboratories. The working group members are practitioners and 
subject matter experts from law enforcement, fire services, and 
emergency medical services. These members help review and develop test 
criteria and serve the program by determining which products should be 
evaluated. S
National Baseline of Public Safety Communications
    The National Interoperability Baseline study will provide the 
nation's first statistically significant, quantitative measurement of 
the current state of public safety communications interoperability. The 
development of the survey methodology was initiated in January 2005 and 
the resulting study will provide an understanding of the current state 
of interoperability nationwide upon completion. Additionally, it will 
serve as a tool to measure future improvements made through local, 
state, and Federal public safety communications initiatives.
    The survey instrument developed for Interoperability Baseline will 
allow SAFECOM to identify areas with interoperability shortfalls, track 
the impact of Federal programs and measure the success of these 
programs, establish an on-going process and mechanism to measure the 
state of interoperability on a recurring basis, and develop an 
interoperability baseline self-assessment tool for local and state 
public safety agencies.
Coordinated Spectrum Policy That Meets the Needs of Public Safety
    Radio spectrum is a finite resource--there is only so much 
available and it is shared by public safety, radio broadcasters, 
government users, and other commercial and private consumers. The large 
demand for this resource can lead to overcrowding, which, in turn can 
cause delays in or disruption of communication for public safety. The 
Federal Communications Commission has allocated certain frequencies to 
public safety, but these allocations are fragmented, creating 
challenges for communications among different agencies and 
jurisdictions. In the Intelligence Reform and Terrorism Prevention Act 
of 2004, Congress required the Federal Communications Commission (FCC) 
in consultation with DHS and the National Telecommunications and 
Information Administration (NTIA) to conduct a study to assess the 
spectrum needs for local, state, and Federal first responders, which is 
due in December 2005. SAFECOM is currently assessing public safety 
spectrum needs in support of the President's national spectrum 
management initiative. DHS, in consultation with the Department of 
Commerce and other relevant agencies, is developing a Spectrum Needs 
Plan out of these assessments which will be delivered to the President 
by the end of November 2005.
Certification of State Communications Plans
    Interoperability requires, before all else, simple operability--
that is, communications within the local agency. As Hurricane Katrina 
demonstrated, in the absence of a reliable network across which 
responders within an agency can effectively communicate, 
interoperability is both irrelevant and impossible. Strengthening and 
ensuring basic level public safety communications capabilities, 
therefore, is the first task. But progressing from agency-specific 
operability towards multi-jurisdictional and multi-disciplinary 
interoperability requires attention to more than technology.
    Some believe the introduction of new technologies alone can solve 
our interoperability problems. But adding equipment addresses only one 
part of what a fully robust, reliable, and interoperable public safety 
communications system requires. With input from the public safety 
community, we have identified five key building blocks required to 
achieve interoperability. Governance, Standard Operating Procedures 
(SOP), Technology, Training and Exercises, routine use (Usage) of 
interoperable systems, and regular Maintenance must all be present for 
interoperability to be possible. To help public safety agencies and 
especially the policy levels of government understand the 
interrelationship of all of these factors, we developed a tool called 
the ``Interoperability Continuum.'' This planning tool explains how all 
these elements relate to each other. For example, if a city within a 
region procures new equipment it may have a technical interoperability 
capability, but unless it has also conducted exercises to test 
procedures (and find points of failure) and concepts of operation, and 
developed policies agreeable to the entire region, it is unlikely the 
new equipment can be effectively integrated into regional 
interoperability plans. As states develop their emergency 
communications plans, we recommend that they address all the elements 
of the Interoperability Continuum.
Statewide Planning Tools
    Statewide communications plans are often unsuccessful because the 
top-down approach fails to consider the requirements of the first 
responders who are the primary users and who control the most of the 
wireless infrastructure.
    In 2004, SAFECOM partnered with the Commonwealth of Virginia and 
the Department of Justice to develop a strategic plan for improving 
statewide interoperable communications for the state. The effort was 
based on SAFECOM's ``bottom-up,'' locally-driven approach. The planning 
process included six regional focus group sessions, which culminated in 
a final strategic planning session. The focus group sessions captured 
perspectives from numerous local public safety representatives 
throughout the Commonwealth; these perspectives were used in the final 
strategic planning session in which recommendations for key initiatives 
were developed as part of a statewide strategic plan for improving 
public safety communications and interoperability.
    Based on lessons learned from the Virginia planning process, 
SAFECOM published the Statewide Communications Interoperability 
Planning (SCIP) Methodology as a model for integrating practitioner 
input into a successful statewide strategic plan to every state. The 
SCIP Methodology serves as one approach for states to consider as they 
initiate statewide communications planning efforts.
    We are also implementing Section 7304 of the Intelligence Reform 
and Terrorism Prevention Act of 2004 (Public Law 108-458), which 
authorized the Secretary of Homeland Security to carry out at least two 
Regional Communications Interoperability Pilots (RCIP). In accordance 
with the congressional criteria for determining the location of the 
pilot sites, as well as criteria outlined by the program itself, 
SAFECOM selected the State of Nevada and the Commonwealth of Kentucky 
as RCIP locations. SAFECOM, in coordination with the Office of State 
and Local Government Coordination and Preparedness' Interoperable 
Communications Technical Assistance Program (ICTAP), is helping both 
states implement the SCIP methodology.
    Building on lessons learned from the SCIP Methodology and earlier 
SAFECOM initiatives, the RCIP projects will help us identify models for 
improving communications and interoperability that take into account 
the wide range of challenges across the nation. When the projects are 
complete, Nevada and Kentucky will each have improved interoperability 
plans and we will be able to use the lessons learned to better develop 
or strengthen replicable tools and methodologies which will be made 
available to public safety practitioners, as well as to local and state 
governments. An interim report regarding the progress of the pilot 
projects has been submitted to Congress. A final report will be 
provided to Congress in June 2006.
    We believe statewide emergency communications plans are fundamental 
to an effective response to a catastrophic event. As states continue to 
develop their own plans, SAFECOM recommends that they do so in 
coordination with SAFECOM methodologies and guidance.
RapidCom
    On July 22, 2004, President Bush formally announced the RapidCom 
initiative, a program designed to ensure that a minimum level of public 
safety interoperability would be in place in ten high-threat urban 
areas by September 30, 2004.
    In coordination with the Office of State and Local Government 
Coordination and Preparedness (OSLGCP), the Department of Justice's 25 
Cities Program, and the DHS Wireless Management Office, SAFECOM worked 
closely with public safety leaders in ten high-risk urban areas 
centered in Boston, Chicago, Houston, Jersey City, Los Angeles, Miami, 
New York, Philadelphia, San Francisco, and the Washington Metropolitan 
Area to assess their communications interoperability capacity and 
needs, and to identify and implement solutions. In keeping with the 
SAFECOM ``bottom-up'' approach, local officials drove the design and 
implementation of solutions in their jurisdictions.
    With the on-time completion of the RapidCom project, incident 
commanders in each of the urban areas now have confirmed they have the 
ability to adequately communicate with each other and their respective 
command centers within one hour of an incident.
Interoperable Communications Technical Assistance Program (ICTAP)
    A key component in achieving interoperable communications across 
the nation is providing on-site technical assistance to states and 
urban areas. SLGCP funds ICTAP, a technical assistance program designed 
to enhance interoperable communications between local, state, and 
Federal first responders and public safety officials. The program 
provides free support to states and urban areas with the goal of 
enabling local public safety officials to communicate across 
disciplines and jurisdictions via radio communications systems, 
exchanging voice and/or data with one another on demand, in real time, 
as authorized.
                               conclusion
    These initiatives are only part of what the SAFECOM program has 
undertaken to advance communications interoperability across the 
Nation. This nation is heavily invested in an existing infrastructure 
that is too often inadequate to the basic communications requirements 
of individual agencies and not interoperable. We must continue to 
pursue a comprehensive strategy that takes into account technical and 
cultural issues associated with improving interoperability, which 
recognizes the challenges associated with incorporating legacy 
equipment and practices in constantly changing technology and cultural 
environments, and which ensures that the needs of the front line of 
emergency response--the first responders--are met. Though many 
challenges remain, we believe we have accomplished a great deal in the 
short time DHS has managed this program.
    We are confident that with your continuing support and the 
assistance of our many Federal partners, we will continue to move 
towards a world where lives and property are never lost because public 
safety agencies are unable to communicate or lack compatible equipment 
and training resources.
Appendix I: OIC Authorities from the Intelligence Reform and Terrorism 
                         Prevention Act of 2004
    Congress, with the passage of the Intelligence Reform and Terrorism 
Prevention Act of 2004 (PL 108-458) less than a year ago, gave OIC and 
SAFECOM legislative authority to carry out its responsibilities. Before 
passage of this act, responsibility for addressing interoperability was 
spread across three different agencies. Section 7303 of the Act 
directed SAFECOM to:

 coordinate with other Federal agencies to establish a comprehensive 
        national approach to achieving public safety interoperable 
        communications;
 develop, with Federal agencies and state and local authorities, 
        minimum capabilities for communications interoperability for 
        Federal, state, and local public safety agencies;
 accelerate voluntary consensus standards for public safety 
        interoperable communications;
 develop and implement flexible open architectures for short- and 
        long-term solutions to public safety interoperable 
        communications;
 identify priorities for research, development, and testing and 
        evaluation within DHS and assist other Federal agencies in 
        doing the same with regard to public safety interoperable 
        communications;
 provide technical assistance to state and locals regarding planning, 
        acquisition strategies, and other functions necessary to 
        achieve public safety communications interoperability;
 develop and disseminate best practices to improve public safety 
        communications interoperability;
 develop appropriate performance measures and milestones to measure 
        the nation's progress to achieving public safety communications 
        interoperability;
 provide technical guidance, training, and other assistance to support 
        the rapid establishment of consistent, secure, and effective 
        interoperable communications capabilities in the event of an 
        emergency in urban and other areas determined by the Secretary 
        to be at consistently high levels of risk from terrorist 
        attack; and develop minimum interoperable communications 
        capabilities for emergency response providers.
     Appendix II: Tools and Methods based on Local and State Pilots
 Communications Tabletop Exercise Methodology, a process for a 
        communications-focused tabletop exercise replicable across 
        urban areas.
 Tabletop Exercise After-Action Report, a template for capturing key 
        findings and identifying gaps following each tabletop exercise.
 Interoperability Pocket Guide, a process for creating an area-
        specific interoperability pocket guide to ensure local public 
        safety officials are aware of current capabilities available in 
        their areas.
 Templates for Improving Interoperability, including governance 
        charter, standard operating procedure (SOP), and memorandum of 
        agreement (MOA) templates to help communities improve 
        interoperability.
 Operational Guide for the Interoperability Continuum--Lessons Learned 
        from RapidCom, which outlines the importance of each element of 
        the Interoperability Continuum, provides common challenges to 
        consider when working towards improved interoperability, and 
        recommends key actions to increase an area's capabilities.

    Mr. Upton. Thank you very much.
    Mr. Hitch, welcome.

                   STATEMENT OF VANCE E. HITCH

    Mr. Hitch. Thank you. Good afternoon.
    Mr. Upton. I think you want to just hit the button. There 
you go.
    Mr. Hitch. Can you hear me now? Okay.
    Good afternoon. Thank you for the invitation to speak with 
you today. I am the Chief Information Officer of the Department 
of Justice and I have held this position since April of 2002. 
And my testimony today will describe the Department of 
Justice's efforts since 9/11/01 to improve interoperable 
wireless communications within DOJ, as well as within our law 
enforcement partners in other Federal, State, and local 
agencies. I will in particular focus my attention on the 
Integrated Wireless Network Program, which is a program that my 
office manages and is key to our law enforcement mission.
    Although most metropolitan areas have some inter-agency 
communications capabilities, they are limited and do not meet 
the requirements in all circumstances. Further, much of the 
non-urban areas of the country have even less. Events such as 
Hurricane Katrina highlight the fact that most public safety 
communication systems are highly dependent on commercial or 
public infrastructures such as electric utilities, 
telecommunications, natural gas, and so forth. When these core 
infrastructure systems fail or are overwhelmed, the agency 
communication systems are badly degraded or fail as well.
    DOJ is committed to helping to improve interoperability 
across the entire law enforcement and Homeland Security 
communities. DOJ has several ongoing programs that are designed 
to address particular aspects of the communications 
interoperability issue. Today I am focusing on the Integrated 
Wireless Network Program. However, before I do so, I just want 
to mention briefly a couple of related programs. Through the 
Office of the Community Oriented Policing Services, known as 
COPS, DOJ awarded $150 million in grants in 2003 and 2004 to 37 
jurisdictions to improve public safety interoperability through 
voice interoperability and data sharing projects. Earlier this 
month, COPS awarded another $92 million to an additional 25 
localities. Also through the Communications Technology Program, 
the National Institute of Justice has granted over $90 million 
to practitioners, universities, industry standards bodies, and 
vendors to develop interoperability solutions for State and 
local law enforcement.
    Finally, as an adjunct and interim measure under the IWN 
Program, my office has partnered with State and local officials 
in 25 cities to connect existing Federal, State, and local 
agency systems together. DOJ has coordinated each of these 
three initiatives with SAFECOM Program managed by the 
Department of Homeland Security in which you have just heard 
from.
    I now want to focus on the IWN Program, Integrated Wireless 
Network. IWN is a partnership between the Department of 
Justice, Homeland Security, and Treasury to implement a 
consolidated nationwide communication system for Federal law 
enforcement and homeland defense agents. IWN will support 
approximately 80,000 Federal agents in all 50 states and U.S. 
territories. Based on the Government's preliminary engineering 
estimates, IWN will require installation of communications 
infrastructure at approximately 2,500 locations around the 
country.
    IWN will replace the antiquated systems currently 
supporting Federal agencies including the FBI, DEA, ATF, U.S. 
Marshals, the Secret Service, ICE, and the Border Patrol. Using 
a variety of interoperable technologies, the IWN will address 
Federal agency requirements to communicate across agencies and 
with State and local law enforcement partners. The IWN will 
also facilitate Federal use of emerging communications 
technology such as voice over IP and wireless streaming video. 
Finally, IWN will allow DOJ, DHS, and Treasury to address these 
requirements in the most resource efficient means possible.
    The genesis of the IWN Program was a mandate from the 
Department of Commerce, the National Telecommunications and 
Information Administration, NTIA, to cut in half the amount of 
radio spectrum used by Federal agencies for each land mobile 
radio channel. To meet the NTIA ``narrowband'' mandate, as it 
is known, Federal agencies have to replace their legacy radio 
systems. The IWN Program began at the Department of Justice in 
2000, Treasury joined us in November of 2001, and DHS joined us 
in March of 2003.
    To date, the IWN Program has developed functional and 
management requirements, conducted a technical assessment and 
market research into potential products and services, and 
deployed several pilot systems to assess technology options and 
gain lessons learned on managing multi-agency systems. We 
currently are conducting the procurement for the development, 
deployment, and operation of a nationwide IWN system.
    IWN will address the following lessons we have learned from 
operations of the existing legacy systems, achievements from 
our 25 cities interoperability projects, and the results of IWN 
pilots that we have run in Salt Lake City, San Diego, and 
Seattle. First of all, deploying and operating effective 
communication systems is a very complex endeavor. The systems 
must adapt to each agency's unique business requirements and 
must be tailored to the geographic region being supported. 
Second, interoperability must be addressed regionally or 
locally. Agencies and officers usually need to communicate with 
compatriots from other agencies operating in the same general 
area. Third, a prerequisite for improving interagency 
communications is the development of successful partnerships 
among participating agencies. And fourth, joint systems such as 
IWN provide a number of opportunities to achieve significant 
cost efficiencies. In addition, the prime lesson learned from 
Hurricane Katrina is that we must carefully address 
survivability as we build and deploy IWN in the future.
    In closing, we believe that the IWN Program is an example 
of good Government and best practices. We expect to realize 
significant operational benefits from the IWN, including 
communication services that are more secure, more reliable and 
accessible to Federal agents over a greater geographic area 
than is available today. The system will also provide inherent 
interoperability between the IWN agencies and will facilitate 
communication with officials from other Federal, State, and 
local law enforcement agencies. Better communications will 
facilitate better mission coordination and collaboration, which 
in turn will make our law enforcement and homeland security 
personnel more effective in stopping crime and protecting the 
Nation.
    Thank you for your time this afternoon and I will be happy 
to answer any questions you may have.
    [The prepared statement of Vance E. Hitch follows:]
 Prepared Statement of Vance E. Hitch, Chief Information Officer, U.S. 
                         Department of Justice
    Good afternoon and thank you, Mr. Chairman and Members of the 
Committee, for the invitation to speak to you today.
    I am the Chief Information Officer for the Department of Justice. I 
have held this position since April 2002. My testimony today will 
describe efforts the Department of Justice has undertaken since 
September 11, 2001, to improve interoperable wireless communication 
within the Department of Justice, as well as between the Department and 
our law enforcement partners in other federal, state and local 
agencies. I will focus particular attention to the Integrated Wireless 
Network (IWN) program, which is a program that my office manages.
    Interagency communications is a priority issue for the Department 
of Justice and we recognize that such capability is also a top priority 
for the public safety community at large. DOJ's ability to protect this 
country and stop crime (including terrorism) is heavily dependent on 
working closely with other federal, state, tribal and local agencies. 
Such working relationships cannot be achieved unless we can 
interconnect agency communications systems. Similarly, we consistently 
hear this same message from law enforcement partners in other federal 
agencies as well as at the state, tribal and local level. Indeed, the 
need for interagency communications has been widely recognized among 
the law enforcement community for at least two decades.--The terrorist 
attacks on September 11, 2001, and the subsequent analysis of what 
occurred during and in response to the attacks, highlighted in a very 
public way the communication deficits facing the country as a whole and 
the law enforcement and homeland security communities in particular.
    Although most major metropolitan areas have some basic capability 
to link agency communications systems together to communicate in 
emergency situations, much of the country's existing capabilities are 
limited and do not meet the requirements for all circumstances. 
Further, most of the nation's interoperability capabilities exist only 
in our major cities. Much of the non-urban areas of the country have 
little interagency communications capabilities. In addition, events 
such as Hurricane Katrina highlight the fact that most of our public 
safety wireless communications systems (federal, state and local) are 
highly dependent on commercial or public infrastructure (e.g., electric 
utilities, telecommunications services, etc.). When these core 
infrastructure systems fail or are overwhelmed--as was the case during 
Hurricane Katrina--the agency communication systems are badly degraded 
or fail as well.
    The Department of Justice is committed to supporting the 
improvement of interagency communications among the law enforcement 
community. DOJ has several ongoing programs that are designed to 
address particular aspects of the communications interoperability 
issue. The one I want to focus on today is the Integrated Wireless 
Network Program, an initiative to improve federal tactical law 
enforcement and homeland security communications capabilities. However, 
before I talk about IWN in detail, I first want to stress that the 
Department's efforts are not one-dimensional--in addition to addressing 
specific DOJ communications requirements through IWN, the Department 
also has contributed to addressing communications issues at the state 
and local level too.
    Through the Office of Community Oriented Policing Services (COPS) 
program, DOJ awarded $150 million in grants in 2003 and 2004, to 37 
jurisdictions to improve public safety interoperability. The projects 
funded by COPS include voice interoperability and data information 
sharing to large and small population centers across the nation. 
Earlier this month, COPS--awarded another $92 million to 26 localities 
to address public safety interoperability. Through the Communications 
Technology (CommTech) Program, the National Institute of Justice--has 
granted over $90--million to practitioners, universities, industry 
standards bodies and vendors in order to develop interoperability 
solutions for state and local law enforcement. CommTech efforts span 
five different disciplines: research and development, integrated 
product test & evaluation, pilot programs, standards development, and 
outreach and technical assistance. Finally, as an initial step in the 
development of the IWN, DOJ has partnered with state and local 
officials in 25 cities across the country to augment or implement 
multi-agency emergency communications capabilities. This effort--which 
we call our 25 Cities Interoperability Program--has sought to achieve 
interoperable communications by connecting existing federal, state and 
local agency systems together. DOJ has made a concerted effort to 
coordinate across each of these three initiatives, and also with the 
SAFECOM program managed by the Department of Homeland Security.
    I now want to focus on the Integrated Wireless Network (IWN) 
program. IWN is a partnership between DOJ and the Departments of 
Homeland Security and the Treasury to implement a consolidated nation-
wide communications system in support of the federal agents and 
officers engaged in the conduct of the law enforcement and homeland 
defense missions of the three Departments. The scope of the IWN is 
significant. When fully implemented, IWN will support approximately 
80,000 federal agents and officers in all 50 states and the U.S. 
territories. Based on the government's preliminary engineering 
estimates, the IWN will require installation of communications 
infrastructure at approximately 2,500 locations around the country.
    The IWN will replace the antiquated and functionally limited 
existing systems currently supporting federal agencies including the 
Federal Bureau of Investigation, Drug Enforcement Administration, 
Bureau of Alcohol, Tobacco, Firearms and Explosives, U.S. Marshals 
Service, U.S. Secret Service, U.S. Immigration and Customs Enforcement, 
and U.S. Customs and Border Protection. In doing so, the IWN will 
address federal agency requirements to communicate across agencies, and 
with state and local law enforcement partners. The IWN also will 
facilitate federal use of emerging communications technology (such as 
Voice over Internet Protocol, and wireless streaming video). Finally, 
IWN will allow DOJ, DHS and Treasury to address these requirements in 
the most resource-efficient means possible, thus reducing the dollars, 
staff time and radio spectrum needed to meet federal agency 
communications requirements.
    The genesis of the IWN program was a mandate from the Department of 
Commerce, National Telecommunications and Information Administration 
(NTIA), to cut in half the amount of radio spectrum used by federal 
agencies for each land mobile radio channel [For reference, see 47 
U.S.C. 903(d).]. Land mobile radio is the technology most law 
enforcement and public safety agencies (federal, state and local) use 
for tactical communications systems. The practical effect of the NTIA 
``narrowband'' mandate was a requirement for federal agencies to 
replace their legacy radio systems. In 2000, as a cost avoidance 
measure, DOJ decided to build one system rather than replace the six 
separate systems in place at that time. A similar decision was made by 
officials at the Department of the Treasury. In August 2001, DOJ and 
Treasury officials began discussing a joint project. Initial agreement 
was reached on September 7, 2001, and the two departments signed the 
first memorandum of understanding for the IWN in November 2001. The 
Department of Homeland Security joined the partnership when it was 
created in March 2003.
    The September 2001 terrorist attacks on New York and the Pentagon 
changed the focus of the IWN program from compliance with the NTIA 
narrowband mandate to improving the mission effectiveness of the 
communications system, of which interagency communications is a key 
aspect.
    To date, the IWN program has developed a comprehensive set of 
functional and management requirements, conducted a technical 
assessment and market research into products and services that may 
provide the basis for the IWN system, and deployed several pilot 
systems to assess technology options and gain lessons learned on 
managing multi-agency systems. At present, the Department of Justice--
on behalf of the three-department partnership--is conducting a 
procurement for the development, deployment and operation of a 
nationwide IWN system.
    The IWN has been greatly influenced to date (and will continue to 
be influenced) by a number of lessons learned by DOJ, DHS and Treasury. 
The sources of these lessons include the experiences gained through 
operation of the existing individual agency systems, achievements from 
our 25 Cities Interoperability projects, and results of IWN pilots in 
Salt Lake City, Utah, San Diego, California and, most recently, 
Seattle, Washington. From these experiences and pilots, we have learned 
the following:

 Deploying and operating effective communications systems is a complex 
        endeavor. Public safety communications systems in general are 
        complicated because they must be flexible in order to support 
        the complex business processes of an agency that must address 
        or respond to a wide range of non-routine situations. Multi-
        agency systems add a layer of complexity because each agency 
        has its unique business processes or functional requirements. 
        In addition, wireless communications systems have to be 
        tailored to the geographic region being supported (this is a 
        key distinguishing factor between wireless systems and all 
        other IT). As a consequence, wireless communications systems 
        such as IWN can employ common architectures and standards, but 
        cannot be developed and deployed in a ``cookie cutter'' manner.
 Interoperability must be addressed regionally or locally. While the 
        federal government and its agencies can provide a national 
        perspective to communications issues, interoperability, 
        especially as it pertains to law enforcement, is essentially a 
        ``local'' issue. Agents and officers usually need to 
        communicate with compatriots from other agencies operating in 
        the same general area. Further, because every region has a 
        unique mix of government structures and communications 
        resources in their ``embedded base,'' no one solution can be 
        appropriately imposed uniformly across the country. Instead, 
        what is needed is a set of solution options that can be applied 
        in varying combinations to address the specific communications 
        needs of each region.
 A prerequisite for improving interagency communications is the 
        development of successful partnerships among agencies in a 
        particular region. As DOJ officials have worked to implement 
        our interoperability initiatives, we have observed that good 
        interoperability solutions start with good partnerships. To the 
        credit of state and local government, we have witnessed across 
        the country a tremendous collaborative spirit among law 
        enforcement agencies. This collaborative spirit at the local 
        level has served as the foundation for success. Indeed, where 
        DOJ has been able to help improve interagency communications, 
        we have simply enhanced the efforts that already were initiated 
        locally. In the rare instances where we have encountered 
        challenges achieving consensus across prospective partners, 
        interoperability efforts have been slowed considerably.
 The collaborative projects have a multiplier effect. We have observed 
        that the efforts to bring agencies together to work on a joint 
        project have tended to foster better working relationships 
        between agencies beyond the project itself. We have seen this 
        specifically in the Seattle IWN pilot. Partnerships forged in 
        developing that joint system have carried over into other 
        operational areas among several of the federal agencies 
        participating in the Seattle pilot.
 Joint systems such as the IWN provide a number of opportunities to 
        achieve cost efficiencies. Examples of such efficiencies 
        include increased purchasing power and reducing the aggregate 
        quantity of communications infrastructure and overhead 
        expenditures (e.g. site and circuit leases, infrastructure 
        maintenance, and system administration personnel). Such 
        projects also tend to be more open to leveraging facilities and 
        services of other joint ventures. As an example, in the Seattle 
        and Utah IWN pilots, we were able to obtain microwave 
        connectivity services from the respective states. Doing so is 
        saving the federal government substantial sums of money we 
        would otherwise have paid for similar services.
    DOJ, DHS and Treasury are also garnering lessons learned from 
Hurricane Katrina. Katrina had a devastating effect on most public 
safety communications systems in southern Louisiana and Mississippi. 
All of DOJ's legacy (non-IWN) systems in this region were either 
disabled or substantially damaged either as a result of the storm 
itself (wind and flood damage), or because the systems were dependent 
on local electricity, natural gas and telecommunications services that 
all were disabled during or shortly after the storm. Each of our 
components was able to re-establish emergency communications 
capabilities within days of the storm. However, based on this 
experience, the IWN program is reassessing requirements for how the IWN 
is built and deployed. We will also look at strategies for reducing 
dependence on utility services that are at risk of damage or failure 
during a storm--or a terrorist attack.
    We believe the IWN program is an example of good government and 
best practices. IWN will provide management efficiencies through 
consolidation of departmental resources and the elimination of 
overlapping federal systems. As an example, by consolidating program 
management and system acquisition activities, the IWN program allows 
DOJ, DHS and Treasury to avoid a significant portion of the overhead 
costs the government would incur if each Department were to acquire 
services independently.
    More importantly, we believe the IWN is an example of how 
government can achieve mission enhancement through the appropriate use 
of information technology. Specifically, the three IWN partners expect 
to realize several significant operational benefits from the 
consolidated system. The most significant of these will be 
communication services that are more secure, reliable and accessible to 
federal agents over a greater geographic area than what is available 
today to each individual agency. Further, the IWN will provide inherent 
interoperability between the agencies that are regular users of the 
system, because each agency will be operating on common infrastructure 
and technology and will have preprogrammed inter-operability ``talk 
groups'' established for cross-agency communication. The system also 
will have a number of mechanisms (e.g., gateways, system-to-system 
interconnections, etc.) by which IWN users can communicate with 
officials on other federal agency systems and those of the state and 
local law enforcement agencies, as well as mechanisms to reconstitute 
wireless communications systems through the use of ad hoc deployable 
systems.
    A point worthy of note is that the shared nature of the IWN further 
facilitates inter-operability by bringing together DOJ, DHS and 
Treasury officials for the planning, development and operation of the 
system, thus conditioning the agencies to work together at a number of 
levels--from executive management to field office staff. Likewise, we 
anticipate that our efforts to incorporate inter-connectivity 
capabilities with other federal, state and local agency systems into 
the IWN will also facilitate building of inter-agency partnerships for 
mission purposes.
    So what does IWN represent in the ``big picture?'' The Department 
of Justice believes that the capabilities of the IWN--and the 
collateral benefits of joint project ownership and management--will 
result in better communications within DOJ, DHS and Treasury, among the 
federal agencies broadly, and ultimately across the law enforcement and 
homeland security communities as a whole. Better communications will 
facilitate better mission coordination and collaboration, which in turn 
will make our law enforcement and homeland security personnel more 
effective in stopping crime and protecting the nation.
    In closing, I want to assure you that DOJ recognizes that the 
federal law enforcement community is only a small piece of the overall 
public safety community. Nonetheless, we also understand that we have 
an obligation to lead by example. Toward that end, from this point 
forward, the communications systems we implement will be connected to 
those available to state, tribal and local agencies. Further, the IWN 
is an example of the type of collaboration needed to improve 
interagency communications, and is representative of our commitment to 
achieve this objective across the country. These are core principles of 
the Integrated Wireless Network program.
    Thank you for your time this afternoon. I will be happy to answer 
any questions you have.

    Mr. Upton. Okay, thank you. Thank you all.
    At this point, we will have Members ask questions and 
dialog with our panel.
    Certainly comments that you have testified today 
underscores the need as I see it that we pass our Transition to 
Digital Bill as quickly as we can, knowing that it will free up 
a lot of that spectrum and be able to give it to our first 
responders. And in conjunction with that, I have been working 
with Chairman Barton and members on both sides of the aisle to 
give an added boost for money for interoperability as part of 
that spectrum sale. Once we are able to complete that, I look 
forward to seeing such an amendment passed and wind its way 
through the Congress.
    But I have to say, Mr. Hitch, and I again appreciated your 
testimony. When you talk about IWN, the new program we are 
working with 25 different cities----
    Mr. Hitch. Yes.
    Mr. Upton. [continuing] did one of those cities happen to 
be New Orleans?
    Mr. Hitch. Yes, sir, one of them was New Orleans.
    Mr. Upton. And how did it work? Where are we on the 
timeline in terms of getting it started?
    Mr. Hitch. The 25 cities program is an adjunct to the IWN 
Program; the 25 cities are in various states of completion. 
Unfortunately, New Orleans is in the last phases and it is not 
going to be--it was not planned to be completed for another 6 
months.
    Mr. Upton. I saw an article in the Chicago Tribune last 
week, you received $6 million to fund emergency response 
system, regional emergency response system, regional emergency 
response system connecting New York City to surrounding areas 
will be created with a $6 million Federal grant addressing a 
flaw identified by the September 11 Commission. A grant from 
the Department of Justice will be used to create a regional 
command and control radio frequency for police, fire, and 
emergency officials in New York City, as well as surrounding 
counties in New York and New Jersey. How much money is in that 
pot that allowed $6 million to go to New York and how much is 
left, and where are we in terms of seeing such programs 
available? Is that part of the IWN?
    Mr. Hitch. Mr. Chairman, actually the 25 cities initiative 
is really an adjunct to the IWN Program. The IWN Program is 
really intended to be the next generation radio system for the 
law enforcement community in the Federal Government, primarily 
Justice and Homeland Security. We wanted to--when we got 
approval from our congressional appropriators--to set aside 
some money for the 25 Cities Interoperability Project so that 
we could make some progress in the short term. So it actually 
was not a lot of money. It was on the order of $25 to $30 
million for the 25 cities. And in many cases, some significant 
improvements have been made where the projects have been fully 
implemented. As I said, it is in the very early stages of 
implementation. Of the 25, I think about six or seven have 
actually completed the implementation, and the rest of the 25 
are due to be completed over the next 12 months.
    Mr. Upton. Well, I just know I was reading the Washington 
Times earlier this week and Asa Hutchinson had a wonderful bit 
piece earlier talking about the importance of interoperability, 
and I am going to ask unanimous consent to make that part of 
the record.
    [The article follows:]
                          the washington times

                     [Published September 28, 2005]

                       Communications disconnect
                           By Asa Hutchinson
    As hearings begin on how to improve U.S. emergency preparedness 
after Hurricane Katrina, Congress must give serious and immediate 
attention to a major, recurring and needless public-safety problem: 
inability of first responders to communicate with each other during a 
catastrophe.
    This ``crisis of interoperability'' came horrifyingly to light on 
September 11, 2001. After the first World Trade Center tower collapsed, 
more than 100 New York City firemen died because their radios could not 
receive the police band call to evacuate the second tower. Soon it was 
discovered that police, fire and other emergency departments in 
municipalities and counties around the nation could not talk to one 
another as they converged in Lower Manhattan.
    This electronic ``Tower of Babel'' was seen again during last 
year's hurricanes in Florida. The hurricanes hit widespread areas and 
required response efforts from many jurisdictions, most of which in the 
rush of rescue couldn't communicate to each another over their 
department systems.
    In the days following Katrina, it became clear most jurisdictions 
in both the Gulf region and the nation as a whole have taken little or 
no action to address interoperability issues. The reason is not lack of 
will so much as lack of funds. Replacing existing first-responder 
systems with state-of-the-art equipment is a huge financial challenge 
for any locality. Ensuring municipalities nationwide make this 
transition requires a new funding plan.
    Now many in Congress urge a rapid response, at last, to this need 
of first-responders. Sens. John McCain, Arizona Republican, Susan 
Collins, Maine Republican, and Joseph Lieberman, Connecticut Democrat, 
Reps. Jane Harman, California Democrat, and Curt Weldon, Pennsylvania 
Republican, have all provided leadership on this issue. One approach, 
advocated by Mr. McCain and others, would accelerate freeing parts of 
the wireless radio spectrum previously allocated for public safety use 
but not yet available.
    Broadcasters now use this spectrum to transmit analog television 
signals. It is in the highly valuable 700 MHz section of the spectrum. 
Together with an adjacent larger swath, these frequencies are slated to 
be vacated when stations move to digital television (DTV) transmission 
in 2009.
    Mr. McCain's plan would speed this transition. Moving broadcasters 
out, moving public safety in, and auctioning the remainder will be 
highly complex, but could begin earlier than now scheduled. Spectrum 
engineers agree the McCain plan will provide more than enough 
additional frequencies for first responders' needs. But it will not end 
the interoperability crisis.
    The inability of first responders to communicate in crises is only 
minimally due to inadequate bandwidth. Mostly it is a matter of 
inadequate radios and other devices. More frequencies won't help when 
agencies can't pick up one another's signals.
    Municipalities will need to coordinate their purchases, seeking 
technologies that allow cross-agency communications that don't 
interfere with the communications of others. All the tens of thousands 
of police, fire and rescue organizations must receive upgraded software 
or replace their mobile devices, and very few public safety agencies 
are able to afford that. National costs are estimated in the billions 
of dollars.
    Simply, Congress will need to provide first responders with not 
just more radio frequency spectrum but more money. Without new funds to 
pay for communications upgrades, giving local agencies additional 
spectrum will prove fruitless.
    New funding need not mean new federal taxes or borrowing. Congress 
can and should use the spectrum auctions to fund interoperability. The 
DTV transition plans anticipate auctioning the rest of the 700 MHz band 
to licensed wireless service providers of both voice and broadband 
applications.
    For technical reasons, this section of 700 MHz spectrum is 
unusually valuable. An auction could raise billions, funding both 
public safety interoperability and the television set-top converter 
boxes necessary for older TV sets to receive DTV signals after 
broadcasters vacate the analog spectrum.
    The Federal Communications Commission is preparing to auction a 
section of Defense Department airwaves next year, but most of those 
proceeds are already earmarked for other uses. Congress should look to 
the broadcast spectrum to fund interoperability, and it should direct 
the FCC to move up the DTV transition to early 2008.
    As Hurricane Katrina showed, America's public safety 
interoperability problem remains unsolved. Though the issues 
surrounding this crisis are complex, the solution can be simple. As it 
begins post-Katrina hearings, Congress has the tools to end the 
interoperability crises once and for all.

    Mr. Upton. Chairman Martin, we applaud your work again in 
establishing a new Public Safety/Homeland Security Bureau to be 
in charge of the interoperability issues. What duties 
specifically related to interoperability will be tasked and how 
much money do you expect for this new department? What are your 
staffing needs? How quickly do you think that it is going to be 
up and running? And do you expect to see standards and 
protocols established that other communities across the country 
might be able to utilize?
    Mr. Martin. Well, certainly, we are certainly trying to 
address the standards issue and potentially even the 
establishment, not only of technical standards, but of standard 
practices for planning purposes is one of the things that they 
would be able to explore and address. As far as the staffing of 
the new bureau, I would hope to be able to pull the staffers 
that are working on it in the different areas of the agency 
today. So that you have for example people in the Media Bureau 
that work on things like the Emergency Alert System, people in 
the Wireless Bureau that might work on 911 issues and I think 
to consolidate them all into one place.
    Mr. Upton. Are you able to do all of that administratively? 
Do you need any assistance from us?
    Mr. Martin. No, we will have to go through, work with 
Congress in getting their approval. Whenever we do a major 
reorganization of the Commission, that would always work 
through Congress in doing it so that is what we would do 
through that normal process and also have to make sure the 
Appropriations Committee was fully apprised and supportive. So 
we are just actually beginning that process and it was only an 
announcement of our intention to do that, to work with Congress 
to do that.
    Mr. Upton. Well I know we would like to help and as we look 
at legislation in the near future if there is something that we 
can do, we should be communicating, obviously, to make sure 
that it is bipartisan, and do all that we can.
    I see that my time is expired so I yield to my friend again 
from the great State of Michigan, Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman.
    Director Boyd, I have been trying to get information from 
DHS, Department of Homeland Security on home much money is 
being spent because every time we try to get money for 
interoperability, we are told that it has to go through the 
grants that the State's receive from Homeland Security. So I 
have been down the floor a couple times. I am still looking for 
the information for 2002, 2003. Could you go back to DHS and 
tell them to give us that information? It sure would help us 
out a lot.
    Mr. Boyd. Sure, I will be happy to take that message back, 
sir.
    Mr. Stupak. Okay. I understand that DHS and DOJ are 
soliciting bids for $10 billion to make your 80,000 Federal law 
enforcement officials interoperable. It does not include 
emergency workers or health workers. What is DHS's estimate of 
trying to achieve full operability between local, State, and 
Federal first responders?
    Mr. Boyd. That is one of the questions we are routinely 
asked and it is really hard to answer and let me explain why. 
We think we can achieve emergency level interoperability that 
is the kind of interoperability you need to address an 
emergency pretty quickly and that, in fact, has occurred in a 
number of places around the United States already. If you have 
cooperation from all of the political elements, they are 
willing to sign on----
    Mr. Stupak. Well isn't that what your job is supposed to 
be----
    Mr. Boyd. Yes, sir, and that is what we are working on. 
And, in fact, that is why we produced this. In the course of 
the RapidCom effort for example----
    Mr. Stupak. Well the estimates we have seen it is going to 
be 20 years. It is still going to be 20 years to get full 
interoperability in this Nation between the State, local, and 
Federal?
    Mr. Boyd. You are probably talking about the 2023 number 
that you sometimes will hear.
    Mr. Stupak. I have not heard anything else different so----
    Mr. Boyd. Well the 2023, well let me explain the 2023 
number because I know exactly how it came about. The 2023 
number comes from a meeting we had with public safety where we 
said look, we would like to find out what is the ideal. What is 
the perfect future you would like to have? The public safety 
guys said, okay, let us slap a number on the wall arbitrarily 
and let say it is going to be 2023 and let us say what would 
the world look like in 2023. No one ever intended to set 2023 
as a date when you arrive at full interoperability.
    Mr. Stupak. Well give me your best estimate then, when will 
it be fully interoperable between local, State, and Federal 
first responders?
    Mr. Boyd. In at the emergency level, I think that can be 
done probably within the next 3 to 5 years. And I think you can 
achieve that in most of the major areas really fast if you have 
a commitment. In the RapidCom cities----
    Mr. Stupak. Commitment of what, resources, financial 
resources?
    Mr. Boyd. Well that is what I want to explain. In the 
RapidCom cities, the 10 cities we have pulled together----
    Mr. Stupak. Right.
    Mr. Boyd. [continuing] we were able to establish command 
level interoperability within an hour to address an incident 
about the size of the Twin Towers. We did that roughly in 150 
days. In fairness not we did, we helped facilitate each of 
these localities in doing it because ultimately they have to do 
it. And we did that without any new resources. We did that 
based on what they already have in place. Most of the technical 
requirements, the kinds of equipment you need are available if 
communities are willing to build governess agreements and 
decide how it is they are going to work together to be able to 
establish that level of interoperability. Now full 
interoperability we define as meaning I can take the radio that 
any public safety officer has----
    Mr. Stupak. Right.
    Mr. Boyd. [continuing] deploy him anywhere and it will work 
in that system. That is going to take a lot longer.
    Mr. Stupak. For your filibuster you mean. I got a couple of 
questions. Let me move on. Interoperability in your testimony 
you said the methodology was initiated in 2005 and sort of 
implies that the study has not begun even though it is supposed 
to be finished by 2005. Has the study begun?
    Mr. Boyd. No, the study now is we have----
    Mr. Stupak. When it is going to begin?
    Mr. Boyd. As soon as we get through the requirements for 
the Paperwork Reduction Act and we have all the responses in 
the first 60-day period that has to be posted. We will make 
those adjustments and then there is another 30----
    Mr. Stupak. So 2006 maybe, hey?
    Mr. Boyd. So we think by summer of next year will have 
the----
    Mr. Stupak. Summer of next year, okay.
    Let me ask you this. You mentioned stated communication 
plans in your testimony. You explained the criteria you 
encourage States to use when making their plans. Are the States 
required to submit plans and are the States required that their 
plans be certified?
    Mr. Boyd. When it involves Federal funding, funding that 
comes through the office of State, local Government 
Coordination Preparedness----
    Mr. Stupak. Sure.
    Mr. Boyd. [continuing] that is part of the selection 
criteria and they have to submit plans to ODP. But remember 
that more than 97 percent of these systems are funded locally, 
it is not Federal money.
    Mr. Stupak. But do they have to be certified? These plans, 
they have to submit plans but my impression is the plans have 
to be certified. My question is if they have to be certified in 
order to get Federal funds, do they or not?
    Mr. Boyd. Well they have to be--you have to address that to 
ODP to ask exactly what the rules are for how they decide 
whether the plan is going to meet their requirements for 
funding.
    Mr. Stupak. Are they going to have to be certified in order 
to do it? Can you answer that question, Mr. Hitch?
    Mr. Hitch. I am not from ODP, I am from the Department of 
Justice.
    Mr. Stupak. Right.
    Mr. Hitch. For each DOJ grant that is issued, there are 
specific requirements. We do require that they follow the 
SAFECOM methodologies and procedures. We require 
interoperability. I don't know about on a specific grant 
whether certification----
    Mr. Stupak. Well if you follow your interoperability 
guidelines code sphere, isn't one of your interoperability 
guidelines, it is a thing we use in Michigan quite a bit. It is 
a lot cheaper, a lot quicker, interfaces and everything works 
but it is not in your guidelines so is Michigan going to be 
denied if they use code sphere to get interoperability in 
interface communication systems because----
    Mr. Boyd. It is not in the guidelines because the 
guidelines are not written in a way that would prevent them 
from deploying that kind of system if they want to. The 
guidelines are intended to point at a way to move forward 
nationally toward our goal of the system of systems. One of the 
things we have made very clear is that you are not going to 
have a single system.
    Mr. Stupak. I agree and I mentioned the guidelines, I said 
certified. Mr. Hitch said required so they do not have to be 
required just as long as they have something to resemble those 
guidelines? I am trying to get this down because the State's 
are saying we are getting denied and the money is not being 
pushed over as quickly as it should be.
    Mr. Boyd. Okay. Well I cannot speak to that part. I can 
tell you that for the grants that came in particular out of the 
COPS office for example, we were part of that process and so 
the guidance and compliance with the guidance which is fairly 
general it says if you are going to be developing a digitally 
trunk system, then you ought to consider P-25 but it does not 
say you have to because we understand there are times when you 
do not do that. And we helped to develop that criteria and 
applied that criteria in the selection process in the COPS 
grants and then earlier in 2003 in the FEMA grants. The ODP 
grants are block grants so the guidance becomes a 
recommendation to the State.
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Upton. Welcoming the chairman of the full committee, 
Mr. Barton.
    Chairman Barton. Thank you. And I want to thank each of you 
gentlemen for appearing today, especially Mr. Hitch. I know you 
had to rearrange some things and I appreciate you being here.
    I want to commend you, Chairman Martin for the steps that 
the FCC has already done. I read your testimony and you and the 
Commission's efforts in terms of the Rural Health Program, the 
E-rate Program, and the High Cost Reconstruction Program I 
think are excellent. I wish we were getting a little bit more 
publicity about what you are doing.
    I did have a question about you on the decision to create a 
new bureau in the FCC, this Homeland Security Bureau. Why do 
you think that is necessary as opposed to the organizational 
structure that you have right now?
    Mr. Martin. Well as I mentioned to Chairman Upton, many of 
the issues are still being dealt with across different aspects 
of the Commission and within the different bureaus so while we 
do have an office that focuses on Homeland Security that 
interacts with FEMA, it does not actually have interaction into 
the policy process for example on the Emergency Alert System. 
That is still handled out of the Media Bureau or whether or not 
wireless 911 issues should be handled and that is done out of 
the Wireless Bureau. And I think actually trying to coordinate 
and have one group of people focused on public safety and 
homeland security will produce a more consistent policy and 
processes across the different sectors of the industry. So just 
like we have an Enforcement Bureau that enforces all of our 
rules and enforces the rules against media companies and 
telecommunications companies hopefully in a more consistent 
way, I think the way thing is true of public safety and 
homeland security.
    Chairman Barton. Can you do that with the existing staff 
and existing resources?
    Mr. Martin. I do not think it will require any additional 
staff and resources. I think that it will be pulling staff and 
resources from the existing bureaus that are working in a more 
disparate way and putting them all and locating them all in one 
area.
    Chairman Barton. And can you do that without any change in 
existing statutory authority?
    Mr. Martin. We do not end up having to seek a change in the 
statute but we do end up having to come to Congress for 
approval when we do a major reorganization of the Commission so 
we do have to work with Congress to make sure they are 
approving of any of the proposed processes as we go forward.
    Chairman Barton. Let me ask a question about your testimony 
on seamless interoperability. The gist of it appears to be that 
the FCC thinks these smart radios are the way to go. Is that 
something as we move our new Telecommunication Bill which we 
hope to do in the next month or so that we should set a 
standard in the law to cut out all the bickering and everything 
that has been going on or do we set some general parameters and 
leave that up to the various State and local officials and 
Federal officials to determine what is best for each particular 
area?
    Mr. Martin. Well I think that the use of smart radios or 
software defined technologies, software defined radios are able 
to more efficiently use the spectrum that they have so I think 
that that is something that depends upon the other aspects of 
when they will get both the spectrum that they could be able to 
use and when they would have the resources to be able to buy 
new radios. So obviously though, I think that we need to do--to 
take all the steps we can to make sure that those local public 
safety officials have some additional resources. And I think 
that smart radios means that they can do less with--they can do 
more with less spectrum. So I think it is possible that they 
could end up addressing it in that way but whether or not we 
should require that in the upcoming rewrite of the 
Telecommunications Act depends in part on how many other 
resources they are going to get to be able to purchase new 
radios and what spectrum will be made available to them.
    Chairman Barton. Mr. Hitch or Dr. Boyd, do either of you 
have an opinion on that last question I asked the chairman?
    Mr. Boyd. My experience is that the public safety 
communities intensely interested in better technologies that 
can meet those requirements but it is a very conservative 
group. So it is going to require that it be available for them 
and that they get a chance to see it piloted in use. And then 
my expectation is that these new technologies that offer so 
many new features are going to become some of the things they 
are going to look to but they are going to ask for that proof 
up front and I think that will forthcoming as the software 
defined radio and is IP based and so on mature in this 
environment.
    Mr. Hitch. Certainly that is the kind of technology that we 
are looking to implement as part of IWN and we have already 
implemented it in the pilots that we have done. So we would 
encourage it and it would make it easier for interoperability 
to work with local organizations that have similar technology. 
It is not impossible to do it otherwise and we will do it but 
it makes it much more efficient.
    Chairman Barton. Well, I do not know what the will of the 
committee is, but, you know, I am very disappointed to learn 
that we still have a problem in interoperability 4 years after 
9/11. And I am not saying that a statutory of standard is the 
preferred solution but it is an optional solution. It is 
something we are going to be looking at.
    Thank you, Mr. Chairman. I have got another hearing 
downstairs on the environmental consequences of Katrina so I am 
going to have to excuse myself, but thank you for holding this 
hearing.
    Mr. Upton. Thank you. Thanks for keeping us up late last 
night, too.
    Mr. Wynn?
    Mr. Wynn. Thank you, Mr. Chairman.
    Dr. Boyd, I want to understand some process aspects of this 
problem of interoperability. First of all, did your department 
do a prioritization of the country in terms of high risk areas 
and the degree of interoperability in high risk areas relative 
to terror and areas prone to natural disasters and 
interoperability relative to that? Because I think the one 
thing we understand is that this cannot all happen at once. So 
my question goes to who is going to be first in line and have 
you made those kind of determinations, New York, Washington, 
DC, natural disaster prone areas along coastal regions, those 
kind of things.
    Mr. Boyd. My office does not make that kind of 
prioritization but the secretary has made very clear that he 
wants a risk based process that begins to look at how you can 
allocate resources best across what the real risks are. That is 
one piece of the issue.
    Mr. Wynn. Okay. So somebody in homeland security has done 
that risk analysis and established the priorities?
    Mr. Boyd. For interoperability the--first, let me explain 
how you are looking at a couple of different things. The 
ordinary security initiative which allocates money to the urban 
area cities is allocated against threat and there was a threat 
calculus to do that. I cannot provide you all the details on 
how that is done because that is in another office----
    Mr. Wynn. Is interoperability on a parallel track with 
that?
    Mr. Boyd. Interoperability, we look at interoperability as 
a national issue. My office does not provide direct funding to 
support----
    Mr. Wynn. So it may be that they are on one track of 
national priorities and you are on a different track in terms 
of interoperability?
    Mr. Boyd. No, I don't think so. Let me make a clear 
distinction here. The money that comes under the Urban Area 
Security Initiative or the WAT grant money is defined in 
formulas by Congress.
    Mr. Wynn. By risk.
    Mr. Boyd. The interoperability funding that was 
specifically for interoperability also had to be allocated 
according to rules set by Congress.
    Mr. Wynn. Most problem money is based on a risk analysis. 
That is what you said. I am just asking you is the 
interoperability money on a parallel track with that risk 
analysis? In other words, are the high risk areas that are 
getting the grant money for preparedness also getting money for 
interoperability?
    Mr. Boyd. DHS does not have any money specifically for 
interoperability.
    Mr. Wynn. Okay, all right. Which brings me to my second 
question, have you done an assessment of local capabilities? In 
other words, you have got an analysis here, a risk base 
analysis here, have you determined whether or not your high 
risk areas, what the capabilities of your high risk areas are?
    Mr. Boyd. We have a study called the baseline study under 
way now which is intended expressly to try to answer that kind 
of question. There is no place in the United States you can go 
to and say what is the status of interoperability anywhere in 
the United States or across the country and that is why the 
baseline study will be the first attempt to do that.
    Mr. Wynn. When will that be completed?
    Mr. Boyd. It should be complete by summer of next year.
    Mr. Wynn. Okay. Now as the chairman said that is somewhat 
disappointing given the 4 years that have passed. Here is my 
situation. I represent two suburban counties outside of 
Washington, DC, probably second highest risk area for purposes 
of terrorism. I happen to know that there are limited 
capabilities in terms of one of those counties. One of those 
counties would be necessary for evacuation, it is the location 
of many Federal facilities. My concern is have you ascertained 
what that county's capabilities are vis-a-vis interoperability 
so that you can determine whether if something happens at NIH 
or at Census and Census is in a county with fewer resources 
that you are going to get them interoperable as soon as 
possible. Have you made those kind of determinations?
    Mr. Boyd. My office of four Federal officials is focusing 
on building tools that that county will be able to use to make 
that assessment and on conducting the baseline studies so that 
they can collect that.
    Mr. Wynn. They can use to make an assessment. They already 
know they do not have the money. They do not have 800 megahertz 
radios much less smart radios.
    Mr. Boyd. They will have--okay, but they are going to have 
to do some kind of assessment of their own to figure out what 
it is that is required there.
    Mr. Wynn. They have assessed--my time is money. They have 
assessed, they know they do not have the money. You want 
interoperable system. They are in the second highest risk area, 
they house Federal facilities, what are we going to do to help 
them get, become interoperable with the District of Columbia, 
the Federal agencies, et cetera? Otherwise if somebody hits the 
Census Bureau in Suitland, Maryland you are going to have a 
mess on your hands.
    Mr. Boyd. Well most of the national capitol region, in 
fact, has established and experimented with having demonstrated 
a couple of interoperability capabilities. My first was in 
Justice and first got involved in interoperability some years 
ago. We created a system based on the Alexandria Police 
Department which was used on 911 to support and to be able to 
provide the kind of monitor you needed in this region. You are 
not--if you are asking what is the funding going to be that 
goes----
    Mr. Wynn. I am just saying they do not have the radios and 
unless that issue is addressed, it is going to be hard to read 
interoperability.
    One last question because I think my time is just about up. 
You mentioned several times and I think you did, too Chairman 
Martin, the proprietary nature of some of this equipment and 
suggested that that was a barrier to interoperability. Is that 
the case?
    Mr. Boyd. It is and it can be in many cases because it can 
make it impossible for different systems to communicate with 
each other.
    Mr. Wynn. How do we overcome that?
    Mr. Boyd. We have a standards process under way with the 
National Institute of Standards and Technology expressly to 
address that. In October, next month, just a few days, the 
fixed station interface will go to ballad in the standards 
community so we expect that standard will be available almost 
immediately. That will then be incorporated in the Standard 
Grid Guidance and we in January, the ISSI interface which is 
the interface that manages the trunking system which is 
probably the most central piece of the standards should be 
completed and we expect it to be balloted and approved 
somewhere around March and then it will also be incorporated in 
the coordinating grant guidance.
    Remember in the United States, the standards process is a 
consensus based standard process among all of the industry 
players and we have been able, in fact, to give you an idea how 
astonishing it is that we are able to produce those standards 
in just the next few months, it took about 15 years to produce 
the first volume of P-25 standards. We are going to be able to 
do these next two pieces very, very quickly.
    Mr. Wynn. Thank you, Mr. Chairman.
    Mr. Upton. Mr. Shimkus?
    Mr. Shimkus. Thank you, Mr. Chairman.
    You know, since we have been here, we have seen the attacks 
of September 11 terrorist attack. Now we see this, you know, 
this natural disaster of almost historic proportions. I have 
mentioned this to my colleagues before. I serve on the NATO 
Parliamentary Assembly. Sam Nunn has come around with a 
strategic exercise called ``Black Dawn'' where the hypothesis 
is a small grade nuclear blast over Brussels, Belgium, mass 
casualties, mass destruction. Are we taking into consideration 
at this time the affects of electromagnetic pulse and how harm 
communications equipment. And if we are not, don't you think we 
should? Yeah, why don't we start, yes, sir.
    Mr. Hitch. We work with public safety to do it because in 
fairness you need to understand that the kind of guidance and 
direction we offer is built within the public safety community. 
We tell them you have to plan for worst case scenarios and it 
does not matter whether you launch the system because of a 
major EMP pulse or because of a Katrina. You have to plan for 
worst case scenarios and then work back from that. It is very, 
very difficult to address the massive loss of communications 
facilities if you have not thought through these things.
    In my days when I was a career soldier, I can remember the 
boss saying that when you are in the fight is the wrong time to 
figure out how to handle the fight. You need to have done this 
in advance. You need to have planned it up front and you need 
to have thought through all the way to the very worst possible 
case, and then you need to have thought of how many things can 
aggravate that even further and how could I think through all 
of those pieces not necessarily because I am going to be able 
to put something in place to fix it right now but so I at least 
know what I am going to have to go do, and I will at least have 
some notion of how I am going to approach the answer.
    Mr. Shimkus. Kevin?
    Mr. Martin. Well I think that we do need to end up having 
to have a public safety system that can be--that is not only 
interoperable it can be reestablished quickly and I think that 
involves having to have some kind of mobility in the antennas 
at the end of the line, antenna infrastructure. Some of the 
cellular providers are talking about trying to use cell towers 
on wheels that they can roll in even if their cell towers have 
been destroyed and that they would be capable of not only 
plugging back into the land line network but also be sending 
traffic over satellite so aggregating traffic on the ground and 
then using satellite capability which should not be destroyed 
in the same way. There has also been talk about having 
inflatable antennas and, you know, they can be dropped even 
from, potentially from airplanes and so they can be 
reestablishing communications quicker. So I think we have got 
to have a system that as I said not only is interoperable but 
can--is capable of being reestablished and is mobile very 
quickly.
    Mr. Shimkus. I think the public policy debate that we are 
going to be experiencing when we deal with the DTV issue and I 
am not one that likes to legislate science but we have to make 
sure we have some standards so that when the Federal Government 
is assisting in the purchase of equipment that it meets the 
interoperability standard or in essence the harden standard.
    You know, I fear we buy all this communication equipment 
and then there is an electric magnetic pulse that wipes out the 
communication equipment that we have got safely protected. They 
pull it out and all the things are fried or there is in the 
atmosphere an airburst that knocks out the satellite system. 
Don't you--somehow we need to be addressing this and I am not 
sure how we go about it other than ask you all and then find 
out through the process do we need a worst case scenario? But 
when we do that, also it is a higher cost, it is at a higher 
cost which means you have in essence less deployment, slower 
but you have more issues. And that is the issue that we have to 
wrestle with. Anyone want to add or comment on that?
    Let me just end with saying just thank you for coming. I am 
going to work with my colleagues in the Senate along with the 
Committee on trying to address other emergency notification 
systems across the communication spectrum. I hope you all will 
take a look at that and if there is any advice and counsel you 
want to give us on that, we would be welcome to receive it.
    Thank you, Mr. Chairman, I yield back.
    Mr. Upton. Ms. Blackburn.
    Ms. Blackburn. Thank you, Mr. Chairman.
    I want to thank all of you for being here today and giving 
us your time on this. It is the communications and what took 
place as we went through Hurricane Katrina is very important 
and I am looking forward to hearing from each of you as we move 
forward as to what your lessons learned are.
    I have said in the initial hearings that we have had 
whether it was financial management, whether it was the initial 
response, I find it incredible and being on the ground in 
Mississippi following this storm, I found it absolutely 
incredible that you were unable to talk to individuals that 
live there. I found it absolutely amazing that we were without 
cellular service. That we were without basically any kind of 
service, hard wired phone service, that cable was down. I 
understand in some areas of Mississippi it is going to be a 
year before that infrastructure gets put back in place. And I--
so one of the things that is quite amazing is that nobody 
seemed to have a plan for what you were going to do with the 
emergency communications when everything failed. People did not 
even have a plan for how you were going to refill the generator 
once the generator ran out of gas. And I--that is of tremendous 
concern.
    And one of things that I want to focus on is what we are 
going to do as we rebuild this infrastructure. As you have cell 
towers that are down, as you have cable systems that the 
infrastructure is destroyed, as we know there are new 
technologies available for data, for voice, for video, what are 
the plans going to be and how is that going to be approached?
    There was an article I found, I guess it was weekend before 
last in the Weekend Journal. I do not know if any of you saw 
this. Mr. Martin, you are smiling so I guess that possibly you 
did it. But we have got folks that are holed up over in the 
Superdome, they are in New Orleans, they do not have any 
communications, nothing is working, nobody is on the same 
frequency with their radios and one guy remembers he had set up 
a VOIP account. So as you look at how you are going to handle 
all of this, I think that knowing that that is something that 
needs to be considered. What are your different components, 
what is going to comprise your overall plan when you talk about 
all of your interoperability issues and the different templates 
that you are going to use.
    So I thank you. I know I have gone around the horn and I 
have vented a little bit. And I know that you all probably will 
seemingly lose your patience with some of us Members of 
Congress. Dr. Boyd, you are smiling and I think you have kind 
of lost your patience. I promise I am not going to get your 
last nerve. Maybe your next to last nerve, sir, but not the 
last one. But, you know, we definitely want to be certain that 
the communications issue is addressed in a very thoughtful 
manner. My parents in Southern Mississippi still do not have 
telephone. They have cable from time to time and the cell 
towers work about 15 percent of the time, other than Nextel it 
seems to go through fairly regularly.
    Okay, Chairman Martin, may I ask you a question, please? 
What--let us talk about the 700 megahertz band. What can we do 
for our first responders by clearing broadcasters out of that 
700 megahertz band and would that affect the overall 
communications plan? Is there a--do you have a template? Are 
you thinking forward exactly how you would set that up if you 
cleared that spectrum and if you were to put folks onto that?
    Mr. Martin. Well, in the 700 megahertz band there has been 
24 megahertz of that spectrum that has been dedicated to public 
safety uses. A certain percentage of that is already being and 
allocated and indicated that it should be used specifically for 
interoperability, so about a little more than 2.6 megahertz of 
that should be used for interoperability specifically. In 
addition to that as a result of 9/11 Commission's report and 
congressional legislation last year, the Commission owes a 
report to Congress in December about whether public safety, 
whether that is an adequate amount of spectrum for all public 
safety uses or not. And the--we have begun gathering a record 
and giving public safety the opportunity to comment. And there 
is a record that has been developed public safety some have 
indicated they could use another 10 to 30 megahertz of spectrum 
out of that 700 megahertz band that they could be using for 
other issues not only interoperability but other public safety 
uses. So we have definitely allocated a certain percentage of 
it already for public safety. We have already allocated or 
indicated a certain percentage of that will definitely be used 
for interoperability and we have--we are studying now and we 
will have a report in December about whether even additional 
spectrum should be provided to public safety.
    Ms. Blackburn. Okay. Let me ask you one more thing on that. 
You were talking about an additional 10 to 30 and you have 
talked about the public safety. Are you including in this an 
interface with military in any way or are you just looking at 
first responders?
    Mr. Martin. It is just--when we are talking about that it 
is just first responders.
    Ms. Blackburn. Just first responders.
    Mr. Martin. But they do end up interacting with other 
people that would be coming into an area which at times could 
be military but we are not addressing----
    Ms. Blackburn. But you are not addressing that component at 
all.
    Mr. Martin. [continuing] providing any spectrum to the 
military, no.
    Ms. Blackburn. All right. I just wanted to clear that 
because we continue to hear more about the relationship between 
military components and first responder components since we 
look at national disasters. Do you think that is something you 
should put on your plate and look at or not?
    Mr. Martin. The interaction between first responders and 
the military you mean?
    Ms. Blackburn. Yes, an extra allocation there or may be 
considering that allocation.
    Mr. Martin. Well we certainly--like I said, we are 
considering it and it is whether or not we should be providing 
them any additional spectrum beyond what they have already been 
given. I do not think we consider specifically the military, 
any particular military applications in the first responder 
program.
    Ms. Blackburn. That is fine.
    I have got 1 minute left. Dr. Boyd, I am going to come to 
you. You are saying it is going to take 2 years to get the 
study done so then we can start thinking on the process if I am 
understanding you right. Correct, sir?
    Mr. Boyd. Well, not 2 years. This summer we should be 
finished.
    Ms. Blackburn. Okay. So this summer you would have your 
study done?
    Mr. Boyd. That is correct.
    Ms. Blackburn. All right, okay. You know, we have asked you 
this question and you have been kind to take the time to answer 
it. I just am going to ask you if you will, sir, to list your 
goals and a timetable of where you think you are going to be 
when. You have thrown around several different dates. You are 
saying 3 to 5 years, you know, as we talk about responding to 
national disasters, I would love to have an idea if we are 
closer to 3 years or if we are closer to 5 years.
    And also if you agree with Mr. Hitch that interoperability 
is a local issue. I think that we are all concerned. We are 
concerned for our communities and if you are going to be the 
one providing guidance, I would certainly love to see stated 
goals and stated timetable.
    And with that, Mr. Chairman, I will yield back.
    Mr. Upton. Okay. Go ahead, Dr. Boyd.
    Mr. Boyd. Okay, well, and in fact you did not hit any 
nerves but you did tickle my funny bone.
    When I talk about 3 to 5 years to achieve emergency level 
interoperability, that is not a technology issue, it is not 
even a matter of when equipment goes into place, it is 
experience in helping communities figure out how to build 
governess processes talking about how they begin to build the 
kind of partnerships that work together.
    In 1993, I initiated the first interoperability program I 
was involved in while I was in justice. It took about 30 days 
to implement the technical piece. It was fairly permanent but 
it worked and it provided for interoperability in every agency 
in the county. It took 2 years for us to get all the agencies, 
Federal, State, and local in the county to agree that they were 
even interested in being part of it. So when I talk about 3 to 
5 years, I would start with the point that for the most part, 
if it is applied and if people are committed, most of the 
equipment and the technologies are available now. They exist, 
they can largely be bought fairly inexpensively to allow that 
command level of interoperability. It is not the smoothest, it 
is not the prettiest kind of interoperability but it can meet 
emergency requirements.
    The hard nut to crack, the very hard nut to crack and 
typically when I use this continuum to talk about all the 
pieces that have to go together depend on two things. One is 
technology is only one of the tracks. It is only one of the six 
lanes. And I will talk about governess last because that is the 
tough nut to crack because that means we have to get sheriffs 
who many not like to talk to each other or fire chiefs who do 
not want to deal with the police chiefs or city council's that 
do not want to share money or are afraid that it may cost 
something on--that may cause a problem in their control of the 
peace. So you have to be able to build a process starting from 
the bottom up so that everybody has a stake, everybody has a 
reason to be a part of it. And we have been, I think every 
successful in doing that but unfortunately, I have to tell you 
it is not a simple process. Getting people to agree on things 
like this is a really tough challenge because it involves 
making some concessions about control and authority.
    Mr. Upton. Thank you.
    Mr. Whitfield?
    Mr. Whitfield. Thank you, Mr. Chairman.
    And I just have a few brief questions I would like to ask 
Chairman Martin and certainly appreciate his being here this 
morning, as well as Dr. Boyd and Mr. Hitch.
    Chairman Martin, when I read your September 15 press 
release about Universal Service Funds going for assistance in 
the New Orleans and Mississippi Katrina devastated area, it 
reminded me of the number of hearings that we have had here in 
Congress particularly with the Energy and Commerce Committee on 
the Universal Service Fund, E-rate, and so forth. And all of 
us, I think acknowledge that that has been a tremendously 
successful program that has benefited the entire country in 
many ways. But we also hear criticism from these various 
hearings that we have had and I guess the oversight an 
investigation subcommittee is going to be issuing an E-rate 
report that will be going to Chairman Upton's committee to take 
whatever action they may want to take. But in some of these 
hearings there has been criticism or at least concern about the 
coordination, the communication, the planning between the FCC 
and USAC, the Universal Service Administrative Company. And 
they are, at least there seems to be, some perception that 
there are some problem areas there in those areas that I have 
mentioned, the communication, planning, policy, and so forth. I 
would like to get your perspective on that.
    Do you perceive that there is a problem there? I notice for 
example that you announced this $211 million in Universal 
Service Funds and I am assuming--did you all talk to USAC about 
that before making the announcement, did you sit down and work 
that through together or not?
    Mr. Martin. Well we certainly sought information from them 
in order to ascertain what would be the best way to end up 
trying to do that and what an estimate of some of those costs 
could end up being. For example, talking about how many schools 
are in that area that have received funding and what is the 
high cost funding that has gone to those states. We did not, we 
have not talked in the specifics about some of the orders that 
are front of the commission implementing data but of course 
those are--there are some more coordinating with them after the 
Commission has adopted the order of course and we have received 
input from them on some of the concerns they have had and tried 
to address that in our order about how it would work. But I 
think that a lot of the focus in the past about for example 
some of the concerns related to E-rate have been on some of the 
auditing issues that have occurred in the past and on some of 
the distribution of funds. And I think that the Commission has 
tried to work with USAC to make sure that as an appropriate 
oversight, I think the Inspector General has been very involved 
in that as well. He has, on some audits that have already 
occurred, he has worked out with USAC to coordinate to do an 
extensive additional number of audits going forward. I think 
about 700 audits is the plan for them to end up doing of 
different Universal Service recipients to make sure that they 
are using funding appropriately. So I do think that there needs 
to be a close coordination and auditing of what is going on 
with the funds.
    What we are doing with our response from Hurricane Katrina 
is actually just allowing for schools in that area to apply for 
funding through the Universal Service process but they will 
still have to meet the same accountability constraints that any 
school does whenever they are applying for funding. So there 
would not be any exemption from that as going forward, it is 
just a question of what schools would be in the area and what 
would be an estimate of what could be the impact on the fund 
for that.
    Mr. Whitfield. If you were speaking at a rotary club say in 
Hopkinsville, Kentucky and you were going to explain your 
relationship with the administrator of the Universal Service 
Fund, what your joint responsibilities are to each other, how 
would you explain that?
    Mr. Martin. Well there is an unusual relationship and I 
think there has actually been a couple GAO studies that 
occurred in the 1990's that was looking at the way USAC was 
structured and even had some questions that were raised about 
how that should end up functioning. But the Commission is 
actually the policymaking governmental entity deciding that--
what would be the policies for the distribution of those 
resources and I think USAC would be described as administrative 
in the sense that they would be, not be making policy judgments 
but rather would be handling the administration of applications 
that are coming in and then dealing with whether they met the 
criteria that we had established as a policy perspective to 
distribute that money. So they both are coordinating the 
collection of the resources from the telecommunications 
companies and then coordinating the distribution of those but 
they don't have any independent policy authority so that they 
can only do so in relation to the rules so to speak or 
priorities that the Commission establishes as the appropriate 
governmental entity. So they can not make policy, they can just 
administer the fund.
    Mr. Whitfield. And who is the primary liaison between say 
your office and USAC?
    Mr. Martin. Well I think it depends somewhat on what aspect 
of it. For auditing purposes for example it is the Inspector 
General's Office that takes the lead on that. For some of the 
management issues it would be the Managing Director's Office. 
For the policy issues, it would be the people in the 
telecommunications, the wire line, Telecommunications Bureau 
that is set up and made those policy decisions. So it depends 
on if it is a policy decision, a management decision, or an 
auditing one.
    Mr. Whitfield. Thank you, Mr. Chairman.
    Mr. Upton. Mr. Pickering?
    Mr. Pickering. Thank you Mr. Chairman.
    I want to first follow up on some questions that Chairman 
Barton asked on whether we need to address legislatively some 
type of requirement to reach the interoperability standards. 
Having seen where we were on 9/11 and then all of the focus and 
all of the recommendations of hoping to achieve 
interoperability among our communication networks and first 
responders and equipment, the tragedy is that we really have 
not made that much progress. And in my own State of 
Mississippi, the first really 3 to 4 days after the storm, we 
had an essentially no communications capability. Governor 
Barber talked about how he had a satellite phone and his 
Adjutant General of the National Guard had a satellite phone, 
his emergency response, the MEMA official had a phone but it 
worked so unpredictably and erratically that they basically had 
no communication other than like civil war, he would send 
runners. And that was the means of communication during the 
most critical time to save lives, protect lives, and respond. 
No ability to coordinate, no ability to help people because you 
have no communication. And no real progress since 9/11 to 
Katrina 2005.
    So I would like to know legislatively should we put a 
process together that would give you Dr. Boyd and Chairman 
Martin and the others in the community a chance to have a 
voluntary standard adopted within a deadline and failure to do 
so would then require a mandatory process to the FCC or 
Homeland Security or the appropriate agency so that one way or 
the other we will have an interoperability standard within a 
time certain given the industry and the community their first 
shot at it to do it as it should be done but failure to do so 
will not justify 5 years from now still not having the progress 
that we should have after 9/11 and Katrina. And would you all 
agree that that would be a good forcing catalyst to give you 
deadlines to work this out by yourself and failure to do so 
would require a Federal action deadline and requirement to have 
the standards in place? Mr. Martin?
    Mr. Martin. Well I certainly think that it is helpful in 
the sense that you would make sure that everyone was compliant. 
I think it has got to be not just a technical standard but the 
protocol standards as well. I mean for example one of the 
things that we discovered in response to the hurricane is that 
when 911 call centers go down, there is not even a standard 
protocol for where they send those emergency calls. And so the 
very first thing we started doing as Hurricane Rita was 
approaching the Gulf Region was just calling all the 911 
centers the 2 days before and telling them they at least need 
to establish a protocol of if they are physically damaged, 
where do those 911 calls, where should they be rerouted to and 
have you told the telephone companies where to go. And I think 
that some kind of requirements to establish like I said not 
just technical standards but standard protocols could end up 
being appropriate. That is one example where we made some real 
progress by trying to reach out to do that.
    Mr. Pickering. I think everybody knows what needs to be 
done. We want to define the problem. We have much better 
technologies. We are beginning to have the spectrum available. 
My question is very straightforward. Do you need deadlines, 
legislative deadlines to give you a voluntary process to get 
the job done by that deadline? Failure to do so will then start 
a process to the FCC or through Homeland Security that it will 
be done for the Nation, if it is not done on a voluntary basis. 
Would that be a good way to make sure that we get this job 
done? Dr. Boyd?
    Mr. Boyd. If I can. The current standards process is driven 
by the public safety community through the Association of 
Public Safety, let me explain that, communications officers. 
The reason I think it is imperative that we stick with that----
    Mr. Pickering. I understand the process. I understand the 
issues but we still have not--it has been since 9/11 and we 
still have not done--it sounds like you are on your way from 
what you said earlier about the process and what is about to 
happen over the next 6 months. So my hope is that you are 
successful in the current process to get it done. But let us 
say 6 months from now, a year from now it is still not done. 
Some disagreement, proprietary, for whatever reason you still 
have--you have had your process but you still have not reached 
the agreements necessary to give us interoperability standards 
that we need. At that point, would it not be helpful to have a 
legal requirement for all participants to force them to either 
voluntarily reach agreement or that they will be required by 
law to do it?
    Mr. Boyd. Well----
    Mr. Pickering. And there are many legislative examples of 
what we have had to get the standards in place and we have 
always given industry the first shot on a voluntary basis. That 
would be the preferable way. But failure to do so still, our 
country could not if we have an EMP, another hurricane four or 
five, another terrorist attack over the next year, we do not 
want to be looking at lessons learned if it is the same one 
that we failed to do something about.
    So my question, again, legislatively, should we give you a 
year to do it with your existing process? Failure to do so 
would be required by law that somebody will be responsible, 
accountable, and required to do that.
    Mr. Boyd. Well that is why I have to defer to the 
Department for legislative issues but I will tell you that one 
of the reasons things have moved forward where they have now is 
that I was--is that I told industries some months ago that it 
is our preference that they develop the standard, but if they 
don't, we will.
    Mr. Pickering. Do you have the legal authority to do that?
    Mr. Boyd. As far as we are concerned, working with the 
public safety community and then applying it in the common 
grant guidance. We have that authority.
    Mr. Pickering. You have incentives through the grants?
    Mr. Boyd. Yes.
    Mr. Pickering. Is that enough?
    Mr. Boyd. Well, we don't have the authority to impose 
requirements on systems not purchased with Federal money.
    Mr. Pickering. I think you have answered my question. I 
think that we need to give everybody a chance to do it right 
themselves, and then we need to give a legal backstop that it 
will be done, shall be done, and it will be done by a day 
certain.
    Mr. Upton. Mr. Martin.
    Mr. Martin. Well, no, I was just going to say, I can't 
speak to SAFECOM's--whether they will be able to get that done 
within any particular timeframe, but I do agree that deadlines 
are often helpful in public safety issues to get them done. I 
think we see that in the context of 911 as well. I think that 
is how you make a lot of progress, by telling people they don't 
have it done voluntarily within a certain timeframe, you have 
to end up doing it. And that is what we see with Voice over IP 
and wireless. So I think that is critical.
    Mr. Pickering. For both of you and for the first responder 
community, I would ask you all to work with Chairman Upton and 
Chairman Barton and the committee to have a process that would 
give the current process the time that they need to do it on a 
voluntary basis, but with a legal backstop and process that 
will ensure and give confidence to the country that it is going 
to be done.
    Mr. Chairman, how much time have I gone over?
    Mr. Upton. These lights are right in my eyes, but it looks 
like about 3 minutes over.
    Mr. Pickering. Mr. Chairman, thank you for your patience, 
and I will come back and ask some other questions in another 
round.
    Mr. Upton. Okay. Well, I know that we were just alerted 
that we are expecting votes on the House floor about 3:30, so I 
am hoping that we can finish with this panel. I might say that 
a number of members have communicated with me that they would 
like to propose sending some written questions to you, so we 
will try to get those assembled up and get them to you by the 
end of tomorrow, maybe. If you can respond by the end of next 
week, that would be very appreciated.
    Ms. Blackburn, do you have one quick question you want to 
ask?
    Ms. Blackburn. I do have a question for Mr. Hitch, and I 
will tell you, Mr. Chairman, in the interest of time and 
knowing that we are going to the floor for votes, these are 
questions about the integrated wireless network, and 
flexibility with that and expense. I will submit those in the 
interest of time. Thank you, sir.
    Mr. Upton. Mr. Radanovich, did you have questions to ask?
    Mr. Radanovich. To Chairman Martin, you know, the FCC is 
responsible for distributing spectrum to State, local, and 
public safety agencies. Why has the distribution spectrum been 
done on kind of a seemingly random basis, and why hasn't 
interoperability been the goal from the beginning?
    Mr. Martin. We have provided quite a bit of spectrum for 
public safety, about 50 megahertz at the 4.9 gigahertz, and 
some additional public safety spectrum was just allocated when 
we were rebanding the 800 last year. But the most significant 
piece of spectrum that has been given to public safety recently 
is in the band, as Chairman Upton talked about, is in the band 
that is currently used by the broadcasters. So I mean, it is 
not that some of that isn't anticipated, including the 
interoperability, it is that but some of the spectrum that we 
have provided to them and that Congress has provided to them is 
in a band that is already currently used and that will be 
vacated in the context of the digital transition for 
television.
    Mr. Radanovich. All right, thanks.
    Mr. Upton. Well, that concludes panel No. 1. Thank you, 
gentlemen, for your testimony, and we look forward to working 
with you in the days ahead.
    We will take about a 2-minute recess and let----
    Mr. Pickering. Mr. Chairman, could I just----
    Mr. Upton. Go ahead.
    Mr. Pickering. Just real quickly. I will have some 
additional questions for the panel concerning satellite policy, 
your universal service funds for the affected areas, and plans 
for deployable systems, whether it is high altitude or balloons 
that we can pre-position and replace networks.
    You know, interoperability is fine, but if you don't either 
have satellite or a replacement system, interoperability 
doesn't mean anything. And so I would like to work with all the 
members of the panel to try to have a greater confidence that 
we will have capabilities and interoperability in cases of 
crisis and natural disaster.
    Thank you, Mr. Chairman.
    Mr. Upton. Okay. We will take about 2-minute recess and 
allow the nameplates to be changed, and we will get started.
    Thank you.
    [Brief recess.]
    Mr. Upton. Let me get started. We might--so only I get to 
ask questions so--I say in jest to my good Michigan Police, 
State Police Officer, you might want to arrest this guy, he is 
a big Notre Dame fan and 2 weeks ago----
    Mr. Roemer. What was the score of that game, Fred?
    Mr. Upton. It is called luck of the Irish. We are joined by 
my--our formal colleague and for me the--my former member from 
the adjacent district and friend, Tim Roemer who is the 
Director of the Center for National Policy and was a member of 
the 911 Commission. Mr. Tom Miller, Lieutenant Colonel of the 
Michigan State Police, Mr. Art Botterell. Is that correct, 
Botterell, Emergency Information Consultant from California, 
welcome. Aren't you glad that our hearing did not go in--or our 
mark up did not go into today which would have canceled this 
hearing. Mr. Tony Trujillo, Chairman of the Satellite Industry 
Association, and Mr. Harold Kramer, CEO of the American Radio 
Relay League and again we appreciate the work of all of your 
members as we dealt with this terrible storm earlier this 
month. As you know, our rules are such that your testimony is 
made part of the record in its entirety. We would like you to 
spend no more than 5 minutes discussing as an overview your 
statement.
    And Mr. Roemer, you are recognized for 5 minutes. Welcome 
back.

  STATEMENTS OF TIMOTHY J. ROEMER, DIRECTOR OF THE CENTER FOR 
 NATIONAL POLICY; LT. COL. THOMAS J. MILLER, DEPUTY DIRECTOR, 
  MICHIGAN STATE POLICE; ART BOTTERELL, EMERGENCY INFORMATION 
SYSTEMS CONSULTANT; TONY TRUJILLO, CHAIRMAN, SATELLITE INDUSTRY 
 ASSOCIATION; AND HAROLD KRAMER, CHIEF OPERATING OFFICER, THE 
             NATIONAL ASSOCIATION FOR AMATEUR RADIO

    Mr. Roemer. Thank you, Mr. Chairman.
    An honor to be before this very distinguished panel. And an 
honor to be with some of the brave and courageous people that 
serve our country on the front lines.
    Mr. Chairman, you have graciously entered my statement into 
the record, I appreciate that. I also appreciate the service 
with you a democrat and republican that worked together often 
times on fiscal and education issues. It is nice to be back and 
see you and see other Members of this Committee.
    Mr. Chairman, I guess the message from the 9/11 Commission 
is pretty simple. We have threats to our country, people that 
want to kill our citizens not just over there in Iraq, Madrid, 
London, Indonesia, but right here, New York, potentially 
Michigan, Indiana, California. The people on the front lines 
like these brave people here with me today need all the 
equipment they can possibly get to communicate and fight the 
enemy. They do not have it. They need more.
    Right after 9/11 when I served in this distinguished body, 
Members of Congress were then provided with some equipment to 
better communicate. ``Blackberries'' were provided in many of 
the budgets for people in Congress to make sure they could 
communicate, get to their committee assignments, have 
discussions between each other, make sure the Intelligence 
Committee operated. These people still need some of that same 
kind of equipment. We need to get that to them.
    Let me give you a couple examples of what the 9/11 
Commission found as to some of these problems. We found all 
kinds of compelling instances of bravery and courage; people 
going into burning buildings and rescuing people. They might 
have rescued more. We might have saved more of the Fire 
Department chiefs, officers, police officers, emergency 
personnel if they would have had public radio spectrum to 
better communicate.
    At 9:59 in the morning on 9/11, 4 years ago, a general 
evacuation order was given to firefighters in the North Tower. 
The South Tower had collapsed, a place that held up to 25,000 
people had been diminished to cement, steel, and ash. The 
people then in the North Tower, many of the chiefs in the lobby 
did not even know that the other tower had collapsed or else 
they might have been able to get more people out more quickly. 
We had comments from people saying such things as we did not 
know it collapsed. Somebody actually said, Mr. Chairman that 
people watching TV had more information than we did in the 
lobby on 9/11 in the North Tower. People on TV in Florida or 
California knew more than our first responders onsite in New 
York City. We cannot let that continue. We have got to do more. 
We cannot make it like a general in Iraq who needs 
reconnaissance and maps and intelligence. We try to provide 
them all we possibly can. So too should we provide these 
officers, these emergency personnel all the intelligence, all 
the communication, all the equipment that they possibly need.
    Mr. Chairman, then we had a disaster happen in the southern 
part of our country in New Orleans where we had other 
communication problems. In New Orleans, there were three 
neighboring parishes were using different equipment on 
different frequencies. They could not communicate. We had 
National Guard in Mississippi communicating by human courier, 
not by radio frequencies, and we had helicopters up in the air 
looking at our own citizens on the roofs of their homes in New 
Orleans screaming and yelling for help but they could not talk 
and the helicopters with the boats and the water to try and 
find out who was rescued, who was not, and who needed help.
    We can and we must do better. The 9/11 Commission has 
recommended that Congress provide as quickly as possible the 
public radio spectrum of 700 megahertz so that these first 
responders can indeed do their job. We don't lose their lives. 
We don't lose American citizen's lives and we have better 
interoperability, better strength in these communications, and 
have this communication be able to have a deeper capability as 
well.
    I would just conclude, Mr. Chairman with a quote from one 
of my favorite founding fathers, John Adams.
    Mr. Upton. I was hoping it was Bob Davey.
    Mr. Roemer. Bob--no, it was not. It could be Charlie Weiss 
but he is not quite that old as the coach of the Fighting 
Irish. John Adams said this, he said, ``We cannot guarantee 
success, we can do something better, we can deserve it.'' 
Congress will never prevent every future terrorist attack. 
There is no way that they can. But working democrats and 
republicans to provide this radio spectrum to our first 
responders, we can deserve to give them, they deserve the best 
protection they possibly can get. Let us get this done as 
quickly as possible.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Timothy J. Roemer follows:]
Prepared Statement of Timothy J. Roemer, Director, Center for National 
                                 Policy
    Chairman Upton, Ranking Member Markey, Members of the Subcommittee 
on Telecommunications and the Internet:

 It is an honor to appear before this distinguished panel today to 
        discuss an issue of great importance to the security of our 
        nation.
 As we learned on 9/11, the new threats we face are not confined to 
        distant battlefields--they can materialize here, on the streets 
        of America.
 Now we are all on the front lines. If terrorists strike again on 
        American soil, it will be local emergency responders--police, 
        firefighters, and emergency medical technicians--who will 
        answer the call.
 I would like to talk about our investigation into events of 9/11, as 
        described by the 9/11 Commission in its report. Those events 
        dramatically illustrate the need for the reform we're here 
        today to discuss.
            poor communications--first responders at the wtc
    The response at the World Trade Center on September 11 was the 
largest single emergency response in our nation's history. Hundreds of 
firefighters, NYPD, and Port Authority Police converged on Lower 
Manhattan to participate in the rescue.
    What we learned in our investigation is that our first responders 
did not have the communications they needed or deserved.
    Firefighters had a particularly difficult time communicating with 
one another and with their commanders.
    As an FDNY chief in the North Tower told us: ``One of the most 
critical things in a major operation like this is to have information. 
Unfortunately, we didn't have a lot of information coming in.''
    The fire chiefs in the North Tower lobby didn't have any reports of 
what the NYPD helicopters overhead had seen.
    They didn't know the extent of the damage to the building over 
their heads.
    They didn't know the condition of the stairwells.
    They couldn't get updated information from FDNY dispatch, where 
dozens of calls were pouring in from civilians on the floors above 
them. That information would have been extremely valuable to them.
    Another chief in the North Tower lobby that day told us that people 
watching on TV had better information than he did.
    Without real-time information, the chiefs were at a huge 
disadvantage. They were like generals on a battlefield without 
reconnaissance, intelligence, or even a current map.
    Without real-time information, many fire department units were told 
simply to head up the stairs and report back via radio.
    As the units in the both towers climbed higher, their radio 
transmissions were disrupted by the many floors between them and their 
commanders. Communications with the chiefs in the lobby became weaker 
and more sporadic.
    Furthermore, the main radio channel for FDNY communications was not 
designed to handle the number of firefighters at the towers.
    So many people were trying to speak at once, the transmissions 
overlapped and often became indecipherable.
    Because that channel was so overwhelmed, it was impossible for the 
chiefs to track the location of the many FDNY units in the towers.
    At 9:59 that morning, the South Tower collapsed. A general 
evacuation order was issued for firefighters in the North Tower.
    Some did not receive the evacuation order over their radios, but 
were alerted in person by other units.
    Some did not receive the order at all.
    Some received the order, but did not evacuate with great urgency:
    Many disregarded the order to stay and search for civilians.
    Some waited for members of their teams to regroup before they 
headed down the stairs
    Some were tired, so they rested in stairwells before continuing 
down.
    Many firefighters in the North Tower didn't even know that the 
South Tower had collapsed. Even chiefs in the North Tower lobby didn't 
learn of the collapse of the South Tower for 30 minutes.
    Several firefighters who survived told us that they, and others who 
did not survive, would have evacuated more urgently if they had known 
of the South Tower's collapse.
    NYPD communications were generally better, because most NYPD 
officers were not climbing the Towers, but were outside evacuating 
civilians and controlling crowds.
    Meanwhile, most Port Authority Police had no way to hear any 
commands issued over the World Trade Center command frequency.
                  poor communications between agencies
    As we learned in our investigation, the quality of communications 
varied from agency to agency. But radio communications and operational 
coordination between agencies was uniformly a problem, at the World 
Trade Center and the Pentagon.
    For example:
    Fire chiefs in the lobbies of the towers got no information from 
the police helicopters circling above. Reports that called into 
question the condition of the North Tower, at 10:08, 10:15, and 10:221 
a.m., would have been extremely valuable information for the FDNY 
chiefs in the North Lobby.
    Many redundant searches were conducted that morning. For example, 
firefighters wasted valuable time searching the PATH transit station 
under the Trade Center, not knowing that the area had already been 
cleared by Port Authority officers.
    Even at the Pentagon, where the emergency response effort was a 
comparative success, the Arlington Country After-Action Report 
concluded that ``almost all aspects of communications [were] 
problematic.'' The report also notes that ``radio channels were 
initially oversaturated.''
                          what we recommended
    The courage and determination of the first responders saved 
thousands of lives that morning.
    They risked their lives, and many gave their lives, to rescue 
people they had never met.
    They performed far beyond what we would ever have any right to 
expect. Had they received timely information that morning, many of 
those brave firefighters and police officers could have saved more 
lives, and their own lives.
    As we said in our report, ``The first responders of today live in a 
world transformed by the attacks on 9/11. Because no one believes that 
every conceivable form of attack can be prevented, civilians and first 
responders will again find themselves on the front lines.''
    To help those on the front lines, the 9/11 Commission made a 
common-sense recommendation: Congress should reallocate broadcast 
spectrum for public safety purposes.
                               conclusion
    Hurricane Katrina reminds us that this problem has not been solved. 
Poor communications delayed emergency response. Poor communications 
again cost lives.
    New Orleans and three neighboring parishes were using different 
equipment and different frequencies--they couldn't talk to each 
another.
    Helicopter crews couldn't talk to rescuers in boats.
    National Guard commanders in Mississippi had to use human couriers 
to carry messages.
    After Katrina, communications for first responders must become an 
urgent priority for this Congress. We should not have to learn these 
lessons a third time.
    The transition to Digital TV offers us the perfect opportunity to 
fulfill this recommendation. The analog TV spectrum is ideal for public 
safety use. Emergency communications on these frequencies can easily 
penetrate walls, and travel great distances.
    Broadcasters have dropped their opposition to a hard deadline for 
returning the analog TV spectrum. This is a step forward.Now the ball 
is in your court. Congress should set the earliest possible date for 
the transfer of 700 MHz spectrum to America's first responders. We 
cannot afford another four year delay--we will surely be hit again, and 
if we have not fixed communications problems lives will be lost.
    We need a date certain for the turnover of the spectrum, so that 
all involved can prepare:
    Manufacturers can produce new public safety communications 
technologies to take advantage of the new spectrum, and
    Public safety agencies can acquire these capabilities.
    We know that there are other contentious issues involved with the 
Digital TV transition. They should not stop a bill to reallocate the 
spectrum for public safety purposes. Our first responders must come 
first.
    Chairman Upton and Ranking Member Markey, Chairman Barton and 
Ranking Member Dingell of the full Committee, Representative Pickering, 
Representative Wynn, and numerous other members of the Committee on 
Energy and Commerce should be commended for their leadership on this 
important national security issue.
    Other members of the House and Senate have also been strongly 
supportive of this reform. We thank them for their efforts.
    We look forward to working with you, and with your counterparts in 
the Senate, to enact this common-sense 9/11 Commission recommendation 
into law this year--for the safety of our first responders, and the 
communities they protect. Thank you, and I would be pleased to respond 
to your questions.

    Mr. Upton. Thank you.
    Lieutenant Colonel Miller, welcome.

             STATEMENT OF LT. COL. THOMAS J. MILLER

    Mr. Miller. Thank you, Mr. Chairman and Members of the 
Committee.
    I am Lieutenant Colonel Tom Miller, Deputy Director of the 
Michigan State Police. Thank you for the opportunity to testify 
regarding the urgent need to promote interoperable 
communications between public safety first responders.
    Our first responder capabilities have been tested recently 
in this country from 9/11 to the most recent hurricanes in the 
Gulf Coast. In Michigan, our tests have included a flooding 
disaster in the upper peninsula, civil unrest in Benton Harbor, 
the blackout of 2003, and most recently mobilization of our 
forces to assist the communities along the Gulf coast with the 
recent hurricanes. We have fortunately in our State experienced 
the unexpected and responded well. Still in Michigan, like 
every other State, we still face challenges. My testimony will 
describe the interoperability and communication challenges 
facing the Michigan State Police, as well as all of our State's 
75,000 first responders.
    In my 24 years of law enforcement experience, I have come 
to learn firsthand that effective, coordinated, and accessible 
communications between first responders is critical to the 
public safety mission. Michigan has the largest geographically 
based public safety communications system in North America. 
Since 1995, Michigan taxpayers have invested $211 million in 
the statewide communications system. The State is currently 
investing another $19 million in 2006 to upgrade this operating 
system to provide enhanced data capability, as well as 
additional microwave backbone capability in Southeast Michigan. 
Governor Granholm has also set an ambitious goal that by 2008, 
our first responders in Michigan will have fully interoperable 
communications. The State of Michigan has been recognized by 
industry and user groups as visionary as its approach to 
interoperability. But even with this success, Michigan still 
faces critical funding and other challenges in its quest to 
achieve the required level of public safety communications 
interoperability.
    There are four interrelated challenges facing public safety 
agencies in Michigan, as well as public safety agencies across 
the country. I would like to highlight some of those four areas 
for you. First, limited and fragmented funding. Sufficient 
funding is not available to replace and update equipment. 
Different communities at different levels of Government have 
various funding schemes and budget priorities. Further, Federal 
guidance on local and regional collaboration, as well as, 
funding assistance would surely help.
    Two, limited and fragmented radio spectrum. Public safety 
agencies compete with each other and with commercial wireless 
carriers for scarce radio spectrum creating problems among 
jurisdictions as they scramble to acquire as many frequencies 
as they can to meet their own needs. In Michigan today, with 
the state-of-the-art system that we have, we have significant 
commercial wireless interference that impacts the safety of the 
first responders utilizing that system.
    Three, limited fragmented planning coupled with lack of 
coordination. Mr. Chairman, you mentioned that in your opening 
remarks. The foundation of any effort to achieve 
interoperability is to create a coherent and cooperatively 
developed and shared plan. Currently, public safety agencies in 
Michigan are working out a plan for interoperability, a 
comprehensive plan for interoperability in our State. That is 
definitely a foundation and requirement to have success in this 
area.
    Four, incompatible and aging communications equipment. 
Aging communications equipment is a key challenge because they 
are either obsolete, will become obsolete, or aging at 
different stages and different jurisdictions which makes 
coordination and collaboration difficult. Federal assistance is 
needed as many local Governments do not have the resources to 
modernize their systems.
    Public safety access to the 700 megahertz spectrum is 
critical to the safety of our citizens and to public safety 
first responders as a whole. In 1997, Congress and the Federal 
Communications Commission allocated 2400 megahertz of spectrum 
to public safety in the 700 megahertz band for additional voice 
and data capacity but there is still a small number of TV 
stations that use this dedicated spectrum, preventing public 
safety access in most major metropolitan areas. Congress must 
address the loophole in the 1997 legislation that failed to set 
a firm date when TV stations must vacate the spectrum. There 
must also be an equitable solution to assure that no citizens 
are left without access to public information during a crisis.
    In Michigan, we are taking short-term initiatives or 
initiating short-term strategies to develop and address our 
interoperability issues. I would like to provide this Committee 
with a couple brief examples. First off, Michigan is pursuing 
implementation of TACNET, a mobile digital cross band repeater 
system for integrated directly into patrol car electronics. 
This system is integrated into the car, patching together as 
many as five disparate frequencies with the touch of a screen. 
The State has also deployed and interfaced different radio 
systems in 20 counties in the State allowing interoperability. 
Michigan and Ohio are piloting a project involving dual 
programming of State Michigan radios and Ohio radios. Michigan 
has developed a microwave link between the State of Michigan's 
system and the State of Wisconsin for the installation of a 
telephone hotline between our Upper Peninsula dispatch center 
and the Wisconsin State Police. Talks are currently underway 
with the State of Indiana for an interoperability solution 
between Indiana's system and the State of Michigan's system.
    Communications interoperability for first responders is an 
important life safety challenge. The Michigan State Police 
commends this Committee's leadership in addressing this urgent 
issue. Michigan has been committed to enhancing public safety 
interoperability prior to the heightened awareness placed on 
this issue as a result of the terrorist attacks on September 
11. Additional funding and spectrum are key to Michigan and 
other States reaching our goal of public safety 
interoperability. We do urge Congress to assign a date as soon 
as possible for the spectrum transition of the 700 megahertz 
band which can be made available for public safety use.
    I thank you for the opportunity to testify and will be 
pleased to answer any questions you may have.
    [The prepared statement of Lt. Col. Thomas J. Miller 
follows:]
   Prepared Statement of Lt. Col. Thomas J. Miller, Deputy Director, 
                         Michigan State Police
    Mr. Chairman and Members of the Committee, I am Lieutenant Colonel 
Thomas J. Miller, Deputy Director of the Michigan State Police. Thank 
you for the opportunity to testify about the urgent need to promote 
interoperable communications among and between public safety first 
responders. On behalf of the Michigan State Police and my colleagues in 
law enforcement and other first responder agencies across the state, we 
appreciate the Committee's leadership in addressing this vital issue.
    Our first responder capabilities have been tested in recent years 
as a country--from 9/11 terrorist attacks to the most recent 
hurricanes. In Michigan our ``tests'' have included a flood in the 
Upper Peninsula, civil unrest in Benton Harbor, the blackout of 2003, 
and most recently mobilizing our Emergency Operations Center in 
response to Katrina. We have, fortunately, experienced the unexpected 
and responded well. Still, Michigan, like every other state, faces 
challenges.
    My testimony will describe the interoperability and communications 
challenges facing the Michigan State Police (MSP) and all of our 
state's 75,000 first responders. In my 24 years of law enforcement 
experience, I have come to learn first hand that effective, 
coordinated, and accessible communications between first responders is 
critical to the public safety mission.
    Michigan has the largest geographically-based public safety 
communication system in North America. Our Michigan Public Safety 
Communications System (MPSCS) is a Motorola 800 MHz trunked radio 
system and is Association of Public Safety Communications Officials 
(APCO) 25 compliant, providing statewide coverage for public safety 
users. We have studied, conceived, and built a state of the art digital 
standards-based interoperable radio system with significant audio 
capacity and potentially enormous public safety transmission capacity. 
Since 1995, Michigan taxpayers have invested $221,000,000 in the 
construction of this statewide system. The state is currently investing 
another $19,000,000 in 2006 to upgrade our operating system statewide 
and to enhance our microwave backbone capacity in Southeast Michigan to 
accommodate the growth in local users. Governor Granholm has also set 
an ambitious goal--that by 2008 all first responders will have fully 
interoperable communications. She has also created an advisory board 
charged with developing and implementing a plan to achieve this goal.
    Michigan has been recognized by the Public Safety Wireless Network 
(PSWN) and other knowledgeable industry and user groups as visionary in 
its approach to interoperability. No other state in the union boasts 
such a system, but even with this success, Michigan still faces 
critical funding and other challenges in its quest to achieve the 
required level of public safety communications interoperability.
               the interoperability challenge in michigan
    On August 17, 1987, Northwest Airlines Flight 255 crashed a mile 
from Detroit Metropolitan Airport killing 154 of the 155 people on 
board. Public Safety personnel responding to this disaster site could 
not communicate effectively with each other, which hampered rescue 
efforts. Today, 18 years after this incident, our communications 
capabilities have improved dramatically, however, public safety 
agencies in our state still lack the necessary equipment to ensure the 
required level of interoperability and thus a coordinated response.
    There are four interrelated challenges facing public safety 
agencies in Michigan pursuing communications interoperability:

1. Limited and fragmented funding--Funding is not available to replace 
        and update equipment; different communities at different levels 
        of government have various funding schemes and budget 
        priorities. Basically, there are many interests competing for 
        scarce dollars. Stove pipe solutions have tended to be the 
        norm, which has contributed significantly to the 
        interoperability challenges public safety faces in this country 
        today. We do believe that the movement toward the requirement 
        for regionally based solutions to qualify for federal homeland 
        security funds will have a positive impact on communications 
        interoperability. Further federal guidance on jurisdictions 
        working together as well as funding assistance would definitely 
        help move along the goal of interoperability in our country.
2. Limited and fragmented radio spectrum--Public safety radio spectrum 
        is a scarce and valuable resource. Exacerbating the situation 
        is that public safety radio spectrum is not contiguous and is 
        scattered throughout the length of the frequency spectrum. 
        Public safety frequencies in Michigan also face geographic 
        limitations due to our shared border with Canada and other 
        states. Additionally, public safety frequencies are under 
        assault from commercial wireless interference. Public safety 
        agencies also compete with each other for scarce radio 
        spectrum, creating significant problems among jurisdictions as 
        they scramble to acquire as many frequencies as they can to 
        meet their own needs. In Michigan, this has created challenges 
        in our efforts to add larger jurisdictions such as the City of 
        Detroit to the state's communication system. The lack of 
        available frequencies in the 800 MHz band in Southeast Michigan 
        has made it difficult to ensure that this region would have the 
        adequate spectrum resources available for the number of users 
        in that geographic area of the state. The bottom line is this 
        impacts public safety.
3. Limited and fragmented planning coupled with lack of coordination--
        Achieving interoperability only works when there is 
        coordination and cooperation. Indeed, the foundation of any 
        effort to achieve interoperability is to create a coherent and 
        cooperatively developed and shared plan. Currently, public 
        safety agencies are racing to different solutions that 
        exacerbate Michigan's ability, both regionally and on a 
        statewide basis, to meet the interoperability challenge. This 
        is not unique to Michigan, but rather typical across the 
        nation. Effectively partnering with local responders and 
        jurisdictions and breaking down barriers to interoperability is 
        a priority for our state, and must be a priority for our 
        country. Governor Granholm has called for interoperable 
        communications among first responders by 2008 and created the 
        MPSCS Advisory Board this year to develop and implement 
        Michigan's interoperable communications plan and to advise on 
        best practices for implementing interoperability; future 
        trends; and coordination with local, regional, and statewide 
        mutual aid agreements, 9-1-1 dispatch operations, and incident 
        command systems. Again, further focus from the federal 
        government on coordination and shared plans in states and among 
        regions is crucial.
4. Incompatible and aging communications equipment--One key challenge 
        with achieving interoperability in Michigan is the age of 
        communications equipment. Many jurisdictions have equipment 
        that is at least 20 years old. Clearly, these instruments are 
        either obsolete or will become obsolete in the near term 
        because manufacturers will no longer support these systems. 
        Additionally, equipment used by various jurisdictions is aging 
        at different stages in their lifecycle, making it difficult to 
        coordinate and collaborate among jurisdictions to acquire 
        common radio infrastructure and equipment. The result is 
        agencies are communicating across different frequencies with 
        different types of radios, analog and digital, using 
        proprietary based systems that tend to inhibit communications 
        interoperability. We need more federal assistance to address 
        this problem, as many local governments just do not have the 
        resources to modernize their systems.
        the need for first responder access to 700 mhz spectrum
    Although coordination and planning for interoperability is 
essential, public safety access to the 700 MHz spectrum, both in 
Michigan and across the county, is critical for the safety of our 
citizens and first responders. This issue has become apparent in public 
safety responses to major incidents that have occurred since the 
terrorist attacks on September 11, 2001. The 700 MHz band is the only 
dedicated spectrum allocation where public safety can further develop 
interoperable voice communications and implement advanced mobile wide 
area systems that bring high speed access to databases, the internet, 
imaging and video to first responders out in the field. Congress and 
the Federal Communications Commission (FCC) allocated 24 MHz of 
spectrum to public safety in the 700 MHz band in 1997 for additional 
voice/data capacity, but there are still a small number of TV stations 
in that spectrum that currently prevent public safety access in most of 
the major metro areas. Congress must address the loophole in the 1997 
legislation that failed to set a firm date when TV stations must vacate 
this spectrum. Congress needs to enact legislation that mandates such a 
date without exception. Public safety desperately needs the 700 MHz 
spectrum today.
    While addressing this most critical public safety responder issue, 
we must not lose sight of the potential impact on citizens who may be 
dependent on these 700 MHz analog broadcasts for their public 
information during time of emergency. We urge Congress to fashion an 
equitable solution to assure that no citizens are left without access 
to public information during a crisis.
                 near-term interoperability initiatives
    In addition to our statewide planning for interoperability, 
Michigan is pursuing several initiatives to address our short term 
interoperability needs to enhance public safety first response.
    1. TACNET--The Michigan State Police is pursuing implementation of 
a mobile digital-cross band radio repeater system integrated directly 
into our patrol car electronics. While there are a number of similar 
technologies, this particular application, offers several unique 
aspects which have appealed to our officers in pilot tests. Because 
TACNET is fully integrated into a patrol car's electronic system, 
patching together as many as five disparate frequency bands is 
accomplished easily on a touch-screen mounted on the dash. Any patrol 
officer can do this. While preplanning the frequencies to be 
coordinated is important, a major advantage of this approach is that 
we--and other first responders--do not need to acquire new radios or 
equipment. TACNET simply ``controls'' existing radio equipment, mounted 
in the trunk, in a seamless and effective way.
    2. The Michigan State Police has been involved in interoperability 
solutions between the MPSCS and local public safety communication 
systems since 2000 when the department deployed the first 
interoperability ``patch'' with Clinton County, Michigan. Since then, 
Michigan has deployed patch radios interfacing local radio systems with 
the MPSCS in 20 counties across Michigan.
    3. The Michigan MPSCS and the Ohio MARCS system are involved in a 
pilot project involving dual programming of MPSCS radios and Ohio MARCS 
radios for interoperability with the Ohio Highway Patrol, Ohio National 
Guard, and the Ohio Department of National Resources. In addition, Ohio 
is installing an MPSCS radio connected to a Raytheon ACU1000 pointed at 
the Michigan system and interfaced with the Ohio system which will 
allow communications between Michigan dispatch centers and Michigan 
units operating in Ohio. Ohio will have the same communications 
capability with units operating in Michigan. Joint exercises will be 
conducted with appropriate agencies when this solution is operational.
    4. DOJ Cities Project/High Risk Metropolitan Areas--Michigan is 
finalizing a communications interoperability plan between federal, 
state, and local authorities in the Detroit Metropolitan area utilizing 
the MPSCS as the backbone for communications interoperability between 
law enforcement agencies.This plan also involves the installation of 
repeaters in Detroit to facilitate communications with other 800 MHZ 
radio systems (such as Oakland County) who may need to work in Detroit 
during a major incident.
    5. Michigan has developed a microwave link between the MPSCS and 
the State of Wisconsin for the installation of a telephone ``hot line'' 
between the Michigan State Police Negaunee Regional Dispatch Center and 
Wisconsin State Police Dispatch.
    6. Talks are underway with the State of Indiana for an 
interoperability solution between Indiana's 800 MHZ Motorola trunked 
system, which is under construction, and the MPSCS.
                               conclusion
    Communications interoperability for first responders is an 
important life safety challenge. The Michigan State Police commends the 
Committee's leadership in addressing this urgent issue. Michigan has 
been committed to enhancing public safety interoperability prior to the 
heightened awareness placed on this issue as a result of the terrorist 
attacks on September 11, 2001. Additional funding and spectrum are key 
to Michigan and other states reaching our goal of public safety 
interoperability. And we do urge Congress to assign a date--as soon as 
possible--for the spectrum transition so that the 700 MHz bandwidth can 
be available for public safety use.
    Thank you for the opportunity to testify. I would be pleased to 
answer any questions you may have.

    Mr. Upton. Thank you.
    Mr. Botterell?

                   STATEMENT OF ART BOTTERELL

    Mr. Botterell. Good afternoon, Mr. Chairman and 
distinguished Members of the Committee.
    My name is Art Botterell and I am an independent consultant 
on public warning and emergency information systems. In my 
career, I have served at the municipal, county, State, and 
Federal levels of public safety and emergency management, and 
as a consultant to agencies in the U.S. and abroad. I have had 
the opportunity to experience first hand a broad array of 
emergency communications technologies and practices and it is a 
privilege to share a few observations with you here today.
    Having been through these review exercises after just about 
every major disaster of the past two decades, I will suggest 
that there are some things that we as a Nation cannot and need 
not afford anymore. First off, we can no longer afford to build 
separate infrastructure for different modes of communication. 
The question is not voice versus data or wired versus wireless 
or satellite versus terrestrial. The question is how to 
leverage digital convergence to get the most capability, 
reliability, and reach for all our modes of emergency 
communication.
    Second, we can no longer afford to treat the radio spectrum 
as though it were real estate. We have much more efficient ways 
of organizing, identifying and prioritizing our communications 
than by the fixed long-term allocation of blocks of spectrum. 
The sooner we begin the transition to dynamic spectrum 
management, the sooner we will realize its benefits.
    Third, we can no longer afford to rely on vendor driven 
design of our emergency communications infrastructure. 
Businesses are responsible for maximizing shareholder value not 
for protecting the public welfare. We need independent sources 
of information and planning for our future emergency 
infrastructure lest we continue to get updated versions of the 
same old thing.
    And finally, we can no longer afford an intermittent series 
of post disaster quick fix programs for emergency 
communications. The development of telecommunications is a 
continual process of incremental improvement. It requires a 
consistent program of implementation as well.
    So how might such a program be established? First, we have 
to acknowledge that the problem is not just technical 
facilities, it is also procedures, human resources, and 
organizational constructs. Then we need to draw three lessons 
from the Internet. The first is the end-to-end principle which 
holds that networks should be as simple and transparent as 
possible so that functions and features can be negotiated and 
improved in an unfettered market of innovative products and 
services. The second is the power of judicious standards. The 
Internet has no architecture, instead it provides a foundation 
of simple, elegant, enabling standards upon which or which an 
agile ecology of innovation has grown continually, 
incrementally, and exponentially. And third, improved standards 
processes. The process used to create the Internet standards 
has had a profound influence on other standards organizations 
and the results have been better, more robust standards 
developed and deployed faster than by the more traditional 
standards process.
    And then we need to learn how to harness the energies of 
the academic, non-profit, and open source communities. It has 
been said that free is the one price Government does not know 
how to pay. I have watched several generations of volunteers, 
amateur radio operators and many others develop and deploy 
innovative useful communication technologies only to be turned 
away by the agencies that might benefit from them because they 
only knew how to adopt new technologies by means of cumbersome, 
commercial procurement processes.
    The highly successful common alerting protocol standard is 
one of the few such non-commercial initiatives that have 
succeeded in breaking through this bureaucratic glass ceiling. 
CAP as it is called, offers an example for harnessing the 
creative energy of the non-profit and open source communities 
for the public benefit.
    The Federal Government can play a vital role in this 
process. By encouraging procurements based on open, non-
proprietary standards through grant guidance to State and local 
agencies and to its own acquisitions, by expanding independent 
research and education of operating and procurement officers by 
academics and non-profit organizations so that those officials 
are no longer solely dependent on vendors for their information 
about communications and information technology. By providing 
micro grants, counseling, recognition, and other support for 
innovators from the volunteer academic, non-commercial, and 
open source sectors to help them bring their good ideas into 
public service.
    Most importantly, the Federal Government can commit to 
increasing the robustness, reliability, and adaptability of our 
national communications infrastructure as a continual process 
of improvement with clear year-by-year goals and measurable 
usable deliverables in order to apply these lessons that 
disasters teach us time and again.
    I will be pleased to respond to your questions.
    [The prepared statement of Art Botterell follows:]
  Prepared Statement of Art Botterell, Emergency Information Systems 
                               Consultant
    Good afternoon, Mr. Chairman and distinguished members of the 
Committee. My name is Art Botterell and I am an independent consultant 
on public warning and emergency information systems.
    In my career in emergency communications I've served in public 
safety and government at the municipal, county, state and federal 
levels, and as a consultant and advisor in Asia and Europe. I've also 
been involved in international standards development for emergency data 
exchange, and in advocacy for improvements in public warning and 
emergency public information.
    It's been my good fortune to accumulate first-hand experience with 
a wide array of emergency communications technologies and practices, 
and it's a privilege to share a few of the patterns I've detected with 
you here today.
             introduction: the four layers of communication
    Obviously the number one problem identified after 9/11 and again 
after the Katrina response was ``communications.'' But what does that 
really mean?
    For many years I've used a four-tiered ``layer cake'' model to help 
tease apart the various issues that get lumped under the broad rubric 
of ``communication problems'' or, more recently, ``interoperability'':

Organization--Structures, goals, objectives and metricsHuman
Factors--Capabilities, training, stresses, personal attitudes
Procedures--Patterns of interaction and problem solving
Technologies--All the hardware, software and networks
    (There's actually a fifth layer on top--Culture--which in most 
tactical contexts is a constant, but which definitely comes into play 
in cross-cultural and international applications.)
    Over time I noticed two things about this formulation: The first 
was that problems, or at least the perceptions of problems, tend to 
propagate downward through the stack . . . so that a lot of non-
technical issues wind up being framed as technology failures. The 
political or bureaucratic benefits of this depersonalized reframing are 
fairly clear, as is its attractiveness to vendors and other technology 
proponents, but it leads to a lot of what might be called ``Groundhog 
Day'' experiences, as succeeding generations of technology are blamed 
for the same breakdowns.
    In two decades of emergency response field operations, I can 
truthfully say that I cannot recall any occasion when I felt the 
available technology was being fully utilized. In almost every case, I 
found it possible to substantially enhance the performance of 
communications by interventions at the procedural, human-factors or 
organizational levels.
    The other interesting thing, which I came to appreciate more 
slowly, was that change tends to propagate upward through the stack. 
New technologies require and enable new behaviors, requiring new skills 
and triggering new stresses, and creating new forces to which 
organizations ultimately adapt themselves. This is a continual 
evolutionary process, and that has important implications to which I'll 
return in just a moment.
    For now, the first insight is that a lot of the interoperability 
and data-sharing challenges we face aren't technical problems, and just 
painting over them with a fresh layer of technology won't necessarily 
solve them.
                      prices we don't need to pay
    A couple of truisms here: Nothing is so permanent as a temporary 
solution, and nothing takes longer than a quick fix. Having been 
through these review exercises after just about every major disaster of 
the past two decades, I'll suggest that there are some things that we 
as a nation cannot--and need not--afford anymore. I'll suggest answers 
in a moment, but allow me a moment to review the problems first.
    First, we can no longer afford to build separate infrastructure for 
different modes of communications. The question isn't radio versus 
computers, or voice versus data, or wired versus wireless. The question 
is how we can complete the process of digital convergence to get the 
most capability and reliability for all modes of emergency 
communication.
    Second, we can no longer afford to treat the radio spectrum as, 
effectively, private property. We have much more efficient ways of 
separating, securing and identifying communications channels than by 
the fixed allocation of blocks of spectrum to either public or private 
licensees or services. Certainly this transition from the traditional 
approach will take time, and it will have financial implications, but 
the sooner we start the sooner we'll realize the benefits of dynamic 
spectrum management.
    Third, we can no longer afford to rely on vendor-driven design of 
our emergency communications infrastructure. I make no criticism here 
of business doing business. The problem arises when government fails in 
its complementary role as steward of public resources and champion for 
the public interest, thus leaving the competitive forces of the 
marketplace unchallenged and unconstrained by any higher values. The 
phenomenon of government program managers whose mastery of technologies 
is limited to what their contactors tell them is, alas, a commonplace 
of federal and, increasingly, of state and local government. Businesses 
are responsible for maximizing shareholder value, not for maximizing 
the general public welfare. We need independent sources of information 
and planning for our future emergency infrastructure, else we'll 
continue to get updated versions of the same old thing.
    And finally, we can no longer afford an intermittent series of 
post-disaster quick-fix programs for emergency communications. 
Emergency managers are sadly aware of the ``window of opportunity'' for 
funding and legislative interest that opens, all too briefly, after 
every major disaster. It forces them to undertake impulsive, piecemeal 
procurements of whatever can be delivered quickly, because they know if 
they don't move quickly they'll soon be back near the bottom of the 
spending priorities list. The development of telecommunications is, as 
I've mentioned, a continual process of incremental improvement. It 
requires a consistent program of implementation as well.
    So how might such a program be established?
                             how to fix it
    The first task is to frame the problem properly. The problem isn't 
just technical facilities; it's also procedures, human resources and 
organizational structures. We need to involve social scientists, 
economists and human factors engineers as well as electrical engineers 
and computer scientists. The goal isn't increased communication or 
enhanced information sharing; those are means, not ends. The goal is to 
increase the resilience and robustness of our society and our economy, 
even as increasing efficiencies squeeze out the slack resources we used 
to count on to buffer us against unexpected events.
    The second task is to learn three lessons from the Internet:

 The ``end-to-end principle''--Simply put, this holds that the network 
        should be as simple and transparent as possible, so 
        applications and features can be negotiated and improved over 
        time by the end users. (One implication of this is a 
        distinction between the ``user interface,'' e.g., a handheld 
        radio, and the underlying network, which might be of various 
        types without the user noticing any difference.)
 The power of judicious standards--The Internet has no architecture. 
        Instead, the Internet is the spontaneous expression of a fairly 
        simple set of enabling technical interface standards, upon 
        which a rich and agile ecology of commercial and non-commercial 
        innovation have been built, continually and incrementally. 
        Likewise, the challenge for designing emergency communications 
        capabilities is not to develop a global top-down architecture, 
        but rather to identify and promote the key enabling standards 
        that will allow technologies to interact, cooperate, compete 
        and improve for the benefit of investors and the general public 
        alike.
 The revolution in standards development--One quiet impact of the 
        Internet has been on the processes by which technical standards 
        are developed. The process used by the Internet Engineering 
        Task Force stresses open participation, open non-proprietary 
        interfaces, and a requirement that standards must actually have 
        been implemented and tested by multiple users prior to 
        formalization. This open, iterative approach to standards 
        development has spread to other standards organizations, and 
        the result has been better, more robust standards being brought 
        to use faster than by more traditional industry standards 
        processes.
    The third task is to learn how to harness the energies of the 
academic, volunteer and Open Source communities. It's been said that 
``Free is the one price government doesn't know how to pay.'' I've 
watched several generations of communications volunteers develop and 
demonstrate innovative and useful communications technologies, only to 
be frustrated by government bureaucracies that only knew how to adopt 
technologies by means of lengthy and complicated commercial procurement 
processes.
    The highly successful open standard called the Common Alerting 
Protocol is one of the few such non-commercial initiatives that have 
broken through this bureaucratic glass ceiling. ``CAP,'' as it's 
called, offers a pattern for harnessing the creative energy of the 
academic and open-source communities for the public good. Of course, 
success has a thousand fathers, and so I hope the process that led to 
the creation of CAP will be studied carefully before its product is 
fully absorbed into common process.
                     the federal government's role
    The federal government can play a key role in this process. The 
federal government can stimulate the development and adoption of open, 
non-proprietary technical standards by encouraging procurements 
requiring such standards through its grants to state and local agencies 
and its own procurements.
    The federal government can also support independent research and 
educational outreach though academic and non-profit organizations, so 
that officials at all levels of government are no longer so dependent 
on vendors for information about communications and information 
technology options and trends.
    And the federal government can provide micro-grants, counseling, 
recognition and other support for volunteer, academic, non-commercial 
and open-source innovators--through the Small Business Administration, 
perhaps--to help them push their good ideas across the gap into broader 
use.
    Most importantly, the federal government can expand its leadership 
role in approaching the robustness, reliability and adaptability of our 
national communications infrastructure as a continual process of 
improvement, with discrete year-by-year goals and objectives, and in 
tearing down some of the traditional barriers--between disciplines and 
agencies, between voice and data, between emergencies and day-to-day--
that have kept us from applying the lessons that disasters teach us 
time and again.
    I would be pleased to respond to your questions.

    Mr. Upton. Thank you.
    Mr. Trujillo?

                   STATEMENT OF TONY TRUJILLO

    Mr. Trujillo. Mr. Chairman, members of the committee, on 
behalf of the Satellite Industry Association, I would like to 
thank you for holding this hearing today. I would also like to 
express my thanks to Chairman Martin, Commissioner Abernathy, 
Adelstein, and Copps, and the staff of the FCC. Their efforts 
greatly assisted America's satellite companies in restoring 
telecommunication services to the Gulf Coast Region.
    Satellite communications played a critical role. When the 
land based telephone and broadcast networks went down, 
satellites remained on the job. Satellites provided redundancy, 
ubiquity, and resiliency that were unavailable from land-based 
networks. Satellites first warned of the impending danger. 
Afterwards, satellites connected emergency personnel and other 
first responders. Satellites reunited families. Satellites 
reconnected communities. And satellites enabled the world to 
witness the devastation of these disasters and also the many 
acts of heroism.
    Although the performance of satellite systems was 
impressive, their use was often limited by lack of preparation. 
Had satellite systems been more effectively integrated into our 
emergency communications network, many of the communications 
problems that occurred in Alabama, Louisiana, Mississippi, and 
Texas recently and New York City after 9/11 would have been 
substantially mitigated. As Chairman Martin recently stated, if 
we learned anything from Hurricane Katrina, it is that we 
cannot rely solely on terrestrial communications. And if I 
leave you with only one thought today, that satellites can 
guarantee redundancy. And as we learned in New Orleans, the 
importance of redundancy cannot be overemphasized.
    The satellite industry was not as affected as land based 
networks were by the hurricanes. While the outages on land 
based networks surged in the days following the hurricanes, 
satellite networks were also experiencing a corresponding surge 
in demand for capacity. Even during Hurricane Katrina, those 
with mobile satellite phones along the Gulf Coast found that 
their phones had a dial tone when other networks were silent. 
FEMA, The National Guard, and Red Cross, utility workers, 
people in search of loved ones and even local phone companies 
were among those using over 20,000 mobile satellite phones and 
terminals provided by Globalstar, Iridium, Mobile Satellite 
Ventures, and Inmarsat.
    Likewise, the fixed satellite service providers also 
stepped in quickly to provide emergency voice, video, and data 
communications. For example, Hughes Network Systems immediately 
reestablished Wal-Mart's satellite communications network 
creating one of the life support systems for local communities 
starting to rebuild. Intelsat reconfigured capacity and donated 
service to help cellular providers reestablish their networks 
and to provide capacity for the Department of Homeland Security 
and FEMA. PanAmSat donated capacity to the Red Cross to provide 
communications to about 40 of their sites and especially 
equipped Red Cross mobile units. SES AMERICOM and AMERICOM 
Government Services donated capacity to enable high speed ship 
to shore communications for the USS Iwo Jima. The ship carried 
disaster relief teams within amphibious construction equipment 
and medical personnel and supplies to the New Orleans area 
following the flooding.
    The satellite broadcast community also played a role with 
both XM Satellite Radio and Direct TV providing FEMA and the 
Red Cross with a 24/7 dedicated broadcast station for 
disseminating hurricane related information. XM's emergency 
alert channel tracked the storm, reported on evacuation routes, 
and now provides updates about storm clean up, road closures, 
school closings, and other vital information.
    America's satellite industry can do more to aid disaster 
relief and recovery. We offer the following four 
recommendations. No. 1, satellites should be regarded as an 
essential component in all future critical telecom network 
planning. No. 2, satellite systems must be pre-deployed to a 
cadre of trained professionals. No. 3, satellite personnel must 
be credentialed as first responders. And No. 4, satellite 
spectrum must be preserved and protected.
    With these initiatives, our satellite industry will be even 
better prepared to meet America's disaster relief and recovery 
needs in the future.
    Thank you.
    [The prepared statement of Tony Trujillo follows:]
   Prepared Statement of Tony Trujillo, Chairman, Satellite Industry 
                              Association
                                opening
    Mr. Chairman, members of the Committee, on behalf of the Satellite 
Industry Association, I would like to thank you for holding this 
hearing today on public safety communications and the lessons learned 
from 9/11 and Hurricanes Katrina and Rita. I would also like to express 
my thanks to Chairman Martin, Commissioners Copps, Abernathy, and 
Adelstein and the staff of the Federal Communications Commission. Their 
tireless efforts have greatly assisted us in supplying critical 
telecommunication resources to the Gulf Coast Region.
    Satellite communications played a critical role during the response 
to these manmade and natural disasters. When the telephone and 
broadcast networks went down, satellites remained on the job. 
Satellites connected emergency personnel and other first responders. 
Satellites reunited families. Satellites reconnected communities. And, 
satellites enabled the world to witness the devastation of these 
disasters and also the many acts of heroism.
    Although the performance of satellite systems was impressive, their 
use has often been limited by a lack of preparation. Had satellite 
systems been more effectively integrated into our emergency 
communications network, many of the communications problems that 
occurred in Alabama, Louisiana, and Mississippi recently, and New York 
City after 9/11 would have been substantially mitigated. As FCC 
Chairman Martin recently stated, ``if we learned anything from 
Hurricane Katrina, it is that we cannot rely solely on terrestrial 
communications''.
    Today, I will highlight;

(1) The diversity and versatility of the commercial satellite systems 
        operating today;
(2) The role that these satellite systems played in recent manmade and 
        natural disasters; and
(3) The importance of better integrating satellite systems into future 
        national security and emergency preparedness communications.
    As we discuss how Katrina affected Alabama, Louisiana, and 
Mississippi, it's important we apply the lessons we learned to improve 
disaster relief and recovery telecommunications in the future.
    As of September 21st, nearly three weeks after Hurricane Katrina 
inflicted its damage on the terrestrial communications network in the 
New Orleans area, only 60 percent of the cell phone networks were 
working properly, 70 percent of the broadcast stations were 
functioning, and roughly two million calls were still failing. On the 
other hand, and in stark contrast to the failures in the terrestrial 
networks, fixed and mobile satellite services were nearly 100 percent 
operational on September 21st, just as they were on Aug. 28th, Aug. 
29th, Aug. 30th, Aug. 31st, and the hours and days immediately 
following Katrina.
    There have been calls for a new communications network for first 
responders and funding for new technologies and networks that can 
withstand such disasters. Satellites can and should be an integral part 
of these new networks. The required capacity is available today from 
commercial satellite operators and is widely available to corporations, 
government users and consumers across the globe. The intelligent 
integration of satellite and terrestrial technologies can create the 
communication system that our first responders deserve.
                       terrestrial vs. satellite
    Hurricane Katrina's destruction of terrestrial communications 
facilities in the Gulf region, and therefore the services upon which 
citizens rely, was extraordinary. As we know, almost three million 
customer telephone lines were knocked down in Louisiana, Mississippi, 
and Alabama. In addition to these wire-line failures, local wireless 
networks also sustained considerable damage, with more than 1,000 cell 
sites out of service. Approximately 100 broadcast stations were knocked 
off the air, and finally, hundreds of thousands of cable customers also 
lost service.
    The resulting lack of communications infrastructure severely 
impeded the ability of first responders and others in their disaster 
relief and recovery efforts.
    The satellite industry and our satellite network infrastructure 
were not as affected by Hurricane Katrina. This is partially because 
satellites orbit high above the problems on the ground. In the hours, 
days, and weeks following these disasters, satellite networks provide 
critical communications capabilities to emergency personnel and a vital 
information link for all citizens--whether via satellite radio, 
satellite television, or via fixed satellite broadband networks or 
mobile satellite telephony.
    While the outages on terrestrial networks surged in the days 
following Katrina, satellite networks were seamlessly handling a 
corresponding surge--in demand for capacity.
    And I am happy to report to you today that our satellite voice, 
video, and data networks performed exactly as they were designed to 
perform--providing reliable and redundant communications solutions in 
times of crisis.
    I would like to take you through some of the examples of how 
satellites performed in the wake of Hurricane Katrina.
     satellite quickly stepped in to provide instant infrastructure
Mobile Satellite Services
    Within minutes of the disaster, those with satellite phones along 
the Gulf Coast turned to us for immediate telecom access. As those 
minutes turned to hours and then to days, more and more first 
responders found that satellite telephones provided a dial tone that 
other networks simply could not.
    FEMA, The National Guard, the Red Cross, state and local first 
responders, utility workers, reporters, people in search of relatives, 
and even local phone companies were among those using satellite phones 
to communicate in the aftermath of Hurricane Katrina. The Red Cross 
quickly deployed nine specially-designed Emergency Communications 
Response Vehicles (ECRV's). Each vehicle was equipped with 10 satellite 
phones and portable, tripod-mounted VSAT satellite dishes.
    Over 20,000 Globalstar, Iridium and Mobile Satellite Ventures (MSV) 
satellite phones and terminals were deployed to the region in the days 
immediately following Hurricane Katrina. In just the first 72 hours of 
the disaster, Iridium satellite telephone traffic alone in the region 
increased more than 3000 percent, while the number of subscribers 
increased more than 500 percent. Globalstar service centers activated 
satellite phones at an average rate of 1,400 per day (versus an average 
of 80 on a typical day). MSV saw approximately a 400 percent increase 
in traffic in the region and provided satellite terminals to numerous 
emergency responders, including FEMA's Urban Search and Rescue teams.
    CNN and Fox News used an Inmarsat mobile satellite terminal as the 
hurricane came ashore to provide live video reporting. One CNN van 
(Hurricane 1) was crushed by a falling roof after filming the arrival 
of the hurricane's eye-wall--fortunately, the crew was not injured, and 
the Inmarsat terminal survived intact.
    Stratos Global, a reseller of Iridium, Globalstar and Inmarsat 
capacity and equipment, also deployed a team to provide free phone 
calls home for victims at shelters set up throughout the affected area.
    Whether providing critical telecommunications in the aftermath of 
Katrina or September 11th, the Mobile Satellite Services or MSS 
industry has positioned itself to uniquely provide ubiquitous, 
reliable, interoperable, secure, and redundant communications during 
times of crisis.
    First responders, relief workers, political leaders, news 
professionals and others quickly clamored for additional phones, and 
despite the impressive statistics that I just cited, for each phone and 
terminal provided, countless other requests were unmet. Supplies were 
rationed and all of our companies had to beg, borrow and steal every 
handset and terminal they could find--both within the United States and 
abroad. In fact, many requests, including one from the House Sergeant-
at-Arms office, had to be severely limited.
    And while these mobile satellite service providers performed nearly 
flawlessly, the one portion of the satellite industry that has gone 
virtually unnoticed in these past few weeks, but has proven equally 
critical, is the FSS or fixed satellite services sector.
Fixed Satellite Services (FSS)
    After Hurricane Katrina, the fixed satellite service providers and 
their resellers also stepped in immediately to provide instant 
infrastructure and emergency voice, video, and data communications in 
the hard-hit areas. From transportable ATM machines to high-speed 
Internet access for families to stay connected, the organizations using 
these satellite communications ranged from federal, state and local 
government agencies to schools, churches and local relief 
organizations. Small businesses such as retail gas stations and 
convenience stores, and larger businesses such as insurance companies, 
financial institutions, and news organizations also used satellite 
capacity.
    For example, Hughes Networks Systems immediately re-established 
Wal-Mart's satellite communications network, helping Wal-Mart become 
one of the 'life-support systems' for the local communities during 
their recovery.
    Intelsat, Ltd. reconfigured capacity and donated service to help 
cellular providers such as Cingular, and Nextel/Sprint, and long 
distance carriers MCI, and AT&T re-establish their networks as well as 
provide capacity for emergency services via mobile vans for relief 
agencies, and mobile offices and command centers for the Department of 
Homeland Security and the Federal Emergency Management Agency.
    PanAmSat donated satellite capacity to the Red Cross to provide 
communications to about 40 of their sites and deployed an experimental 
inflatable antenna at a Red Cross center in Biloxi used by evacuees to 
send email messages to family.
    SES AMERICOM and AMERICOM Government Services donated satellite 
capacity to enable high-speed ship-to-shore communications for the USS 
Iwo Jima--which carried disaster relief teams to New Orleans with 
amphibious construction equipment and medical personnel and supplies.
    In addition, Intelsat, Loral Skynet, New Skies Satellites, 
PanAmSat, SES AMERICOM, and other FSS operators provided free satellite 
communications and satellite bandwidth to enable Internet connectivity 
as well as voice, video, and data channels to field hospitals and 
relief and rescue workers on the ground, in the air, and on the water. 
Also, without the help of the Department of Homeland Security's 
National Coordinating Center and their Telecom Industry Sector Advisory 
Committee (ISAC), the satellite industry-government coordination that 
was accomplished, especially in those first 48 hours, would have been 
substantially more difficult.
Direct Broadcast Satellite (DBS) and Satellite Radio
    In addition to the FSS and MSS sectors, the satellite broadcast 
community also played a key role, by helping to ensure there was an 
efficient method of communicating critical information to first 
responders and the general population within the areas affected by 
Hurricanes Katrina and Rita.
    Both XM Satellite Radio and DirecTV provided FEMA and the Red Cross 
with a 24/7 dedicated broadcast station for disseminating hurricane-
related information. XM's 24-hour channel called XM Emergency Alert 
(Channel 247) tracked the storm and reported on evacuation routes, and 
now provides updates about storm clean-up, road closures, school 
closings, and other vital information including information from the 
National Oceanic and Atmospheric Administration, the Department of 
Health and Human Services, the Department of Homeland Security and the 
Federal Emergency Management Agency.
    Following the storm, XM launched a new channel called Red Cross 
Radio (Channel 248) which provides information directly to Red Cross 
workers located in the Gulf Coast, as well as Red Cross aid stations. 
XM has donated more than 200 radios for Red Cross workers to listen to 
the Red Cross Radio channel.
    DirecTV also coordinated with FEMA and the Red Cross to offer live 
feeds--free of charge--to shelters and command centers throughout the 
area.
             satellite = redundancy + ubiquity + resiliency
    Something that we have been hearing repeatedly in the wake of 
Hurricane Katrina is the word ``interoperability'' and the need for 
first responders to communicate seamlessly with each other during times 
of crisis. We in the satellite industry agree that first responders at 
the federal, state and local level need an interoperable communications 
system that can be rapidly deployed anywhere in the country. We also 
know that such communications networks exist in the form of the 
applications we have just discussed that are being offered today by the 
mobile and fixed satellite industry.
    Moreover, satellite operators are investing billions of dollars in 
next-generation systems that will offer new and even better services 
for the public safety community.
    I believe one of the themes you have seen throughout my remarks 
here today is that satellites equal redundancy and ubiquity and 
resiliency. The real world examples that have presented themselves in 
recent years; 9/11, Operation Enduring Freedom, Operation Iraqi 
Freedom, the London Train bombings, and the hurricanes of 2004 and 
2005, are a testament to the fact that without satellites there is no 
redundancy. And, without the redundancy, ubiquity and resiliency that 
satellite networks provide, terrestrial-only networks become useless 
following disasters.
                            recommendations
    Despite the tremendous contributions of the satellite industry to 
the rescue and recovery efforts in the Gulf region, barriers existed 
which prevented the full use of satellite resources.
Satellites should be regarded as an essential component in all future 
        critical telecom network planning
    To enable rapid deployment and/or restoration and truly mobile 
communications, the Federal Government should incorporate satellite 
services and networks as a redundancy requirement in any communications 
network or architecture. The Department of Homeland Security is 
currently examining a range of emergency communication proposals, 
including proposals to ensure interoperability. Satellite systems 
should be emphasized and included in the early planning of these 
initiatives.
Satellite systems must be pre-deployed to a cadre of trained 
        professionals
    The US military has long known that, to be effective, you must 
``train as you fight.'' In other words, you must prepare for a crisis 
with the same intensity and dedication that you will need during the 
crisis. Past disasters have shown us that first responders must have 
the satellite tools and training they need before an emergency happens. 
Today, availability of satellite capacity and satellite ground 
equipment for emergency preparedness requirements has been handled 
largely by relying on whatever excess capacity exists at the time. 
Hurricanes Katrina and Rita have demonstrated that this type of 
reliance is flawed and ultimately dangerous.
    In the aftermath of the recent hurricanes in the Gulf Coast, when 
many terrestrial communications networks in the region were either 
totally or partially disabled, emergency responders were relying on 
satellite solutions. These solutions included satellite telephones, 
satellite bandwidth, as well as VSAT networks. The problem at that 
point was the availability of equipment and bandwidth to satisfy 
demands. Satellite phones became very difficult to find. VSAT 
equipment, in the quantities requested, was also nearly impossible to 
obtain, let alone ensure either timely importation or delivery to 
isolated locations.
    Satellite handsets and small, modern, pop-up antennas and satellite 
phones could have been pre-positioned on-site prior to Katrina and 
available for immediate deployment in the aftermath. In the hands of 
first-responders this technology could have provided the communications 
necessary to deploy safety of life services to those who needed it 
without delay.
    These products work today. They provide redundancy today. They work 
with other communications today. As such, the Government needs to 
facilitate a wider pre-positioned deployment of these assets today by 
ensuring that satellite capacity and equipment become part of the 
comprehensive redundant communications solutions used by first 
responders during the planning stages, rather than at the last minute.
Credentialing Satellite Personnel as First Responders
    The day after Katrina hit, satellite repair crews were ready to 
begin restoring service. Unfortunately, too many of these professionals 
couldn't get permission from officials to enter the area.
    Given the increasingly critical role the satellite industry is 
playing in disaster relief and recovery, satellite service providers 
and their engineers should be designated as first responders in the 
event of a major disaster and should be included in preparations for 
such events. By credentialing such individuals and companies as first 
responders we can enable critical satellite infrastructure providers 
and others to get into the affected areas to restore vital capabilities 
without delay or interference.
 Preserve and Protect Satellite Spectrum at Home and Abroad
    As discussed throughout this testimony, satellite networks are 
uniquely able to deliver redundant, reliable, and resilient 
communications services users and meet the unique demands of the public 
safety community for ubiquitous and interoperable communications.
    The availability and widespread deployment of satellite networks, 
however, depends upon the satellite industry's access to sufficient 
spectrum. Therefore, the satellite industry believes that 1) U.S. 
government policy must ensure that existing satellite spectrum be 
preserved and protected from harmful interference both at home and 
abroad; 2) the FCC's rules and policies should afford satellite 
operators sufficient technical flexibility to continue to meet the 
needs of the public safety community; and 3) the US Government should 
refrain from taking actions that undercut international allocations of 
spectrum for satellite use.
           closing--we are an essential part of the solution
    Again, to recap our recommendations;

1) Satellites must be an essential component of future critical 
        communications networks;
2) Satellite capacity and equipment must be pre-purchased and pre-
        positioned;
3) Satellite operators and personnel must be credentialed as first 
        responders; and,
4) Satellite spectrum must be preserved, and protected from 
        interference.
    We in the satellite industry are justifiably proud of the crucial 
part we have played in disaster recovery efforts by providing vital 
communications to relief workers, government agencies, churches, 
families and journalists. However, we have also been frustrated by the 
knowledge that we could have done much more. On behalf of the Satellite 
Industry Association, I urge this Committee to take steps to ensure 
that satellite systems are completely integrated into emergency 
planning and preparations so that the unique benefits our services 
offer can be fully exploited the next time disaster strikes.

    Mr. Upton. Mr. Kramer?

                   STATEMENT OF HAROLD KRAMER

    Mr. Kramer. Thank you, Chairman Upton and Members of the 
Subcommittee for this opportunity to testify this afternoon on 
the efforts of amateur radio operators providing communications 
in connection with Hurricane Katrina.
    My name is Harold Kramer. My amateur radio call sign is 
WJ1B. And I am the Chief Operating Officer for the American 
Radio Relay League, the ARRL which is the National Association 
for Amateur Radio. Amateur Radio is a voluntary communication 
service famous for providing reliable emergency and disaster 
relief communication at no cost to States, municipalities, 
disaster relief agencies, and the Federal Government. Radio 
Amateurs respond immediately following any type of emergency 
with communications facilities and systems manned by 
volunteered trained communicators.
    Amateur radio operators are probably best known for their 
immediate responses to the tragic events on September 11, 2001, 
along with hurricanes, tornadoes, earthquakes, fires, snow, 
floods and other natural disasters. They are immediately 
available during and in the aftermath of such events and 
commence their first response communications in support of 
public safety and disaster relief agencies along with State 
emergency response agencies without any advanced requests. When 
communication systems fail due to the wide area or localized 
disaster, Amateur Radio has consistently and repeatedly proven 
that it works.
    Immediately at the onset of Hurricane Katrina an all 
volunteer army of about 1,000 FCC licensed amateur radio 
operators provided continuous high frequency, VHF and UHF 
communications for State, local, and Federal emergency workers 
in and around the affected areas in Louisiana, Mississippi, and 
Alabama. These communications were provided for several 
agencies such as the Red Cross and the Salvation Army and to 
facilitate interoperability between and among first responders 
such as FEMA, National Volunteers Active in Disasters and other 
agencies. Trained, volunteer amateur radio operators also 
provided health and welfare communications from within the 
affected areas to the rest of the United States and the world.
    In the days after Hurricane Katrina, the Coastguard, the 
Red Cross, and FEMA all put out calls for volunteer amateur 
radio operators to provide communications because phone lines 
and cell sites were inoperative and public safety 
communications were overwhelmed due to the loss of repeater 
towers and the large number of first responders in the area. 
Amateur radio operators responded en masse. Approximately 200 
Amateur Radio emergency service communicators responded 
immediately. The number of amateur radio operators providing 
communications in the three States who were either deployed or 
awaiting relief duty onsite or at the reserve facility in 
Montgomery, Alabama swelled to over 1,000 within a week.
    The principal reason why Amateur Radio works when over 
communication systems fail during natural disasters is that 
Amateur Radio is not infrastructure dependent, it is 
decentralized. Amateurs are well-trained in emergency 
communications. We practice a lot. They are disciplined 
operators and their stations are in general both portable and 
reliable. High frequency Amateur Radio communications use 
substantially in this communications effort requires no fixed 
repeaters, cable, or wire lines. Portable repeaters for VHF and 
UHF communications were provided very quickly via mobile 
facilities in the affected areas.
    Specifically, in Mississippi, FEMA dispatched amateur radio 
operators to hospitals and evacuation shelters to relay 
emergency calls 24 hours a day. At airports in Texas and 
Alabama, radio amateurs tracked evacuees and notified the Baton 
Rouge Operating Center of their whereabouts so their families 
would be able to find them. Amateur radio operators in New 
Orleans participated directly in locating stranded persons 
because local cell phone calls could not be made by stranded 
victims due to the inoperative water line systems in the area. 
The Red Cross deployed qualified Amateur Radio volunteers to 
250 shelters and food kitchens in Mississippi, Alabama, and 
Northern Florida.
    Amateur Radio provided a critical link between Coast Guard 
helicopters and emergency centers because the ambulance crews 
could not contact the helicopters directly. In Texas, Amateur 
radio operators worked 24 hours a day in the Astrodome in 
Houston, in the Reliance Center next door, and in the Harris 
County Emergency Operations Center. In San Antonio at the Kelly 
Air Force Base, radio amateurs from Montana provided local and 
national health and welfare communications for evacuees. These 
examples were repeated throughout the Gulf Coast and in the 
southern cities that received a large number of evacuees.
    In closing, Mr. Chairman, the Committee should be aware 
that this vast volunteer resource in support of public safety 
is always at the disposal of the Federal Government and of 
State and local Governments. The United States can absolutely 
rely on the Amateur Radio service. Amateur Radio provides 
immediate high quality communications that work every time when 
all else fails.
    Thank you again, Mr. Chairman and members of the 
subcommittee for the opportunity to testify today on the views 
of the ARRL and its membership and I would welcome any 
questions.
    [The prepared statement of Harold Kramer follows:]
   Prepared Statement of Harold Kramer, Chief Operating Officer, The 
                 National Association for Amateur Radio
    Thank you, Mr. Chairman and members of the subcommittee, for the 
opportunity to testify today on issues related to Public Safety 
Communications. As Chief Operating Officer of ARRL, the National 
Association for Amateur Radio, it gives me great pleasure to provide 
this statement for the record to the Committee on the successful 
efforts of Amateur Radio operators providing communications for First 
Responders, Disaster Relief agencies, and countless individuals in 
connection with the Hurricane Katrina relief effort. As has been proven 
consistently and repeatedly in the past, long before the 9/11 terrorist 
attacks, when communications systems fail due to a wide-area or 
localized disaster, whatever the cause, Amateur Radio works, right 
away, all the time. This is not a statement of concern about what must 
be changed or improved. It is, rather, a report on what is going right, 
and what works in emergency communications, and what can be depended on 
to work the next time there is a natural disaster, and the times after 
that.
    Immediately at the onset of Hurricane Katrina, an all-volunteer 
``army'' of approximately 1,000 FCC-licensed Amateur Radio operators 
provided continuous high-frequency (HF), VHF and UHF communications for 
State, local and Federal emergency workers in and around the affected 
area in Louisiana, Mississippi, and Alabama. These communications were 
provided for several agencies such as the American National Red Cross 
and the Salvation Army, and to facilitate interoperability between and 
among these agencies; First Responders; FEMA, VOAD (National Volunteers 
Active in Disasters) and other agencies. Trained volunteer Amateur 
Radio operators also provided health and welfare communications from 
within the affected area to the rest of the United States and the 
world. Amateur Radio was uniquely suited to this task by virtue of the 
availability of HF communications covering long distances without fixed 
infrastructure. During the week of September 7, 2005, the Coast Guard, 
the Red Cross, and the Federal Emergency Management Agency all put out 
calls for volunteer Amateur Radio operators to provide communications, 
because phone lines, cell sites and public safety repeaters were 
inoperative, and those public safety communications facilities which 
were operational were overwhelmed due to loss of repeater towers and 
the large number of First Responders in the area. Amateur Radio 
operators responded en masse: Approximately 200 Amateur Radio Emergency 
Service (ARES) trained communicators responded to the Gulf Coast within 
a week after the call. The Red Cross, a week after they issued the 
call, notified ARRL that they had enough radio operators and Amateur 
Radio communications facilities. The number of Amateur Radio operators 
providing communications in the three States, either deployed or 
awaiting relief duty on-site or at a reserve facility in Montgomery, 
Alabama, swelled from 800 to 1,000 in a week. Many more thousands of 
radio amateurs outside the affected area regularly monitored radio 
traffic and relayed thousands of messages concerning the welfare and 
location of victims.
    The principal reason why Amateur Radio works when other 
communications systems fail during natural disasters is that Amateur 
Radio is not infrastructure-dependent, and is decentralized. Amateurs 
are trained in emergency communications. They are disciplined 
operators, and their stations are, in general, portable and reliable. 
High-frequency Amateur Radio communications, used substantially in this 
emergency communications effort, require no fixed repeaters, cable or 
wirelines. Portable repeaters for VHF and UHF communications can be 
provided via mobile facilities (many Amateur Radio groups deployed 
communications vans in the Gulf Coast for precisely this purpose) in 
affected areas instantly. There are now approximately 670,000 licensees 
of the FCC in the Amateur Service, which assures the presence of 
Amateur stations in most areas of the country. Emergency communications 
are conducted not only by voice, but also by high-speed data 
transmissions using state-of-the-art digital communications software 
known as WinLink. As Motorola's Director of Communications and Public 
Affairs stated earlier this month: ``Amateur Radio communications 
benefit us all by having a distributed architecture and frequency 
agility that enables you to set up faster in the early phases of 
disaster recovery and can provide flexible and diverse communications--
Motorola believes that the Amateur Radio spectrum provides valuable 
space for these important communications.''
    In Mississippi, FEMA dispatched Amateur Radio operators to 
hospitals and evacuation shelters to send emergency calls 24 hours per 
day. At airports in Texas and Alabama, radio amateurs tracked evacuees 
and notified the Baton Rouge operations center of their whereabouts so 
their families would be able to find them. Amateur Radio operators in 
New Orleans participated directly in locating stranded persons, because 
local cellphone calls could not be made by stranded victims due to the 
inoperative wireline systems in the area. The Red Cross deployed 
qualified amateur radio volunteers at its 250 shelter and feeding 
station locations, principally in Mississippi, Alabama and northern 
Florida.
    The local 911 operators could not handle calls from relatives 
calling in from outside the affected area, so they passed those 
``health and welfare'' inquiries to amateur radio operators stationed 
at the 911 call centers, for relay of information back to New Orleans 
to facilitate rescue missions for stranded persons.
    Amateur Radio provided a communications link between Coast Guard 
helicopters and emergency centers because the ambulance crews couldn't 
contact the helicopters directly. In Texas, Amateur Radio operators 
worked 24 hours per day in the Astrodome in Houston and the Reliant 
Center next door, and as well in the Harris County Emergency Operations 
Center. In San Antonio, at the Kelly Air Force Base, radio amateurs 
from Montana provided local and national health and welfare 
communications for evacuees. These examples were repeated throughout 
the Gulf Coast and in the cities in the southern states receiving large 
numbers of evacuees.
    The Salvation Army operates its own Amateur Radio communications 
system using Amateur Radio volunteers, known as SATERN. In the 
Hurricane Katrina effort, SATERN has joined forces with the federal 
SHARES program (SHAred RESources), which is a network of government, 
military and Military Affiliate Radio Service (MARS) radio stations. 
MARS is an organized network of Amateur Radio stations affiliated with 
the different branches of the armed forces to provide volunteer 
communications. SATERN, in the Katrina relief effort, received over 
48,000 requests for emergency communications assistance, and the 
affiliation with the SHARES program allows the Salvation Army to 
utilize Federal frequencies to communicate with agencies directly. This 
is but one example of the innovative and reliable means by which 
Amateur Radio right now provides organized interoperability on a scope 
far beyond that now being planned for local and State public safety 
systems.
    Much discussion has been given in recent years to the issue of 
Public Safety interoperability. The Amateur Radio Service provides a 
good deal of interoperability communications for First Responders in 
disaster relief incidents. This critical role for our Service exists 
because, though there are interoperability channels right now in most 
Public Safety frequency allocations, those channels, and all others, 
become useless where the communications infrastructure of public safety 
facilities becomes inoperative. Interoperability, in short, presumes 
operability of Public Safety facilities. While some ``hardening'' of 
public safety facilities is called for, there is in our view an 
increasing role for decentralized, portable Amateur Radio stations 
which are not infrastructure-dependent in providing interoperability 
communications on-site.
    Mr. Chairman, Amateur Radio is largely invisible to both the FCC 
and to Congress on a daily basis, because it is virtually self-
regulating and self-administered. It is only during emergencies that 
the Amateur Radio Service is in the spotlight. At other times, 
emergency communications and technical self-training and advancement of 
telecommunications technology occupy licensees' time. For the first 
time ever, in recognition of the work of Amateur Radio Operators in 
this Hurricane Relief effort, the Corporation for National And 
Community Service (CNCS), which provides strategic critical support to 
volunteer organizations which in turn provide services to communities, 
has made a $177,000 grant supplement to ARRL to support the Katrina 
emergency communications efforts in the Gulf Coast. This enables ARRL 
to reimburse to a small degree, on a per diem basis, some of the 
expenses that radio amateurs incur personally in traveling to the Gulf 
Coast to volunteer their time and effort. The CNCS grant is an 
extension of ARRL's three-year, Homeland Security training grant, which 
has to date provided certification in emergency communication training 
protocols to approximately 5,500 Amateur Radio volunteers over the past 
three years.
    ARRL wishes to commend the FCC's Enforcement Bureau (specifically 
the Special Counsel for Amateur Radio Enforcement), for the efficient 
and successful effort during the Hurricane Katrina relief in monitoring 
the Amateur Radio High Frequency bands to prevent or quickly remedy 
incidents of interference.
    In closing, Mr. Chairman, the Committee should be aware that this 
vast volunteer resource in support of Public Safety is always at the 
disposal of the Federal government and to State and local government. 
The United States absolutely can rely on the Amateur Radio Service. 
Amateur Radio provides immediate, high-quality communications that work 
every time, when all else fails.
    I thank you again, Mr. Chairman and members of the subcommittee, 
for the opportunity to testify today on the views of the ARRL and its 
membership. I would welcome any questions.

    Mr. Upton. Well thank you.
    Thank you all for your very good testimony. We look forward 
to you answering some of our questions and again note that some 
of members are on other subcommittees that are meeting and we 
are expecting votes on the floor soon so we may be sending you 
questions like we did with the first panel.
    Mr. Roemer, we again appreciated your testimony. Something 
I said earlier, you were not here because I know you were not 
here for the entire first panel that was here, but it does look 
like we have an agreement and not only with the House and the 
Senate, but with Republicans and Democrats on actually setting 
a date as part of the transition for the DTV Bill that we are 
anticipating a move to the House floor as early as next month. 
And with that, of course, comes in, once that happens will free 
up some more spectrum, which is so important for our first 
responders and it really seems to be quite a theme that we have 
heard for some time.
    As it relates to that, Lieutenant Colonel Miller, I have 
seen the TACNET devices in some of our police vehicles back 
home. I think it was both in sheriff, county sheriff, as well 
as, State Police vehicles. Are those and for those in the 
audience, these are little mini computers that are in the squad 
car where the officer is able to identify with a license 
number, get a history of not only the driver but the vehicle, 
all those different things. They are, in fact, do provide what 
we need, does it not, in terms of interoperability between the 
different departments? Does the TACNET, do those devices have 
interoperability with--as it relates to the other first 
responders? It provides a shell to communicate with that device 
to the State Police to fire and rescue?
    Mr. Miller. It does provide that capability, Mr. Chairman, 
it is multifaceted technology in the sense that one of the 
primary benefits of the technology is it improves the interior 
ergonomics and safety of the patrol car. But in addition to 
that, they have fashioned the technology to provide the 
capability to link up to five disparate systems or frequencies 
so that they can communicate within a specific geographical 
area.
    Mr. Upton. Now does that utilize the 800 megahertz 
spectrum, do you know?
    Mr. Miller. It can operate at any spectrum level based on 
whatever system the agencies within that geographical area are 
operating on.
    Mr. Upton. Now how is that again? I am making it sort of a 
Michigan related question. Our delegation, Mr. Stupak, myself, 
others, the Senate, as well, work very hard to get a weapons of 
mass destruction team, civil support team which is now based, 
as it turns out, in Battle Creek at Fort Custer. I watched some 
of their operations as they integrate their personnel with 
different first responders in my district but I know they have 
been to the Upper Peninsula and other places around. I also 
know that they work with other States as part of the Defense 
Authorization Bill a couple of years ago. Every State is now 
going to have one of these teams and they have a pretty 
sophisticated communication device and I think they have five 
vehicles, 22 staff, but obviously communications where they can 
downlink right into the Pentagon and work, integrate again with 
our first responders. Have you worked with that particular team 
out of Battle Creek?
    Mr. Miller. Our personnel have. Congressman we have a 
comprehensive strategy in the State where our military affairs, 
Department of Military Affairs, our military have the State 
public safety communication system equipment and have access to 
that equipment. They are in the State EOC in the case of any 
event or any disaster. So they absolutely have the ability to 
communicate with public safety and coordinate a response to any 
type of incident within our State.
    Mr. Upton. And the equipment they have obviously is mobile. 
I mean one of the reasons why they are in Battle Creek is that 
there is an Air Force installation there so they are able to 
use the runways, but it is also on an interstate and they are 
actually able to deploy, you know, with relative ease 
throughout the State.
    Mr. Trujillo, one of the things we heard quite a bit and I 
had some private conversations with Chairman Martin earlier 
this week and the last couple weeks actually was the great 
success of the satellite industry in terms of coming to the 
needs of those with Katrina in the ability finally to bring in 
literally thousands of devices begin to set up the links 
terrestrial with the satellite. Some of that was mobile that 
they brought in, but I think some of the firms had literally 
one drop. How important is it to have a stockpile of this 
equipment to be able to pre-deploy it in a variety of different 
places around the country and how active is--what do you see 
the needs of the satellite industry in terms of providing that 
type of benefit and who should manage it? Should it be directly 
our first responders, should it be through the DHS, maybe 
through regional offices, should the FCC? What are some of your 
suggestions as it relates to that?
    Mr. Trujillo. Well assuming the question, Mr. Chairman that 
mainly following the disaster that it became clear there was a 
paucity of mobile satellite phones in the State of Mississippi 
and certainly one of the things we are advocating is the idea 
that we ought to pre-deploy some of this equipment to areas 
that it can be quickly funneled into the affected areas before 
a disaster strikes. So we certainly think that pre-deployment 
and credentialing satellite personnel to help with the 
infrastructure there is very important.
    In terms of at the Federal, State, and local levels who 
should be responsible, I think in some of these disasters such 
as a Katrina, it clearly would benefit from a Federal 
coordination effort in whether it is this new bureau that 
Chairman Martin discussed or, you know, an internal agency sort 
of set of some kind. The important thing is to secure satellite 
capacity ahead of time, secure the satellite equipment ahead of 
time and have it pre-deployed so that it is immediately 
available when disaster strikes. That would be very helpful.
    Mr. Upton. Let me ask one more question before I yield to 
my colleague and that is we saw Katrina coming. I mean all of 
us that watch The Weather Channel, CNN, a couple days saw this, 
you know, giant storm moving its way through the Keys and then 
up. At what point did the satellite industry realize that they 
needed to come up--that they could really be of true assistance 
by providing these devices? Was it after the storm hit? Were 
there any preparations made before the storm hit in terms of 
assembling caches of these, of this material and be willing to 
respond to FEMA and others that--when it was ready? At what 
point did you really start hitting the panic button and getting 
things ready?
    Mr. Trujillo. Well generally speaking, I would say that it 
was certainly a case that our commercial customers were much 
more sensitized to the impending disaster that was looming on 
the television screen and heading toward the Gulf Coast. And we 
were already working with our commercial customers and to a 
degree also with the Government customers. But the problem was 
is that there was not the equipment, the satellite phones, and 
that kind of equipment on the ground already or in preset 
staging areas that you could truck it in very quickly or fly it 
in very quickly. The wonderful thing about the satellites are 
that they are 22,000 miles above the earth's equator. They are 
impervious to what is going on on the surface of the earth. It 
is just a matter of getting the equipment to the right people, 
first responders and others.
    Mr. Upton. Last question very briefly, how hard was it to 
get that XM station literally into a local station that folks 
on the ground could listen to? Did they have to get a special 
waiver from the FCC?
    Mr. Trujillo. No, sir. The issue there really was that if 
you were not an XM radio customer, you would not have gotten 
access to it.
    Mr. Upton. You would not get it.
    Mr. Trujillo. Right, that was the issue there.
    Mr. Upton. So they had the capacity to add the station?
    Mr. Trujillo. Yes, sir.
    Mr. Upton. Mr. Stupak?
    Mr. Stupak. Thank you, Mr. Chairman.
    Congressman Roemer, good to see you again.
    Mr. Roemer. Good to see you, Congressman.
    Mr. Stupak. You were co-chair on the 911 Commission when 
Governor King said after Katrina hit he said ``It is the same 
thing all over again. It is a lack of communication, first 
responders not being able to talk to each other. It is no 
command and control. Nobody is in charge. It is delayed 
responses. It is basically many of the things that frankly if 
some of our recommendation had been passed by the U.S. 
Congress, that could have been avoided.'' And your statement 
today seemed to echo those same comments. In fact, the 9/11 
Commission said Federal funding of such interagency 
communication units should be given a high priority. And do you 
think Congress has heeded that advice?
    Mr. Roemer. Well Congressman, in my testimony, what I am 
very clear about is that we need to do this now not next week, 
not 2 years from now, not 4 years from now, as quickly as 
possible. Look, we know that we are going to have another 
natural disaster. We know Al Qaeda or jihadists are going to 
attack us again. We know looking back at 9/11 that lives were 
lost because we did not have interoperability and we did not 
have access to public radio spectrum. We know in New Orleans 
that lives were lost because we did not have this capability. 
We need it now. These folks need it now. And we are very clear 
about that.
    We are also very clear, Congressman as you well know as a 
fiscal conservative that we outline in the 9/11 Commission 
report, Lieutenant Colonel Miller talked at length about this. 
He needs funding for aging equipment. Congress needs not to 
spend money, you know, on how pork barrel weighs on Homeland 
Security but to respond to a national strategic plan developed 
by Homeland Security and Congress that will invest wisely in 
things like public radio spectrum, incident command and 
control, evacuation plans that are worked, practiced, and 
simulated so that we can get people out of the fourth largest 
city in the country like Houston. We are not doing that. We 
have not done any of those three things yet, incident command 
and control, evacuation plans that are tested and simulated for 
Federal Funds to be allocated and this public radio spectrum. 
So we hope Congress will act right away on these kinds of 
initiatives.
    Mr. Stupak. Well even if it costs, and I do not believe it 
does, but even if it costs $18 billion to make us fully 
interoperable, when you pass a budget that has $106 billion in 
tax breaks for a limited number of people in this country, I 
would think we would cut that back at least $18 billion and get 
us interoperable so all Americans can be protected during 
natural disaster and a terrorist attack, wherever it might be.
    The part that baffles me a little bit is it almost seems 
like we use this 700 megahertz spectrum sale which is supposed 
to be in 2008 as an excuse not to do anything like nothing can 
happen. We cannot do anything because we got to sell the 
spectrum and then we will be able to do it. But Lieutenant 
Colonel Miller in your testimony, you talk about TACNET and in 
fact a question by Mr.--Chairman Upton you talked about patch 
and that technology has been around for awhile. And we have Mr. 
Trujillo, I am sorry, satellite phones. Why can't we--we knew 
that Hurricane Katrina was going to hit. We all watched it. We 
knew it was going to--they could tell you the exact time it was 
going to hit and we knew that for days. Why could not we put 
some TACNET, some patch, code spear, satellite phones down 
there? Why couldn't we pre-deploy it? Why couldn't we interface 
communication systems with patch or TACNET or some of the other 
technologies you are using right now in Michigan?
    Mr. Miller. Michigan State Police responded with other 
Michigan law enforcement agencies to assist down there. We took 
our communications equipment there and we operated out of 
Louisiana State Police communication system. We reprogrammed, 
the technology is there. It is not something that----
    Mr. Stupak. How long did it take you to reprogram it?
    Mr. Miller. We reprogrammed those radios probably in 
hours----
    Mr. Stupak. We knew days before that Katrina was going to 
hit. We knew that it was going to be a Category 4 or 5 but no 
one thought of it.
    Mr. Miller. Right.
    Mr. Stupak. You know, I called the guys from Cold Spear and 
said could you have done something, could you have interfaced 
the communication system in greater New Orleans? They sure, I 
said, how much time do you need, just a couple hours. That is 
interfacing it through their computer system and I know you are 
using it for your emergency services. I know Wayne Gulley is 
using it. But aren't you using the same system with Ohio right 
now as pilot program?
    Mr. Miller. There is some alerting and notification pilots 
that we are doing there.
    Mr. Stupak. Right.
    Mr. Miller. The big issue in my mind as a law enforcement 
administrator is you cannot legislate leadership. And a lot of 
discussion has gone on today about proper planning, proper 
training, proper coordination, proper exercise and Congressman 
Roemer mentioned that. The Department of Homeland Security 
funds those types of initiatives today. The real issue is 
getting people to the table to develop a strategy in ensuring 
that the Federal Government requires the State and local 
Government to adhere to a standard and to adhere and to develop 
a strategy before you fund anything. If you are funding 
initiatives that are not cooperative efforts that are not 
enhancing interoperability and you are not tying those funding 
requirements to that, you are going to continue to have 
agencies out there purchasing equipment that is not going to 
communicate with each other. And that is really the issue here 
is developing those requirements at the Federal level and then 
ensuring at a State and local level that there is leadership 
that places a proper sense of urgency on this issue.
    Mr. Stupak. Sure, I do not dispute that and I agree having 
been in law enforcement that there is jurisdictional turf wars 
many times when you are doing this thing but I would think when 
you have a Hurricane 5, Level 5 bearing down on you, a little 
common sense would prevail and you could bring the satellite 
phones and get them properly deployed. I think I read somewhere 
there was only 200 in all of the Gulf Region when Katrina hit. 
Well, why don't we pre-deploy that stuff. Why don't we have 
your patch system and others there? Why do we have to wait 
until after the fact and then why does the helicopters from the 
Coast Guard cannot talk to the people in the boats as we are 
all talking about when it could be done if we just pre-deploy, 
plan ahead. Someone has got--I mean, the President declared the 
Gulf Region a national disaster area before, a day or two 
before the storm ever hit, I think 48 hours before. So I guess 
maybe it is leadership but I get frustrated sitting here. I 
have heard this for so many years.
    And someone mentioned the plane going down the Potomac that 
was in 1982. I was still in the State Police then. I remember 
that well. And then that was the start of the--Congress should 
have been alerted then in 1982 since it happened in their back 
yard about interoperability and I have heard about this for 20, 
30 years since I have been in police work. But it is just sort 
of frustrating to sit here and it seems like we always have 
excuses below practical common knowledge and we could get some 
of this stuff done before it hits. We know that there are 
certain cities that are subject for a terrorist attack. Why 
can't we pre-deploy right now? We do not have to wait for 700 
megahertz spectrum sale.
    And I am not going to go to you, Chairman, on that but I am 
just--the frustration just continues on and on here.
    So I thank all of you for providing good insight to us and 
we appreciate everything you have done.
    Mr. Upton. Well I share those sentiments and I was looking 
forward to supporting the gentleman from Michigan's amendment 
yesterday on the Department of Justice Bill that would have 
added, I think a half a billion dollars for interoperability 
and sadly it was denied as an amendment on the House floor but 
I was looking forward to voting for that and was surprised when 
it was not allowed.
    But I just want to again underscore our thanks to all of 
you. It is helpful for all of us. I cannot think of a higher 
priority within the Department of Homeland Security as we look 
to defend not only our first responders, the men and women that 
put their lives on the line every day but in order to do their 
job to help all of us non-first responders, they have got to 
have that equipment and for the life of me, sometimes I do not 
understand some of the priorities within the funding stream of 
what their providing when, in fact, here we are 4 years later 
and it is the same thing happened again. Who knows that it 
would not be the same result that we have been commiserating 
about over the last 4 years. So again, I appreciate your 
testimony, your work. We look forward to hearing from you in 
the days and months ahead and we wish you the very best.
    Thank you. We will adjourn the hearing.
    [Whereupon, at 3:35 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHIC] [TIFF OMITTED] T4252.046
    
    [GRAPHIC] [TIFF OMITTED] T4252.047
    
    [GRAPHIC] [TIFF OMITTED] T4252.048
    
    [GRAPHIC] [TIFF OMITTED] T4252.049
    
    [GRAPHIC] [TIFF OMITTED] T4252.050
    
    [GRAPHIC] [TIFF OMITTED] T4252.051
    
    [GRAPHIC] [TIFF OMITTED] T4252.052
    
    [GRAPHIC] [TIFF OMITTED] T4252.053
    
    [GRAPHIC] [TIFF OMITTED] T4252.054
    
    [GRAPHIC] [TIFF OMITTED] T4252.055
    
    [GRAPHIC] [TIFF OMITTED] T4252.056
    
    [GRAPHIC] [TIFF OMITTED] T4252.057
    
    [GRAPHIC] [TIFF OMITTED] T4252.058
    
    [GRAPHIC] [TIFF OMITTED] T4252.059
    
    [GRAPHIC] [TIFF OMITTED] T4252.060
    
    [GRAPHIC] [TIFF OMITTED] T4252.061
    
    [GRAPHIC] [TIFF OMITTED] T4252.062
    
    [GRAPHIC] [TIFF OMITTED] T4252.063
    
    [GRAPHIC] [TIFF OMITTED] T4252.064
    
    [GRAPHIC] [TIFF OMITTED] T4252.065
    
    [GRAPHIC] [TIFF OMITTED] T4252.066
    
    [GRAPHIC] [TIFF OMITTED] T4252.067
    
    [GRAPHIC] [TIFF OMITTED] T4252.068
    
    [GRAPHIC] [TIFF OMITTED] T4252.069
    
    [GRAPHIC] [TIFF OMITTED] T4252.070
    
    [GRAPHIC] [TIFF OMITTED] T4252.071
    
    [GRAPHIC] [TIFF OMITTED] T4252.072
    
    [GRAPHIC] [TIFF OMITTED] T4252.073
    
    [GRAPHIC] [TIFF OMITTED] T4252.074
    
    [GRAPHIC] [TIFF OMITTED] T4252.075
    
    [GRAPHIC] [TIFF OMITTED] T4252.076
    
    [GRAPHIC] [TIFF OMITTED] T4252.077
    
    [GRAPHIC] [TIFF OMITTED] T4252.078
    
    [GRAPHIC] [TIFF OMITTED] T4252.079
    
    [GRAPHIC] [TIFF OMITTED] T4252.080
    
    [GRAPHIC] [TIFF OMITTED] T4252.081
    
    [GRAPHIC] [TIFF OMITTED] T4252.082
    
    [GRAPHIC] [TIFF OMITTED] T4252.083
    
    [GRAPHIC] [TIFF OMITTED] T4252.084
    
    [GRAPHIC] [TIFF OMITTED] T4252.085
    
    [GRAPHIC] [TIFF OMITTED] T4252.086
    
    [GRAPHIC] [TIFF OMITTED] T4252.087
    
    [GRAPHIC] [TIFF OMITTED] T4252.088
    
    [GRAPHIC] [TIFF OMITTED] T4252.089
    
    [GRAPHIC] [TIFF OMITTED] T4252.090
    
    [GRAPHIC] [TIFF OMITTED] T4252.091
    
    [GRAPHIC] [TIFF OMITTED] T4252.092
    
    [GRAPHIC] [TIFF OMITTED] T4252.093
    
    [GRAPHIC] [TIFF OMITTED] T4252.094
    
    [GRAPHIC] [TIFF OMITTED] T4252.095
    
    [GRAPHIC] [TIFF OMITTED] T4252.096
    
    [GRAPHIC] [TIFF OMITTED] T4252.097
    
    [GRAPHIC] [TIFF OMITTED] T4252.098
    
    [GRAPHIC] [TIFF OMITTED] T4252.099
    
    [GRAPHIC] [TIFF OMITTED] T4252.100
    
    [GRAPHIC] [TIFF OMITTED] T4252.101
    
    [GRAPHIC] [TIFF OMITTED] T4252.102
    
    [GRAPHIC] [TIFF OMITTED] T4252.103
    
    [GRAPHIC] [TIFF OMITTED] T4252.104
    
    [GRAPHIC] [TIFF OMITTED] T4252.105
    
    [GRAPHIC] [TIFF OMITTED] T4252.106
    
    [GRAPHIC] [TIFF OMITTED] T4252.107
    
    [GRAPHIC] [TIFF OMITTED] T4252.108
    
    [GRAPHIC] [TIFF OMITTED] T4252.109
    
    [GRAPHIC] [TIFF OMITTED] T4252.110
    
    [GRAPHIC] [TIFF OMITTED] T4252.111
    
    [GRAPHIC] [TIFF OMITTED] T4252.112
    
    [GRAPHIC] [TIFF OMITTED] T4252.113
    
    [GRAPHIC] [TIFF OMITTED] T4252.114
    
    [GRAPHIC] [TIFF OMITTED] T4252.115
    
    [GRAPHIC] [TIFF OMITTED] T4252.116
    
    [GRAPHIC] [TIFF OMITTED] T4252.117
    
                                 <all>

</pre></body></html>
